2012
 two thousand twelve




                       Department of the Navy Fiscal Year 2012 Annual Financial Report

                       Protect the Nation,
                       Project Power,
                       Provide Freedom of the Seas
Department of the Navy Fiscal Year 2012 Annual Financial Report

         Protect the Nation,
            Project Power,
      Provide Freedom of the Seas
2012
 two thousand twelve




                                                                                                                                Contents
                 Message from the Secretary of the Navy .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

                 Message from the Assistant Secretary of the Navy
                 (Financial Management & Comptroller). .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

                 Management’s Discussion and Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

                 General Fund Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

                 General Fund Required Supplementary Stewardship Information.  .  .  .  .  . 79

                 General Fund Required Supplementary Information .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87

                 General Fund Other Accompanying Information. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 95

                 Navy Working Capital Fund Principal Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99

                 Navy Working Capital Fund Required Supplementary Information .  .  . 127

                 Navy Working Capital Fund Other Accompanying Information .  .  .  .  .  . 129

                 Audit Opinions.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 131


                                                                                           Protect the Nation, Project Power, Provide Freedom of the Seas                              1
                                            THE SECRETARY OF THE NAVY
                                               WASHINGTON, DC 20350-1000




                                  November 2012

                                  This year marks the 200 year anniversary of the War of 1812 and the writing
                                  of our National Anthem, the Star Spangled Banner. As the Department of the
                                  Navy (DON) reflects upon the sacrifices that guaranteed our independence
                                  and ensured our future, we prepare for future challenges under a new National
                                  Defense Strategy (NDS).

                                Our new strategy requires the Navy and Marine Corps to remain uniquely
                                positioned to continue to defend American freedoms with the best
                                expeditionary fighting force known. Our Sailors and Marines are standing the
                                watch and sustaining people across the global commons. From the mountains
                                of Afghanistan to the coasts of Africa, they stand ready to provide unsurpassed
military capability where and when necessary and compassionate humanitarian aid wherever catastrophe strikes.

While we remain committed to this mission, we continue our quest toward global force superiority through
new initiatives such as our movement toward energy independence and new fuel sources as well as upgrading
technology to ensure the cyber security of our forces.

Achieving all of these goals is closely linked to our ability to improve our financial posture and comply with
Federal audit readiness standards. To that end, we continue to improve the reliability of our financial and
performance data and correct material control weaknesses that impact the DON’s fiscal efficiency.

We remain mindful of the fiscal challenges facing our country as we begin to execute our NDS. While outlining
our mission, goals and accomplishments, the DON’s Fiscal Year 2012 Annual Financial Report, Protect the
Nation, Project Power, Provide Freedom of the Seas, also conveys our enduring commitment to maintaining efficient,
accountable, and transparent financial processes.

I’m pleased to present the results of this report and hope you join me in recognizing the significant
accomplishments we have made in the DON in 2012.




                                                    Ray Mabus




2
                                       THE ASSISTANT SECRETARY OF THE NAVY
                                       (FINANCIAL MANAGEMENT AND COMPTROLLER)
                                                  1000 NAVY PENTAGON
                                               WASHINGTON, DC 20350-1000



                                  November 2012

                                  The guiding principle in overseeing Navy and Marine Corps financial
                                  operations is to provide seamless support, allowing warfighters to meet their
                                  mission objectives for the nation’s defense. Our deployed forces, as well as those
                                  at our home stations, must have the right resources and capabilities at the right
                                  time. Our business and financial systems must enable effective employment of
                                  our national defense capacity. At the same time, we must ensure the confidence
                                  of the public that taxpayer dollars are being used most efficiently. We take
                                  serious our commitment to both the warfighter and the taxpayer, thus achieving
                                  audit readiness is a key component of our ongoing efforts.

                                   To this end, we continue to progress toward a sustainable, financially auditable
business environment. Our commitment to audit readiness spans the entire Department of the Navy (DON). At
every level, we have expended significant time and energy toward this end with our efforts resulting in greater
ownership, accountability and awareness. We have made considerable progress in improving our business
processes and fiscal discipline. In addition, the DON emphasizes the importance of cost analysis in informing
decisions about where and when to apply resources to national defense requirements.

Just as every individual in the DON contributes to our national defense, they must also be conscientious in
supporting financial audit readiness. Our business and financial processes touch every area of warfighting and
improvements will only enhance our ability to effectively and efficiently support our warfighters. We continue to
train and offer career broadening assignments for our financial management workforce and to provide support
for our business process owners.

Secretary Mabus and I remain committed to supporting the National Defense Strategy (NDS) objectives while
assuring the public that the Department is carefully and efficiently managing the taxpayer’s resources with
integrity and dedication.




                                               Gladys J. Commons




                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   3
    Department of the Navy Fiscal Year 2012 Annual Financial Report

             Protect the Nation,
                Project Power,
          Provide Freedom of the Seas




4
Management’s Discussion and Analysis
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   5
An Explosive Ordnance Disposal Technician is hoisted to a MH- 60S Sea
Hawk helicopter from the Eightballers of Helicopter Strike Squadron
(HSC 8) attached to the Nimitz-class aircraft carrier USS John C. Stennis   Convoys drive to Camp Buehring, Kuwait, as U.S. forces depart Iraq.
(CVN 74). John C. Stennis is deployed to the U.S. 5th Fleet area of
responsibility conducting maritime security operations and support
missions as part of Operation Enduring Freedom.




                                                                                                                           Overview
The U.S. Navy was founded on 13 October 1775, and                           forces, Medical units, and as Individual Augmentees
the Department of the Navy (DON) was established                            (IAs). Our Sailors and Marines are fully engaged on the
on 30 April 1798. The DON primarily consists of                             ground, in the air, and at sea in support of operations
two uniformed Services: the U.S. Navy and the U.S.                          in Iraq and Afghanistan. As the DON continues
Marine Corps, and, in time of war, the U.S. Coast                           to operate forward across the globe, providing the
Guard (in peace, a component of the Department of                           nation offshore options to deter and defeat aggression
Homeland  Security).                                                        today and in the future, the Navy and Marine Corps
                                                                            capabilities and capacity will prove crucial as our
The service and sacrifice of Sailors and Marines is a                       nation’s focus shifts to the Asia-Pacific region.
daily reminder that we are a nation at war. Today’s
Navy and Marine Corps team maintains its active                             Currently, the DON’s forces are split 50/50 between
contribution to continuing Overseas Contingency                             the Asia-Pacific and the Middle East. This new strategy
Operations, and remains committed to supporting                             would shift 60% of our naval forces to Pacific ports.
non-traditional joint requirements in Iraq, Afghanistan,                    The mobilization of warships will be accompanied
the Horn of Africa, and other locations worldwide.                          by an increase in the number of military exercises
The Navy has over 40,000 active and reserve sailors                         conducted by the Pentagon in the region, involving
continually deployed in support of the contingency                          air, sea, and land forces. Most will be carried out in
operations overseas serving as members of Carrier                           conjunction with countries that are openly or tacitly
Strike Groups (CSGs), Expeditionary Strike Groups                           allied with the U.S., including Japan, South Korea,
(ESGs), Special Operating Forces, Seabee units, Marine                      Australia, and the Philippines. Essential to this


6
                                                                          Some of the 2,534 solar photovoltaic (PV) panels installed on
An Air Traffic Controller loads water bottles to assist service members   the roof of Naval Air Station Jacksonville’s Hangar 1122 to help
in need of water during the aftermath of Hurricane Isaac at Naval         reduce the building’s conventional energy usage and promote
Air Station Joint Reserve Base New Orleans.                               environmental sustainability.




strategy are the DON’s efforts to strengthen alliances                    presence, power projection abroad and protection of
and partnerships in the Asian-Pacific region to advance                   the world’s sea lanes. In Fiscal Year (FY) 2012, our
a common security vision for the future. The DON                          Sailors and Marines, in cooperation with our foreign
plans to develop military to military relations by                        partners and allies, continued to provide training and
creating teams to work on difficult issues such as cyber                  deliver humanitarian aid, disaster relief and other
threats. However, as the focus shifts, the DON will                       assistance throughout the globe. This was most evident
face challenges as budget constraints have led to a                       during the bi-annual Rim of the Pacific (RIMPAC)
leaner workforce.                                                         demonstration. For the first time during RIMPAC,
                                                                          the exercise featured a 22-nation humanitarian
The total naval workforce is shaped and optimized                         assistance/disaster relief event that facilitated training
to support the National Defense Strategy. In doing                        and certification for expeditionary forces to respond
so, the DON has instituted the 21st Century Sailor’s                      to foreign disasters as a Crisis Response Adaptive
and Marine’s initiative, which lays out a set of                          Force Package.
objectives and policies that maximize every Sailor’s
and Marine’s personal readiness. Although we are                          Despite the fact that we are in an era of reduced
in an era of budget cuts, the DON has remained                            budgets and The Budget Control Act of 2011 mandates
focused on maintaining U.S. maritime dominance                            a reduction of federal spending, the DON fleet
by having our Sailors and Marines continue to                             will be no smaller in the future than it is today. As
promote security, stability, and trust around the                         such, the DON is dedicated to cutting cost in the
world. Together, we provide a persistent forward                          coming years by reducing the cost of doing business,


                                                                           Protect the Nation, Project Power, Provide Freedom of the Seas    7
promoting acquisition excellence, driving innovative        energy programs, pilots, and initiatives. The DON’s
transformation and leading the nation in sustainable        efforts support a clean energy economy and will make
energy. While the DON maintains a healthy industrial        Americans better stewards of our planet.
base to ensure future innovation and technological
advances, the DON remains focused on reducing               The DON recognizes the value of investing in audit
the budget. As such, the DON has decreased the              readiness as part of the Department of Defense (DoD)
construction of new ships, terminated the procurement       mission. The pursuit of auditability will result in
of the ocean surveillance ship (called T-AGOS) and          improved stewardship, reduced cost of business
reduced and/or delayed the procurement of various           operations, and compliance with congressional
other projects, including the Virginia Class Submarine.     direction. In FY 2012 the U.S. Marine Corps was in its
                                                            third year of the Statement of Budgetary Resources
Readily available energy is essential for deploying our     (SBR) audit. Concurrently the DON Financial
Sailors and Marines around the globe in support of          Improvement and Audit Readiness (FIAR) team is
our nation’s interests. Since our operational flexibility   preparing the rest of the Department for SBR audit
and sustainability are directly linked to our energy        readiness with focused efforts to ready people,
supplies, energy reliability is a strategic concern         processes, and business systems for a financial
for our forces. The potential vulnerability of energy       audit. The DON understands that fundamental
supplies could threaten our ability to perform on the       improvements to establish tighter internal controls
battlefield and energy costs siphon resources from          and more standardized processes are needed
warfighting requirements. Therefore, the DON is             within its operations. To standardize and enforce
working to develop greater energy independence              uniform business processes, especially within
and conservation ashore and afloat. Energy reform           disparate commands, the DON has established the
improves the capability and efficiency of ships, aircraft   Navy Enterprise Resource Planning (ERP) system.
and weapons systems, and ultimately makes us better         Although processes are not yet standardized, DON
warfighters and ensures the safety of our Sailors and       has employed control gap analysis to identify when a
Marines. In Fall 2009, Secretary Mabus set an ambitious     command’s process and/or controls differ significantly
energy goal for the DON that no later than 2020 at          from suggested controls. Control gap analysis allows
least half of all the energy used by the two services,      DON to track and address significant deviations.
both afloat and ashore, will come from non-fossil fuel      Additionally, DON has begun a concerted, multi-year
sources. Also by 2020, at least half of all bases will      effort to standardize processes and controls within the
be net-zero in terms of consumption, and in many            Navy ERP environment.
cases returning power to the grid rather than pulling
from it. The DON’s progress on this target includes         DON continued to demonstrate its commitment
submarines that are powered using nuclear energy            to effectively managing and mitigating risks to
representing 17 percent of total energy consumed.           reflect progress with respect to mission objectives
                                                            by establishing a new set of objectives for FY 2012
The DON continued to make significant progress              and beyond. Given the current climate of budgetary
toward reaching the Secretary’s energy goals in 2012.       restrictions and uncertainty, it is critical that the DON
The DON is working to improve the efficiency of bases       track progress and monitor change pertaining to the
by monitoring electricity usage in buildings. The DON       following high priority objectives:
has signed contracts for larger uses of solar power,
and is considering geothermal, hydrothermal, wave,               Take Care of Our People
solar, and wind. During FY 2012, the DON’s largest               Maintain Warfighter Readiness in an Era of
solar project began with the construction of a 118 acre            Reduced Budgets
solar farm at the Naval Air Weapons Station (NAWS)
in China Lake, California. The focus of these initiatives        Lead the Nation in Sustainable Energy
is to ensure that alternate power continues to decrease          Promote Acquisition Excellence and Integrity
fossil fuel usage by the DON because more than half              Dominate in Unmanned Systems
the ships and aircraft that will be around in 2020
are in the fleet today. The DON continues to focus               Drive Innovative Enterprise Transformation
on sustainable energy by offering military contract
opportunities to small businesses with sustainable

8
                                                             Organization and Mission
                   United States Navy                    United States Marine Corps
                   Founded 13 October 1775               Founded 10 November 1775
                   Title 10 U.S. Code, Section 5062      Title 10 U.S. Code, Section 5063

To maintain, train, and equip combat-ready Naval forces capable of winning
wars, deterring aggression, and maintaining freedom of the seas.
                                                                                    —Department of the Navy Mission

We are structured to respond to a broad range of         are consistent with the national security policies
mission priorities that preserve our nation’s freedom    and objectives established by the President and the
and protect U.S. global interests. The Secretary of      Secretary of Defense. Under the purview of SECNAV
the Navy (SECNAV), a civilian appointed by the           are the Under Secretary of the Navy (UNSECNAV),
President, is responsible for, and has authority under   four Assistant Secretaries of the Navy, the General
title 10 of the United States Code to conduct all the    Counsel, and two key military leaders—the Chief of
affairs of the DON, including: recruiting, organizing,   Naval Operations (CNO), a four-star Admiral who is
supplying, equipping, training, mobilizing, and          responsible for the command and operating efficiency
demobilizing. SECNAV also oversees the construction,     of the U.S. Navy, and the Commandant of the Marine
outfitting, and repair of naval ships, equipment, and    Corps, a four-star General who is responsible for the
facilities. SECNAV is responsible for the formulation    performance of the U.S. Marine Corps.
and implementation of policies and programs that

                                                           Protect the Nation, Project Power, Provide Freedom of the Seas   9
                                                                        Founded 30 April 1798
                                                                         Title 10 U.S. Code, Section 5061


                                                                    SECRETARY OF THE NAVY
                                                                     UNDER SECRETARY OF THE NAVY



       Assistant Secretary                   Assistant Secretary                  Assistant Secretary                Assistant Secretary           General Counsel of
          of the Navy                            of the Navy                          of the Navy                        of the Navy                the Department
     (Research, Development                      (Manpower                      (Financial Management                (Energy, Installation,           of the Navy
          & Acquisition)                       & Reserve Affairs)                    & Comptroller)                   and Environment)




                                     CHIEF OF NAVAL                                                                       COMMANDANT OF THE
                                      OPERATIONS                                                                            MARINE CORPS



                                                                                                                                                        U.S. Marine Corps
           U.S. Navy                       U.S. Navy                     U.S. Navy                    U.S. Marine Corps        U.S. Marine Corps
                                                                                                                                                            Supporting
      Shore Establishment                  Reserves                   Operating Forces                Operating Forces              Reserves
                                                                                                                                                          Establishment

      *Dashed line signifies collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.




10
The U.S. Navy and the U.S. Marine Corps have numerous commands that operate under the authority and responsibility
of a commander or other designated official and typically support a network of subordinate commands. Each command has
a clearly defined mission that supports the overall DON mission in support of the DoD’s responsibilities. Both Services
provide ready forces to support the U.S. joint military commands in conducting their worldwide missions.



                                                                    Naval Sea Systems Command (NAVSEA)
                     With a force of 53,000 civilian, military and contract support personnel, NAVSEA engineers build,
                     buy, and maintain the DON’s ships and submarines and their combat systems. NAVSEA manages
                     150 acquisition programs and manages foreign military sales cases that include billions of dollars
                     in annual military sales to partner nations.

                     Today, the NAVSEA organization has 33 activities in 16 states. NAVSEA strives to be an efficient
                     provider of defense resources for the nation, and it plays an important role in the Navy Enterprise.
                     As a provider command, it has the responsibility of directing resource sponsors into the proper mix
                     of manpower and resources to properly equip the fleet. NAVSEA has the further responsibility
                     of establishing and enforcing technical authority in combat system design and operation. These
                     technical standards use the organization’s technical expertise to ensure systems are engineered
                     effectively, and that they operate safely and reliably.

                                                                     Naval Air Systems Command (NAVAIR)
                     NAVAIR is headquartered in Patuxent River, Maryland, with military and civilian personnel
                     stationed at eight locations across the continental United States and one site overseas. NAVAIR’s
                     mission is to provide full life-cycle support of naval aviation aircraft, weapons, and systems
                     operated by Sailors and Marines. This support includes research, design, development, and
                     systems engineering; acquisition; test and evaluation; training facilities and equipment; repair
                     and modification; and in-service engineering and logistics support. NAVAIR is organized into
                     eight “competencies” or communities of practice including: Program Management, Contracts,
                     Research and Engineering, Test and Evaluation, Logistics and Industrial Operations, Corporate
                     Operations, Comptroller, and Counsel. NAVAIR provides support (people, processes, tools,
                     training, mission facilities, and core technologies) to Naval Aviation Program Executive Office
                     (PEOs) and their assigned program managers, who are responsible for meeting the cost, schedule,
                     and performance requirements of their assigned programs. NAVAIR is the principal provider
                     for the Naval Aviation Enterprise (NAE), while contributing to every Warfare enterprise in the
                     interest of national security.

                                                     Naval Facilities Engineering Command (NAVFAC)
                     NAVFAC is the systems command that delivers and maintains quality, sustainable facilities,
                     acquires and manages capabilities for the DON’s expeditionary combat forces, provides
                     contingency engineering response, and enables energy security and environmental stewardship.
                     NAVFAC manages the planning, design, construction, contingency engineering, real estate,
                     environmental, and public works support for the DON shore facilities around the world. They
                     provide the Navy’s forces with the operating, expeditionary, support, and training bases needed.
                     NAVFAC is a global organization with an annual volume of business in excess of $11 billion. As
                     a major Navy systems command and an integral member of the Navy and Marine Corps team,
                     NAVFAC delivers timely and effective facilities engineering solutions worldwide.




                                                                Protect the Nation, Project Power, Provide Freedom of the Seas   11
                                               Naval Supply Systems Command (NAVSUP)
     NAVSUP’s mission is to provide Navy, Marine Corps, joint and allied forces with products and
     services that deliver Combat Capability through logistics. They manage supply chains that provide
     material for DON aircraft, surface ships, submarines and their associated weapons systems and
     provide centralized inventory management for the DON’s non-nuclear ordnance stockpile.
     NAVSUP provides a wide range of base operating and waterfront logistics support services,
     coordinating material deliveries, contracting for supplies and services, and providing material
     management and warehousing services. NAVSUP is responsible for many of the quality of life
     programs that touch the lives of Sailors and their families every day, including Navy Exchanges,
     Navy Lodges, the Navy Personal Property Program, and the Navy Postal System. They administer
     the Navy Food Service Program, with responsibility for the policies and procedures that govern
     the day to day operations of general messes afloat and ashore.

                            Space and Naval Warfare Systems Command (SPAWAR)
     SPAWAR is an acquisition command. SPAWAR delivers higher-end DON information technology
     products and services to the fleet and other Defense Department stakeholders. As the DON’s
     information dominance systems command, SPAWAR designs, develops and deploys advanced
     communications and information capabilities. With more than 8,900 active duty military and
     civil service professionals located around the world and close to the fleet, SPAWAR is at the
     forefront of research, engineering, acquisition, and support services that provide vital decision
     superiority to our forces at the right time and for the right cost. It is SPAWAR’s mission to make
     the DON’s information dominance vision a reality. SPAWAR products and services transform
     ships, aircraft, and vehicles from individual platforms into integrated battle forces, enhancing
     information dominance and awareness among Navy, Marine, joint forces, federal agencies and
     international allies.

                                                           Strategic Systems Program (SSP)
     SSP is a highly specialized workforce composed of military and civilian, scientific, engineering,
     and professional personnel who work closely with private contractors and consultants. They
     direct the end-to-end effort of the DON’s strategic weapons systems to include training, systems,
     equipment, facilities, and personnel; and fulfill the terms of the U.S./United Kingdom Polaris
     Sales Agreement.


                                                Bureau of Medicine and Surgery (BUMED)
     BUMED is the headquarters command for Navy Medicine. Under the leadership of the Navy
     Surgeon General, Navy Medicine provides high quality health care to beneficiaries in wartime
     and in peacetime. Highly trained Navy Medical personnel deploy with Sailors and Marines
     worldwide - providing critical mission support aboard ship, in the air, under the sea, and on the
     battlefield. At the same time, Navy Medicine’s military and civilian health care professionals are
     providing care for uniformed services’ family members and retirees at military treatment facilities
     around the globe. Today, BUMED is the site where the policies and direction for Navy Medicine
     are developed to ensure the DON’s Patient and Family Center Care vision is carried out.

                                                      Bureau of Naval Personnel (BUPERS)
     BUPERS strives to support the needs of the DON by providing the fleet with the right person in
     the right place at the right time, using the most efficient Human Resource process. The BUPERS
     organization serves to provide administrative leadership, policy planning, and general oversight
     of the Commands.



12
                                                          Military Sealift Command (MSC)
MSC operates approximately 110 noncombatant, civilian-crewed ships that replenish DON ships,
conduct specialized missions, strategically preposition combat cargo at sea around the world, and
move military cargo and supplies used by deployed U.S. forces and coalition partners. MSC is
headquartered at the Washington Navy Yard in Washington, D.C., and operates six subordinate
commands worldwide. Five operational commands operate in the Atlantic, Pacific, Europe/Africa,
Central, and Far East areas.

                                             Naval Special Warfare Command (NSW)
NSW Groups command, train, equip, and deploy components of NSW Squadrons to meet the
exercise, contingency, and wartime requirements of the regional combatant commanders, theater
special operations commands, and numbered fleets located around the world. Additionally,
support is provided by permanently deployed NSW units in Guam, Bahrain, and Germany.
NSW Squadrons are built around deployed Sea, Air, and Land (SEAL) Teams and include senior
leadership, SEAL Delivery Vehicle Teams, Special Boat Teams, and support technicians such as
mobile communications teams, tactical cryptologic support and explosive ordnance disposal
specialists. NSW Squadrons are among the most responsive, versatile, and effective force packages
fighting the global war on terrorism today. Because SEALs are experts in special reconnaissance
and direct action missions — the primary skill sets needed to combat terrorism — NSW is postured
to fight a globally-dispersed enemy, whether ashore or afloat, before they can act.

                                                                                      U.S. Pacific Fleet
The U.S. Pacific Fleet, the world’s largest fleet command, encompasses 100 million square miles,
more than half the Earth’s surface, from the West Coast of the United States into the Indian Ocean.
The Pacific Fleet consists of approximately 180 ships, nearly 2,000 aircraft and 125,000 Sailors,
Marines, and Civilians. Pacific Fleet was established in February 1941 and is headquartered at
Pearl Harbor, Hawaii. U.S. Pacific Fleet protects and defends the collective maritime interests of
the United States and its allies and partners in the Asia-Pacific region. In support of U.S. Pacific
Command and with allies and partners, U.S. Pacific Fleet enhances stability, promotes maritime
security and freedom of the seas, deters aggression and when necessary, fights to win. Commands
that fall directly under the Pacific Fleet include “type” commands for surface ships, submarines,
and aircraft as well as Navy construction. Operational commands that report directly to the U.S.
Pacific Fleet include Third Fleet in the Eastern Pacific and Seventh Fleet in the Western Pacific and
Indian Ocean.

                               Commander Navy Installations Command (CNIC)
Established on 1 October 2003, CNIC is the Echelon II command under the CNO responsible for
Navy-wide shore installation management. CNIC enables and sustains naval forces from the
shore by designing, developing and delivering integrated shore capabilities to our fleet, the fighter,
and the family. On any given day, our programs and services launch every shore-based ship,
submarine, and aircraft, and take care of every sailor and their families. CNIC includes 11 regions,
70 Installations, and 126 Naval Operations Support Centers. CNIC has overall shore installation
management responsibility and authority as the Budget Submitting Office (BSO) for installation
support and as the DON point of contact for installation policy and program execution oversight.




                                           Protect the Nation, Project Power, Provide Freedom of the Seas   13
                                                                    U.S. Fleet Forces Command
     The U.S. Fleet Forces Command supports both the CNO and Combatant Commanders worldwide
     by providing responsive, relevant, sustainable Naval forces ready for tasking. The command
     provides operational and planning support to Combatant Commanders and integrated warfighter
     capability requirements to the CNO. Additionally, U.S. Fleet Forces Command serves as the
     CNO’s designated Executive Agent for Anti-Terrorism/Force Protection, IA, and Sea Basing. In
     collaboration with U.S. Pacific Fleet, U.S. Fleet Forces Command organizes, mans, trains, maintains,
     and equips Navy forces, develops and submits budgets, and executes readiness and personnel
     accounts to develop both required and sustainable levels of fleet readiness.

                                                         United States Marine Corps (USMC)
     The USMC is a branch of the U.S. military responsible for providing power projection from the
     sea, utilizing the mobility of the DON to rapidly deliver combined-arms task forces to global
     crises. The USMC is the nation’s Expeditionary Force in Readiness. Established originally by an
     act of the Second Continental Congress on 10 November 1775, the Marine Corps has evolved into
     a balanced air-ground-logistics team that is forward deployed and forward engaged: shaping,
     training, deterring, and responding to all manner of crises and contingencies. Through the
     ongoing support of Congress and the American people, the Marine Corps is a cohesive force of
     198,193 active duty Marines; 39,544 selected reserve Marines; and 22,310 civilian Marines. At any
     given time, approximately 30,000 Marines are forward deployed in operations supporting our
     nation’s defense.

                                                            Office of Naval Research (ONR)
     As the DON’s science and technology provider, ONR provides technology solutions for Navy and
     Marine Corps needs. ONR’s missions, defined by law is to plan, foster, and encourage scientific
     research in recognition of its paramount importance as related to the maintenance of future naval
     power, and the preservation of national security. Further, ONR manages Navy and Marine Corps
     basic and early applied research and advanced technology development to foster science and
     technology transition to higher levels of research, development, test, and evaluation for ultimate
     use in the fleet and force. ONR provides technical advice to the CNO and the SECNAV. Led by
     the Chief of Naval Research, its senior leadership oversees a portfolio of investments ranging from
     immediate, quick-turnaround technologies to long term basic research.

                                                         Office of Naval Intelligence (ONI)
     The ONI is America’s leading maritime intelligence service and a core element of the DON’s
     Information Dominance Corps. Established in 1882, ONI is chartered to provide products and
     services to meet DON, DoD and national maritime intelligence requirements. ONI specializes in
     the analysis, production and dissemination of vital, timely and accurate scientific, technical, and
     military intelligence. ONI supports a broad range of customers worldwide including the fleet,
     warfighters, the Navy acquisition community, national intelligence community, law enforcement
     agencies, foreign and coalition partners, and national decision makers. The organizational structure
     is designed to strengthen the DON’s conventional and irregular war fighting capacities, and to
     expand America’s foresight into new technologies, future platforms, weapons, sensors, C4ISR
     (command, control, communications, computers, intelligence, surveillance and reconnaissance)
     and cyber capabilities.




14
                                               Naval Reserve Force Command (NAVRESFOR)
The mission of the U.S. Navy Reserve is to provide mission-capable units and individuals to the
Navy and Marine Corps Team throughout the full range of operations from peace to war. In
today’s environment this mandate takes on added meaning and responsibilities as the Navy
Reserve is called on to play an increasingly active role in the day-to-day planning and operational
requirements of the active Navy. The Navy Reserve represents 20 percent of the DON’s total assets
and is a significant force multiplier the fleet must have to meet its growing global commitments.
The Navy Reserve consists of the Ready Reserve, the Standby Reserve and the Retired Reserve.

                                                                             Field Support Activity (FSA)
The mission of FSA is to establish, maintain and provide a system of financial services as the BSO
and Principal Administering Office (PAO) for assigned unified commands, Navy Headquarters and
activities; to initiate action in matters pertaining to the provision of funds and manpower, and to
evaluate the utilization of such resources and initiate or recommend appropriate corrective action.

                                     Department of Navy Administrative Assistant (AA)
The DON/AA organization provides administrative management and support to the Office of the
SECNAV, its 6,000 member Secretariat, staff offices, field activities and supported organizations.
These administrative divisions consist of Customer Service, Directives and Records Management,
Contract Management, Executive Dining, Facilities and Support Services, Financial Management,
Human Resources, Information Technology, and Security.




    Navy Civilians: 	                          190,247
    (Full-time Equivalents)


    Marine Corps Civilians: 	                    22,310
    (Full-time Equivalents)


    U.S. Navy Active: 	                        318,406
    (Officers, Enlisted, and Midshipmen)


    U.S. Marine Corps Active: 	                198,193
    (Officers and Enlisted)


    U.S. Navy Reserve: 	                         64,715
    (Drilling Reserve and Full-time Support)


    U.S. Marine Corps Reserve: 	                 39,544
    (Drilling Reserve and Full-time Support)


    Personnel Data as of Fiscal Year Ended September 30, 2012




                                                    Protect the Nation, Project Power, Provide Freedom of the Seas   15
                                                            Center for Information Dominance (CID) Corry Station officers
                                                            and chief petty officers attend the CID change of command
                                                            ceremony at the National Museum of Naval Aviation at Naval Air
                                                            Station Pensacola.



                                                                      Strategic Management
We are committed to improving core capabilities that      than ever before in a mission to more fully safeguard
support the U.S. maritime strategy, “A Cooperative        maritime interests at home and abroad.
Strategy for 21st Century Seapower.” These core
capabilities are critical to U.S. maritime power          Our six priority objectives (on the pages that follow)
and reflect an increased emphasis on activities           support the U.S. maritime strategy by focusing on
that prevent war and build partnerships—forward           key efforts that will increase our effectiveness and
presence, deterrence, sea control, power projection,      improve the lives of our Sailors, Marines, and their
maritime security, humanitarian assistance, and           families, which results in greater security for our
disaster response.                                        nation and U.S. global interests. A summary of key
                                                          accomplishments by objective begins below.
The cooperative strategy, guided by the objectives
articulated in the National Strategy for Maritime         In addition, as a separate and supporting element
Security, National Security Strategy, National            of our priority objectives, we are committed to
Defense Strategy, and National Military Strategy, was     transforming the way we do business. A summary of
developed to be a unified and enduring approach that      our key business transformation initiatives follows our
will apply maritime power to the crucial responsibility   discussion on priority objectives.
of protecting vital U.S. interests in an increasingly
interconnected and uncertain world. It binds the three    Objective 1: Take Care of Our People
maritime services—U.S. Navy, U.S. Marine Corps, and
U.S. Coast Guard (during wartime)—closer together         Our Sailors, Marines, and civilians are the critical
                                                          component to the U.S. maritime strategy, and we


16
must ensure that we provide them with adequate              and retention of qualified personnel, the reduced level
compensation, medical care, and career training             of strength will provide for affordability while still
opportunities. These are key factors in attracting and      maintaining a ready, capable, and more senior force in
retaining highly motivated and qualified personnel.         support of the new Department guidance.
We remain committed to providing a competitive
pay and benefits package to aid in recruitment and
retention. The package includes benefits, such as: basic
pay, housing allowances, and incentives for critical
specialties in health care, explosive ordnance disposal,
and nuclear propulsion.

We are committed to providing our wounded, ill,
and injured service members and their families with
exceptional, individually tailored medical and non-
medical care and support worthy of their service and
sacrifice. Through the Navy Safe Harbor Program
and the Marine Corps Wounded Warrior Regiment,
our service members receive support and assistance
throughout their recovery, rehabilitation, return to full
duty, and reintegration into their communities. We
also continue to provide encouragement and support
for our wounded Sailors and Marines, in partnership
with the Department of Veterans Affairs, long after
they have left the Service. Additionally, the National
Naval Medical Center has a new state-of-the-art unit to
treat Traumatic Brain Injury (TBI). TBI is the defining
wound of Operation Iraqi Freedom, and this clinic
provides unsurpassed inpatient care for polytrauma
patients with TBI, serving all blast exposed or head-
injured casualties medically evacuated from theater.        ARABIAN SEA (April 26, 2012) Sailors aboard the guided-missile destroyer
Further, to address Post Traumatic Stress Disorder          USS Sterett (DDG 104) heave around a line during replenishment-at-sea.
                                                            Sterett is deployed as part of the Abraham Lincoln Carrier Strike Group
(PTSD) and other psychological conditions that
                                                            to the U.S. 5th Fleet area of responsibility conducting maritime security
affect more and more of our force, the Navy and the         operations, theater security cooperation efforts and support missions as
Marine Corps continue to improve their Operational          part of Operation Enduring Freedom.

Stress Control (OSC) programs. This comprehensive
approach seeks to not only promote psychological            U.S. Navy
resilience, but also a culture of psychological health      The Navy continues to resize and reshape its forces
among our Sailors, Marines, and their families.             to meet its mission requirements more efficiently
                                                            and effectively. This is especially important in an
We remain invested in recruiting, training, and             environment of limited budgetary resources and
retaining DON personnel to create an environment            rising personnel costs. Over the last five years, the
that offers opportunity and promotes professional and       Navy has resized its active and reserve components by
personal growth. The DON’s goal is to maintain an           4% and 5%, respectively. The Navy has been able to
end strength and force structure in which seniority,        accomplish all assigned missions at this level because
experience and skills are matched to requirements.          of force structure changes, efficiencies gained through
As America’s naval forces are and will remain combat        technology, modifications in workforce mix, and new
ready, the end of the combat in Iraq, drawdown in           manning practices.
Afghanistan, and the transformation to the joint force
of 2020 (outlined in the defense strategic guidance)
has allowed our forces to become smaller and leaner,
yet agile, flexible, and ready. With the development

                                                              Protect the Nation, Project Power, Provide Freedom of the Seas            17
                                                                           U.S. Navy End Strength
            400000
                             332,228                   329,304                   328,303                   325,123                   318,406
            300000
                  Active
            200000
                Reserve



            100000                      68,136                    66,474                    65,006                    64,792                     64,715


                     0
                                   2008                      2009                      2010                       2011                      2012
                                                                       Fiscal Year Ending September 30

U.S. Marine Corps
To remain a force capable and optimized to support                                    Review Report is available at www.marines.mil. In
the National Defense Strategy, the Marine Corps                                       FY 2012, the Marine Corps affirms the results of the
completed a comprehensive force structure review                                      initial strategy-driven effort, but has begun to readjust
in FY 2011. The review focused on the organization,                                   its parameters based on the fiscal realities of spending
posture, and capabilities required to meet future                                     cuts and is moving to a final end strength of 182,100.
challenges and threats. A copy of the Force Structure                                 This drawdown will begin in FY13.
            400000

                                                                   U.S. Marine Corps End Strength
            300000
                  Active     198,505                   203,095                   202,441                   201,693                   198,193
            200000
                Reserve



            100000
                                        37,523                     38,510                    39,222                    39,772                    39,544

                     0
                                   2008                      2009                      2010                       2011                      2012
                                                                       Fiscal Year Ending September 30

Navy and Marine Corps Civilian Personnel
The size of the civilian workforce, which has increased                               types of support, such as research and development,
by 12% over the last five fiscal years, continues to                                  engineering, acquisition, depot maintenance, and
support the mission and daily functions of the Navy                                   financial management and budget.
and Marine Corps. Civilian personnel provide various
              400000

              300000
                                                            Civilian Personnel (Full-Time Equivalents*)
                                                                                                            188,964                    190,247
              200000          170,995                   176,026                   182,913

              Navy
              100000
              Marine Corps


                                         19,209                     20,866                    23,032                    23,446                    22,310
                      0
                                    2008                      2009                       2010                      2011                      2012
                                                                         Fiscal Year Ending September 30

                           * Full-time equivalents are the total number of regular straight-time hours (i.e., not including overtime or holiday hours) worked by
                           employees divided by the number of compensable hours applicable to each fiscal year.




18
Objective 2: Maintain Warfighter Readiness in
an Era of Reduced Budgets
Today’s security environment has created new
demands for naval forces. This demand includes
support for security, stabilization, transition and
reconstruction operations, support for homeland
security, and continued preparedness for contingency
operations. The evolving dynamics of the 21st-century
security environment require our forces to be ready
to deploy globally. Although we are in an era of
reduced budgets, DON will maintain strong, agile,
and capable military forces. Operational readiness is
the catalyst that brings naval power to bear whenever
it is needed. Our budget supports requirements for
our CSGs, ESGs, and Marine Expeditionary Forces
(MEFs) to execute the National Military Strategy and
respond to persistent as well as emerging threats. Our
Navy-Marine Corps team has become an integral part
of continuing overseas contingency operations. We
continue funding the necessary requirements to ensure
our ability to protect vital U.S. interests and assure and
assist our friends and allies in crisis situations.

The DON’s top readiness priority is ensuring that
forces are fully supported while deployed. In order          Sailors assigned to Riverine Squadron (RIVRON) 1 set a security perimeter
                                                             while conducting a hot extract drill during Exercise Bold Alligator 2012.
to do so, the DON requires a highly educated and             Bold Alligator is the largest amphibious exercise in the past 10 years and
trained, highly skilled and disciplined force. Using         represents the Navy and Marine Corps’ revitalization of the full range of
                                                             amphibious operations.
advanced technologies, we have shifted training from
the traditional classroom to the use of simulators,
trainers, computer-based interactive curriculums,            21st Century Sailor and Marine
and other media-based approaches. This initiative            We want to provide our Sailors, Marines, and families
provides our naval workforce with appropriate                with the tools needed to face the challenges of the 21st
training in a more efficient manner and prepares them        Century and to help Sailors and Marines preserve the
to better perform mission-critical tasks.                    skills and talents they bring to the fight. This initiative
                                                             will advance progress by leveraging programs under
The DON has the most effective combat force in               the following five areas: Readiness, Safety, Physical
history and it is our job to maintain that effectiveness.    Fitness, Inclusion, and Continuum of Service. These
With the new Defense Strategy putting an increased           areas focus on equipping Sailors, Marines, and
responsibility on the Navy and Marine Corps in the           their families to meet both the physical and mental
years to come, it is the duty of DON’s leadership to         challenges of serving in our military. This new
provide its most essential assets, Sailors and Marines,      approach will help to interrelate dozens of programs
with the resources to maintain that resiliency. In doing     that have been implemented to improve the health,
so, the DON instituted the 21st Century Sailor and           well-being, and safety of Sailors and Marines.
Marine initiative which lays out a set of objectives and
policies, new and existing, to maximize every Sailor’s       Fleet Response Plan
and Marine’s personal readiness.                             We remain focused on providing ready naval forces,
                                                             from individual units to CSGs and ESGs, that are
                                                             forward deployed and capable of providing a
                                                             substantial surge force. The Fleet Response Plan
                                                             (FRP), which supports the National Military Strategy,

                                                               Protect the Nation, Project Power, Provide Freedom of the Seas         19
provides the readiness for this capability. The FRP                          Marine Corps Operating Forces
provides adaptable, flexible, and sustainable naval                          MEFs provide highly trained, versatile expeditionary
forces necessary not only to fight current ongoing                           forces capable of rapid response to global
contingencies, but also to support the needs of the                          contingencies. Each MEF consists of a command
combatant commanders to maintain a global forward                            element, one infantry division, one aircraft wing,
presence and any other evolving national defense                             and one Marine logistics group. Embedded within
requirements.                                                                each MEF are three Marine Expeditionary Units,
                                                                             which deploy regularly in the ESGs. Each MEF
Individual Augmentees                                                        also has an embedded capability to source a Marine
IAs have been instrumental in fulfilling combatant                           Expeditionary Brigade.
commanders’ mission requirements for overseas
contingency operations. They are assigned                                    Objective 3: Lead the Nation in Sustainable
individually, rather than as part of a traditional unit,                     Energy
to fill shortages or provide specialized knowledge or
skill sets. The Navy identifies both active and reserve                      The DON is committed to improving energy security
service members with specific skill sets to fill IA roles,                   and environmental stewardship by reducing reliance
and the Marine Corps relies principally on activated                         on fossil fuels. The DON is actively developing
reserve members to fill IA positions vacated by                              and participating in energy, environmental and
forward-deployed active component Marines.                                   climate change initiatives that will increase the use
                                                                             of alternative energy and help conserve the world’s
                                                                             resources for future generations.

                                                                             Reducing our naval forces’ reliance on fossil fuels
                                                                             is critical to our national security, environment,
                                                                             and naval capabilities. Our nation and naval forces
                                                                             rely heavily on a finite source of fuel from volatile
                                                                             global regions. To a certain extent, we have ceded
                                                                             this strategic resource to other nations, creating an
                                                                             obvious vulnerability to our national security. In
                                                                             addition, our reliance on fossil fuels affects our naval
                                                                             forces’ operational independence, both in terms of the
                                                                             resources required to obtain fuel and to transport it
                                                                             to the ships, aircraft, and equipment, and the Sailors
                                                                             and Marines whose duty it is to protect the ships and
                                                                             convoys moving the fuel.

                                                                             With these risks in mind, we have taken a bolder, more
                                                                             aggressive stance toward energy reform by committing
                                                                             to five energy goals (see chart on next page). These
                                                                             goals require adoption of new fuels and development
                                                                             of new systems and energy efficient practices and
                                                                             techniques over the next 10 years. The DON’s strategy
                                                                             in achieving these goals is centered on energy security,
                                                                             energy efficiency and sustainability while remaining
                                                                             the preeminent maritime power.
Marines assigned to Amphibious Reconnaissance Platoon, 31st Marine
Expeditionary Unit (31st MEU) depart the well deck of the forward
deployed amphibious-assault ship USS Essex (LHD 2) to conduct combat
                                                                             The Rim of the Pacific Exercise
rubber raiding craft training. Essex is part of the Essex Amphibious ready
Group and is conducting operations in the western Pacific region.            RIMPAC 2012 featured the first demonstration of the
                                                                             DON’s “Great Green Fleet,” during which U.S. surface
                                                                             combatants and carrier-based aircraft tested, evaluated
                                                                             and demonstrated the cross-platform utility and

20
functionality of biofuels. Twenty two nations, 42 ships,
six submarines, more than 200 aircraft and 25,000
personnel participated in the exercise in and around
the Hawaiian Islands. The world’s largest international
maritime exercise, RIMPAC provided a unique
training opportunity that helped participants foster
and sustain cooperative relationships that are critical
to ensuring the safety of sea lanes and security on the
world’s oceans. This demonstration also incorporated
prototype energy efficiency initiatives such as solid
state lighting, on-line gas turbine waterwash, and
energy management tools.

Solar Farm at Naval Air Weapons Station
China Lake
The construction of a SunPower Corporation 13.78
megawatt solar photovoltaic power system, the
largest solar project in the DON, officially began at
NAWS China Lake. The SunPower’s Oasis Power
Plant product, a fully-integrated, modular solar
block consisting of 31,680 solar panels, is expected to
generate more than 30 percent of NAWS China Lake’s
annual energy load. The solar farm integration will
allow the DON to buy electricity below the retail utility
rate and reduce costs by an estimated $13 million over
                                                            SECNAV the Honorable Ray Mabus arrives at Boldak Expeditionary Energy
the next 20 years.                                          Patrol Base in Afghanistan. Secretary Mabus visited with Sailors and Marines
                                                            and observed how they are using the Ground Renewable Expeditionary
                                                            Energy System (GREENS) and other expeditionary energy technologies.


   Department of the Navy Energy
                                                            Objective 4: Promote Acquisition Excellence
   Goals
                                                            and Integrity
   Energy Efficient Acquisition: Evaluation of              To protect U.S. national interest and achieve the
   energy factors will be mandatory when
                                                            objectives of the 2010 National Security Strategy in
   awarding contracts for systems and buildings.
                                                            this environment, the DON will need to recalibrate its
   Sail the “Great Green Fleet”: The Green Strike           capabilities and make additional selective investments
   Group demonstrated in local operations in                to succeed in its missions. Despite the fact that The
   2012 will sail by 2016.                                  Budget Control Act of 2011 mandates the reduction
                                                            of federal spending, the fleet will be no smaller in
   Reduce Non-Tactical Petroleum Use: By
   2015, DON will reduce petroleum use in the               the future than it is today. Therefore, as replacement
   commercial fleet by 50%.                                 costs of our aging ships, aircraft, and weapons systems
                                                            continue to rise faster than our procurement budgets’
   Increase Alternative Energy Ashore: By 2020,             top-line, the DON must reduce the cost of doing
   DON will produce at least 50% of shore-
                                                            business. This entails improving program execution,
   based energy requirements from alternative
                                                            rebuilding the acquisition workforce, leveraging
   sources; 50% of DON installations will be net-
   zero.                                                    strategic sourcing, and promoting competition all
                                                            while protecting a healthy industrial base.
   Increase Alternative Energy Use DON-
   Wide: By 2020, 50% of total DON energy
   consumption will be from alternative sources.




                                                              Protect the Nation, Project Power, Provide Freedom of the Seas         21
                                                                Sailors assigned to the Nimitz-class aircraft carrier USS Abraham
                                                                Lincoln (CVN 72) man the rails as the ship pulls out of San Diego.
                                                                Lincoln, underway on deployment to the U.S. 5th and 7th Fleet
                                                                areas of responsibility, is changing homeports from Everett, Wash.
                                                                to Norfolk, Va. following deployment for a periodic refueling
                                                                complex overhaul.



The DON continues to aggressively work to examine             with terms and conditions that reflect our desire for a
and streamline the DON’s design and construction              strong government-industry partnership.
processes in accordance with the Weapons System
Acquisition Reform Act of 2009. The result will be            We are also rebuilding the acquisition workforce
improved management of the design and schedule                through a number of parallel efforts. These include
processes so that the impact on acquisition and               expansion of recruitment at all levels, including
total weapons systems life cycle costs can be better          interns, journeymen, and highly qualified experts,
estimated. This will enable the cost impact of design         and the retention and credentialing of qualified
and scheduling changes to be better forecasted                personnel at the middle and senior career levels. We
and their impact on future fleet sizes to be better           remain committed to preventing capability gaps in the
understood and anticipated.                                   acquisition workforce, with a view of ensuring that the
                                                              Navy and Marine Corps maintain a healthy technical
In addition, a healthy industrial base and strong             authority within the Department.
performance from our industry partners improve our
ability to deliver an affordable combat capability to the     Objective 5: Dominate in Unmanned Systems
fleet. We have worked diligently to procure our ships,
aircraft, and weapon systems at a rate intended to            Unmanned systems expand our naval capabilities
bring stability to the industrial base and enable efficient   in Intelligence, Surveillance, and Reconnaissance
production. We will continue to work with our                 (ISR), and reduce the exposure of our naval forces to
shipyards, aircraft manufacturers, and weapon systems         unnecessary threats. The DON’s vision is to achieve
providers to benchmark performance, to identify               an integrated hybrid force of manned and unmanned
improvements, to provide the proper incentives for            systems with the ability to sense, comprehend,
capital investments, and to reward strong performance         predict, communicate, plan, make decisions, and


22
take appropriate actions to achieve its goals. The         the Chief Financial Officers Act of 1990 (as amended).
employment of these systems will reduce risk for           These priorities focus on improving processes,
Sailors and Marines and increase capability. During        controls, and systems that support information
2012, the DON has continued to work towards                most often used and relied upon by both civilian
achieving this goal with the continued development         and military leaders in daily business operations—
of programs such as: Knifefish (underwater drone),         budgetary information reported on the SBR, and
Remote Environmental Monitoring Unit Systems               mission critical asset information such as military
(REMUS), Unmanned Carrier Launched Surveillance            equipment and real property reported on the Balance
and Strike program (UCLASS) and other Unmanned             Sheet. These priorities demonstrate the value of the
Aircraft Vehicles (UAV’s).                                 financial statements to our daily business operations,
                                                           particularly for funds control and resource utilization.
Objective 6: Drive Innovative Enterprise
Transformation                                             The DON has asserted on a Major Defense Acquisition
                                                           Program (MDAP), General Fund (GF) Transportation
Business Transformation                                    of People (TOP), and Civilian Payroll (CIVPAY), to
As a separate and supporting element of our priority       ensure the business processes or segments are audit
objectives, we are committed to transforming the           ready. For FY 2013, the Office of Financial Operations
way we do business by using our people, processes,         (FMO) is on target to assert Reimbursable Work
and systems more effectively. The DON FIAR plan            Orders (Grantor and Performer), Financial Statement
is the integrating financial element of our business       Compilation and Reporting (FSCR), Military Standard
transformation strategy and a supporting initiative of     Requisitioning and Issue Procedures (MILSTRIPS),
the DoD FIAR plan, which organizes and prioritizes         Contractor Vendor Payments (CVP), Military Payroll
the audit readiness and financial improvement              (MILPAY), and GF Fund Balance with Treasury.
efforts of DoD Components. Audit readiness is a            The DON, in conjunction with our primary service
goal of business transformation and a key metric for       provider Defense Finance and Accounting Service
measuring its success and progress. Navy ERP is the        (DFAS) continues to collaborate on assertion efforts.
key system driver of our business transformation and       Jointly, with DFAS, the DON has launched initiatives
a key enabler of the DoD Enterprise Transition Plan,       to promote transparency to the full transaction
which organizes and prioritizes efforts to modernize       universe, which will allow meaningful testing and
DoD business and financial systems. Continuous             provide audit trails. The joint initiatives will yield
Process Improvement/Lean Six Sigma (CPI/LSS)               considerable value to our audit readiness efforts. In
initiatives, part of the DoD-wide CPI/LSS program,         addition, despite various challenges, the Marine Corps
enable more effective and efficient operations across      SBR audit continues to move forward, providing
the DON enterprise.                                        significant insight and lessons that have led DON to
                                                           enhance its overall SBR Audit Readiness Plan.
DON Financial Improvement and Audit
Readiness Plan                                             For the DON’s Existence and Completeness efforts,
The DON FIAR plan is a multi-year Department-wide          we received unqualified audit opinions on our
effort to modernize Navy-Marine Corps financial            ships, submarines, intercontinental ballistic missiles,
processes and systems to better serve worldwide            satellites, and aircraft in FY 2012. We also plan to
operations. The goal of our efforts is to produce          re-assert ordnance with an expected audit in FY 2013.
financial management information more timely and
with greater accuracy, reliability, and accessibility.
With improved information, we can allocate DON
resources in a more precise way and move closer to
producing auditable DON-wide financial statements.

Our efforts align with the new priorities and associated
strategy established by the Under Secretary of
Defense (Comptroller) for bringing DoD into a state
of financial audit readiness and in compliance with

                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   23
                                                                           to assert for audit readiness because it is the most
                                                                           heavily used and therefore, most heavily relied upon
                                                                           in the day-to-day management of their resources.
                                                                           The Marine Corps’ audit readiness efforts also
                                                                           provide a meaningful pilot for DON as we continue
                                                                           to discover how to use the audit process to improve
                                                                           resource management.

                                                                           Navy Enterprise Resource Planning
                                                                           Navy ERP is an integrated business management
                                                                           system that unifies, standardizes, and streamlines
                                                                           Navy business operations. It has replaced multiple
                                                                           older, more costly information systems, with data
                                                                           managed in a single system, providing financial
                                                                           transparency to just over half of the Navy’s total
                                                                           obligation authority. Commands who have
                                                                           implemented Navy ERP have realized measurable
                                                                           improvements in accuracy, timeliness, and accessibility
                                                                           of information and efficiencies in business and
                                                                           reporting processes. Navy ERP continues to drive
                                                                           enterprise-wide business process efficiencies and
                                                                           provides financial transparency and total asset
                                                                           visibility through business process and data
                                                                           standardization efforts; it will be a major positive force
                                                                           contributing toward Navy’s financial audit readiness.
Secretary of Defense the Honorable Leon E. Panetta views navigation
charts with the navigation department of the amphibious assault ship USS   The Navy ERP system Acquisition and Financial
Peleilu (LHA 5) on the ship’s bridge.                                      Management functionality has been operational
                                                                           since October 2007, and today includes the following
Marine Corps Financial Improvement and Audit                               commands, serving over 71,000 users: NAVAIR,
Readiness Initiative                                                       NAVSUP, NAVSEA, SPAWAR, ONR, and SSP.
By means of an independent study, we analyzed the
value of the Marine Corps’ effort to pursue financial                      The DON deployed the Single Supply Solution, which
audit readiness in terms of the bottom line impact                         consolidates wholesale and retail supply functions, in
for improving the efficiency and effectiveness of                          Spring 2010. This functionality is directly benefiting
their financial processes and controls. This impact                        our warfighters through improved inventory
was measured in terms of the direct return for every                       management, with the ability to quickly locate parts
dollar appropriated by Congress. The results of                            anywhere in the world and get them to the warfighter
this analysis showed that for every dollar invested,                       in record time. With inventory enterprise visibility,
nearly three dollars in value were created and that                        the DON is achieving significant savings through more
the resulting economies translated directly into the                       effective use of existing global inventory.
Marine Corps having the capability to purchase more
mission supportive weapons for the same amount                             More information on Navy ERP is available at http://
of appropriated resources. In the future, we will use                      www.erp.navy.mil.
this return on investment metric as a guide as we
implement the substantial lessons learned from the                         Continuous Process Improvement
ongoing Marine Corps audit experience to the Navy.                         CPI is a primary enabler for managing the effectiveness
                                                                           and efficiency of our processes in support of the
The Marine Corps is the first major operational war-                       warfighter and business operations and a critical path
fighting organization to achieve audit readiness for                       toward financial audit readiness. CPI provides our
any of the four financial statements and therefore,                        workforce with proven performance improvement
over a broad part of their business operations. The                        tools, such as Lean/Six Sigma and Audit Readiness
Marine Corps selected the SBR as the first statement                       Training Symposiums, to build a strong warfighter

24
support foundation for improving cycle time                     During FY 2012, our workforce continued to
and reliability, aligning the work of subordinate               demonstrate their commitment to performance
organizations to enterprise-wide goals, and optimizing          improvement. For example, the Navy Medicine
costs. Under the purview of the UNSECNAV for                    Resources Community held an audit readiness training
Business Operations and Transformation, we are                  symposium. The training symposium provided
bringing together processes and organizations for               resource managers the opportunity to strengthen
the accomplishment of strategic and corporate                   working relationships, highlight best practices in
business objectives.                                            acquisition and medical equipment management, tools
                                                                to optimize efficiency of their business practices, and
                                                                enhance transactional excellence.


                                    Systems, Controls and Legal Compliance
Commanders and managers throughout the                          efficiency, thereby enhancing public confidence in our
DON must ensure the integrity of their programs                 stewardship of public resources, which is critical for
and operations. Part of this responsibility entails             the protection and sustainment of our nation and vital
compliance with Federal requirements for financial              U.S. interests.
reporting, financial management systems, and internal
controls, such as the Federal Financial Management              Below is the management assurance statement which
Improvement Act (FFMIA) and the Federal Managers’               provides management’s assessment of the effectiveness
Financial Integrity Act (FMFIA). These requirements             of the DON’s internal controls in conjunction with
promote the production of more timely, reliable, and            FFMIA and FMFIA. This section also provides the
accessible financial information, supported by the              DON’s detailed assessment of internal controls
development and implementation of more effective                over non-financial operations, financial reporting,
internal controls. More useful financial information            acquisition, and financial systems.
and effective controls save money and improve


  FY 2012 Assurance Statement
  The Department of the Navy’s (DON) management is responsible for establishing and maintaining effective internal
  control and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity
  Act (FMFIA).

  The DON conducted an assessment of the effectiveness of internal control over the effectiveness and efficiency of
  operations and compliance with applicable laws and regulations in accordance with the Office of Management and
  Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. Based on the results of this evaluation,
  the DON identified material weaknesses in its internal control over non-financial operations in the areas of contract
  administration, procurement, acquisition, communications/security, and intelligence. The DON provides a qualified
  statement of assurance that the internal control over non-financial operations meets the objectives of FMFIA, Section 2,
  with the exception of the five material weaknesses. Details of the material weaknesses identified are available in Other
  Accompanying Information, of this report.

  In addition, the DON conducted an assessment of the effectiveness of internal control over financial reporting,
  which includes safeguarding of assets and compliance with applicable laws and regulations, in accordance with the
  requirements of OMB Circular A-123, Appendix A, Internal Control Over Financial Reporting. The DON did not fully
  implement the requirements of Appendix A and therefore provides no assurance that internal control over financial
  reporting meets the objectives of FMFIA, Section 2.

  The DON did not complete an assessment of the effectiveness of internal controls over financial systems. Accordingly,
  the DON provides no assurance that the financial management systems conform to the objectives of FMFIA, Section
  4, and the Federal Financial Management Improvement Act (FFMIA). A summary of actions the DON will take to achieve
  compliance is included in the following sections.


                                                                 Protect the Nation, Project Power, Provide Freedom of the Seas   25
Management Assurances                                       Primary responsibility for program execution and
                                                            reporting resides within a network of 19 Major
The objectives of the systems of internal accounting        Assessable Units (MAUs), which include the Assistant
and administrative control of the DON are to provide        Secretaries of the Navy, the CNO, the Commandant
reasonable assurance that:                                  of the Marine Corps (CMC), Secretariat Staff Offices
                                                            and other entities that report directly to the SECNAV
      Obligations and costs are in compliance with        or UNSECNAV. The DON MAUs receive internal
        applicable laws;                                    control certification statements from their subordinate
      Funds, property, and other assets are               units and in turn provide the UNSECNAV with their
        safeguarded against waste, loss, unauthorized       annual FMFIA Certification Statements. The signed
        use, or misappropriation; and                       certification statements are used as the primary
                                                            source documents for the SECNAV’s determination
      Revenues and expenditures are properly
                                                            of reasonable assurance over the effectiveness of the
        recorded and accounted for to permit the
                                                            Department’s system of internal control.
        preparation of reliable accounting, financial,
        and statistical reports and to maintain
                                                            Complementing the self-reporting of control
        accountability over the assets.
                                                            deficiencies, the DON’s Auditor General, in
Internal Control Over Non-Financial Operations              collaboration with the Deputy Assistant Secretary of
                                                            the Navy, Financial Operations (DASN (FO)), reviews
The DON Managers’ Internal Control Program (MICP)           audit reports from the Government Accountability
is the administrative vehicle for monitoring the            Office (GAO), the DoD Inspector General, and the
Department’s systems of internal control by evaluating      Naval Audit Service (NAVAUDSVC). This review
and maintaining sufficient documentation to support         helps identify control deficiencies and utilizes a
its evaluation and level of assurance. The MICP is          systematic methodology to determine materiality.
decentralized and encompasses both shore Commands           The high degree of collaboration and communication
and afloat forces. The evaluation of internal control       between the DASN (FO) MICP administrators and
extends to every responsibility and activity undertaken     the NAVAUDSVC has resulted in a consistent and
by the DON and applies to program, administrative,          comprehensive perspective on the DON’s internal
and operational controls.                                   control posture.

                                     Outstanding Material Weakness FY 2012
Internal Control Reporting                                                                               Target
Category                                    Material Weakness                                        Correction Year
Contract Administration                     Service Contracts                                            FY 2013
Acquisition                                 Attenuating Hazardous Noise in Acquisition & Weapon          FY 2012
                                            System Design
Communications/ Intelligence/Security       Management of Communications Security (COMSEC)               FY 2013
                                            Equipment
Communications/ Intelligence/Security       Safeguarding Personally Identifiable Information (PII)       FY 2013
Procurement/ Contract Administration        Effective Use of Earned Value Management (EVM)               FY 2013
                                            Across Shipbuilding Programs

In addition to the operational assessments described        Appendix A in conjunction with overall Navy and
above, the DON MICP includes a separate assessment          Marine Corps audit readiness efforts under the DoD
of Internal Control over Financial Reporting (ICOFR)        FIAR. The DON’s current focus is on achieving the
and Internal Control over Financial Systems (ICOFS).        FIAR priorities relative to budgetary information and
                                                            mission critical asset information priorities. Through
Internal Control over Financial Reporting                   the DON FIAR discovery process, we continue to work
                                                            closely with participating Commands and service
The DON continues to implement processes to reach           providers, such as DFAS, to identify, evaluate, and
a status of full compliance with OMB Circular A-123,        document the risks and internal controls associated

26
with the end-to-end business processes underlying         programs, non-acquisition programs, and rapid
our financial statements. Attention is focused on         deployment capability programs.
remediating material weaknesses that will allow for
overall achievement of the DON’s assertion goals.         The DoD and OMB templates were used as the
                                                          primary guides for assessing the effectiveness of
Through the DON FIAR discovery process,                   internal controls over acquisition functions. The
documentation efforts continue as the DON moves           DON’s implementation of controls was evaluated
towards its objective of asserting audit readiness        in comparison to elements of OMB Circular A-123
over all financial reporting segments. In FY 2012         cornerstones (organizational alignment and leadership,
GF material weaknesses continued to be reported in        policies and processes, human capital, and information
Fund Balance with Treasury (FBWT), Reimbursable           management and stewardship).
Work Orders-Grantor (RWO-G), Reimbursable Work
Orders-Performer (RWO-P), Military Equipment,             The DON Gate Review process is the primary
General Equipment, Real Property, Inventory, and          mechanism for program insight and governance
Operating Materials & Supplies. In FY 2013, FMO           of select acquisition programs. The Gate Review
plans further discovery and development of corrective     process ensures alignment between service-generated
action plans with executable tasks to mitigate the        capability requirements and acquisition, as well as
material weaknesses.                                      improving senior leadership decision-making through
                                                          better understanding of risks and costs throughout a
The Marine Corps continued improving the                  program’s entire life cycle. Overall program health
documentation of specified business processes to assist   is assessed at each Gate Review and addressed in
stakeholders and auditors with their understanding        the resulting decision document upon completion
of financial processes and key controls used by the       of the review. As part of all Gate Reviews, the DON
Marine Corps. The Marine Corps’ ICOFR program             uses probability of program success as the key
aims to support DON FIAR objectives by targeting          metric to assess overall program health, taking into
specific evaluations that strengthen the integrated       account program requirements, resources, planning
objectives of the DON SBR assertion. In FY 2012,          and execution, and external influences. Current
the Marine Corps developed risk and internal              program decision meetings provide the forum for the
control assessments impacting Financial Reporting,        component acquisition executive to review program
Reimbursable Orders, Procurement of Material and          cost, schedule, and performance in preparation for
Services, Miscellaneous Payments, Transportation,         a key acquisition decision. These forums may be
and Travel. For FY 2012, the Marine Corps separately      integrated with the updated Gate Review process.
reported material weaknesses in Military Equipment,
Real Property, Missing Receipt and Acceptance             National Defense Authorization Act for FY 2012 Section
Supporting Documentation for Intra-governmental           901 includes revisions to the defense business systems
Transactions, Timely Recording of Obligations, and        requirements for investment review and certification
Information Systems. Pending additional analyses and      before funds can be expended. Section 901 establishes
concurrence by the Marine Corps Senior Assessment         a single Investment Review Board (IRB) chaired by
Team, corrective action plans will be developed and       the Deputy Chief Management Officer (DCMO) and
executed to address the material weakness.                significantly expands the scope of systems requiring
                                                          certification to include any defense business system
Internal Control over Acquisition                         with a total cost in excess of $1M over the period of
                                                          the current future-years defense program, regardless
The DON assessed Internal Control over Acquisition        of type of funding or whether any development or
Functions using the OMB Guidelines for Assessing          modernization is planned.
the Acquisition Function and OSD Acquisition,
Technology and Logistics (AT&L) Guidance. This            The ASN (RD&A) Dashboard system is a live database
effort focused on determining whether any new             that provides SECNAV, ASN (RD&A), OPNAV,
deficiencies or material weaknesses exist within          Headquarters Marine Corps (HQMC), System
DON and associated corrective action plans within         Commands (SYSCOMs), Program Executive Office
all acquisition programs, abbreviated acquisition         (PEOs), Direct Reporting Program Managers (DRPMs),

                                                           Protect the Nation, Project Power, Provide Freedom of the Seas   27
and the Program Managers (PMs) a tool to manage the         CSB. CSBs consist of broad membership including
various Acquisition Category (ACAT) programs with           representation by the Acquisition, Requirements, and
consistent data throughout the chain of command.            Resourcing communities. Gate 6 CSBs review all
PMs must complete Dashboard updates for ACAT I,             requirements changes and any significant technical
II, and III programs on a quarterly basis. Dashboard        configuration changes which have the potential to
requires general information regarding program              result in cost and schedule impacts to programs.
milestones and status, and detailed information
addressing program assessment, budget information,          The Naval Center for Cost Analysis (NCCA) prepares
and metrics information.                                    life cycle ICEs for those programs delegated to the
                                                            DON SAE as Milestone Decision Authority (MDA).
The DON uses the Earned Value Management System             NCCA also conducts component cost analyses for joint
(EVMS) as a metric to measure contractor performance.       programs led by DON. NCCA chairs a DON Cost
Earned Value is an element of program health                Assessment review of program office and independent
assessed during the Gate 6 review following the PM’s        life cycle cost estimates and component cost analyses
Integrated Baseline Review (IBR) with the contractor.       to support major milestone decisions for designated
IBR objectives include: assess the Performance              programs. Formal presentations of estimates are made
Measurement Baseline (PMB) adequacy including               to the Director, NCCA. Differences in estimates are
identification of risks, achieve a mutual understanding     noted, explained, and documented in a memorandum
of the PMB and its relationship to EVMS, ensure             from NCCA to ASN (RD&A).
tasks are planned and objectively measurable relative
to technical progress, attain agreement on a plan of        The Commander, Operational Test and Evaluation
action to evaluate any identified risks, and quantify the   Force (COMOPTEVFOR) and Director, Marine Corps
identified risks and incorporate an updated Estimate        OT&E Activity are responsible for independent
At Completion (EAC).                                        OT&E of assigned DON programs that require it.
                                                            COMOPTEVFOR plans, conducts, evaluates, and
Indicators of practices and activities that facilitate      reports the OT&E of designated programs, monitors
good acquisition outcomes include, but are not limited      smaller category programs, evaluates initial tactics for
to: review by the Naval Capabilities Board (NCB),           systems that undergo OT&E, and makes fleet release
Resources & Requirements Review Board (R3B), and            or introduction recommendations to CNO for all
Configuration Steering Boards (CSBs); requirement           programs and those configuration changes selected
for Independent Cost Estimates (ICEs); requirement          for OT&E.
for program Independent Operational Test and
Evaluation (OT&E); and the use of Integrated Product        IPTs are an integral part of the defense acquisition
Teams (IPTs).                                               process used to maintain continuous and effective
                                                            communications and to execute programs. IPTs may
The NCB/R3B recommends validation of all war                address issues regarding requirements, capabilities
fighting requirements, including Key Performance            needs, acquisition strategy and execution, financial
Parameters (KPPs) and Key System Attributes                 management, milestone, and decision review
(KSAs). The R3B is the Navy’s forum for reviewing           preparation, etc. MDAs and PMs are responsible
and making decisions on Navy requirements and               for making decisions and leading execution of their
resource issues. The R3B acts as the focal point for        programs through IPTs. IPTs typically include
decision-making regarding DON requirements; the             representation from acquisition functional areas
validation of non-acquisition related, emergent, and        including program management, cost estimating,
Joint requirements; the synchronization of Planning,        budget and financial management, contracting,
Programming, Budgeting, and Execution (PPBE)                engineering, test and evaluation logistics, software
milestones; and resolution of cross-enterprise or cross-    development, production/quality control, safety, etc.
sponsor issues.                                             DON effectively balances the use of IPTs with the
                                                            requirement for PEOs, SYSCOMs, DRPMs, and PMs
The DON has implemented DoD’s requirement for               to ensure separation of functions so the authority
annual CSBs by integrating this function into the           to conduct oversight, source selection, and contract
Gate Review process. ASN (RD&A), as the Service             negotiations/award does not reside in one person.
Acquisition Executive (SAE), chairs the Gate 6

28
Internal Control over Financial Systems                   piloted with the Standard Labor Data Collection and
                                                          Distribution Application (SLDCADA) and Defense
The DON did not complete an internal review of            Civilian Personnel Data Systems (DCPDS). Strategy
the effectiveness of the ICOFS. As processes are not      improvements were identified and incorporated
fully in place to assess control, the DON provides no     to develop a joint memo that was distributed to
assurance for FY 2012 that ICOFS is in compliance         the Command Information Officers requesting
with the FFMIA and OMB Circular A-127, Financial          leadership’s support, involving IT systems audit
Management Systems.                                       readiness activities. The DON is also currently
                                                          assessing the Navy ERP IT controls. This evaluation
The DON understands ICOFS plays a key role in the         will identify strengths and weaknesses in the design
audit of the DON financial statements. The DON            and operation of Navy ERP IT controls supporting the
implemented a strategy for identifying and prioritizing   integrity and reliability of underlying financial data.
assessment of financial and mixed systems. Over           Additionally, the Marine Corps conducted a limited
two hundred systems are utilized to support DON’s         review of the effectiveness of internal control for four
complete set of financial statements. Once a system       financial management systems: Global Combat Supply
was identified as audit relevant or critical to the       System – Marine Corps (GCSS-MC), Marine Corps
segment assertion package, the DON worked with            Permanent Duty Travel (MCPDT), Purchase Request
the segment to collect additional data points that        Builder (PR Builder), and Marine Corps Total Force
would affect the assessment scope, approach, and          System (MCTFS). Corrective actions are underway to
timeline. The DON strategy for assessing legacy           address Notices of Findings and Recommendations
system Information Technology (IT) controls was           received by Marine Corps management.


                       Financial Condition and Results of Operations
The accompanying financial statements and related         believe the budgetary information used for decision-
disclosures represent our enduring commitment             making is accurate and reliable.
to fiscal accountability and transparency. Through
our FIAR plan and related business transformation         For financial reporting purposes, we are organized into
initiatives discussed earlier, we have made significant   two reporting entities: DON GF and Naving Working
progress toward improving the quality and timeliness      Capital Fund (NWCF), which include financial
of our financial information. However, we are             information for both the U.S. Navy and the USMC.
currently unable to fully implement all elements          Each reporting entity has a separate set of financial
of U.S. generally accepted accounting principles          statements and related disclosures.
and OMB Circular A-136, Financial Reporting
Requirements, due to limitations of our financial and     DON General Fund
non-financial management processes and systems
feeding into the financial statements. Because of these   The DON GF supports overall Departmental
limitations, the DoD, Office of Inspector General, was    operations. Enacted appropriations comprise the
unable to express an opinion on our FY 2012 financial     majority of the GF account structure, which includes
statements. It should be noted that these limitations     five major appropriation groups:
exist primarily in our proprietary accounting processes
and less so in the budgetary accounting performed              Operation and Maintenance
to manage and report on the application of budget              Military Personnel
authority to the purposes and programs approved in
appropriations acts. In fact, the U.S. Marine Corps           Procurement
its GF SBR and DON revised its strategy to place              Research, Development, Test, and Evaluation
first priority on its audit of the SBR as well. Despite       Family Housing and Military Construction
documented material weaknesses and because of
compensating measures and close oversight, we             Enacted appropriations flow through OMB and the
                                                          Office of the Secretary of Defense to the Office of


                                                           Protect the Nation, Project Power, Provide Freedom of the Seas   29
the Secretary of the Navy, where they are allocated                          DON GF Sources of Funds, FY 2012
to administering offices and commands. The                                                          ($ in Billions)

administering offices and commands, which in turn
obligate the appropriations to fund operational                                                     $11.9
expenses and capital investments, are required to
exercise a system of effective control over financial                              $33.2
operations.

                                                                            $8.1
Results of Operations
The Combined SBR presents total budgetary resources
of $226.7 billion that were available to the DON GF
during FY 2012 and the status of those resources at                                                                        $173.5
fiscal year end. Total budgetary resources were down
$4.9 billion, a 2.1% decrease in FY 2012 compared to
FY 2011. The enacted appropriations of $173.5 billion
represent 76.5% of total budgetary resources and
decreased $2.5 billion compared to FY 2011. The
majority of this decrease was with respect to military                         Appropriations
construction. Additionally, the decrease in total                              Spending Authority from Offsetting Collections
                                                                               Unobligated Balance Forward from Prior Years
budgetary resources is attributable to the $33.2 billion                       Other
unobligated balance brought forward from the prior
year, which comprised 14.7% of total budgetary                  The Consolidated Statement of Net Cost presents net
resources and decreased $1.8 billion compared to                cost of operations of $169.7 billion during FY 2012.
FY 2011. The majority of the decrease in unobligated            Net cost of operations represents gross costs incurred
balance brought forward was in the Procurement                  by the DON GF less earned revenue. Net cost of
appropriation accounts. The DON obligated                       operations increased $0.8 billion, which represents a
$194.2 billion of the $226.7 billion total resources in         0.5% increase over FY 2012.
FY 2012, which is a decrease of $4.2 billion or 2.1%
compared to FY 2011.

                                     DON GF Net Cost of Operations, FY 2008 – 2012
                                                         ($ in Billions)

              200
                                                                                           $168.9                 $169.7
                                                                   $155.1
                                             $144.0
              150           $132.7



              100


               50


                0
                        2008              2009              2010                   2011                      2012
                                                 Fiscal Year Ending September 30



Financial Position
The DON continued to report a positive net position             $453.0 billion, which represents a $7.3 billion or 1.6%
on its Consolidated Balance Sheet. Net position is the          increase from FY 2011. The overall increase in net
difference between total assets and total liabilities.          position is attributed to the increase of $8.1 billion and
As of 30 September 2012, net position totaled                   $0.8 billion in total assets and total liabilities.



30
            DON GF Total Assets, FY 2012                          fund payments from customers for goods delivered
                         ($ in Billions)                          or services performed subsequently replenish this
                                                                  initial working capital investment and sustain a
                                                                  continuous cycle of operations, minimizing the need
                      $46.6
                                                                  for additional annual appropriations by Congress. The
                                                  $143.1          goal of NWCF is to break even over time by matching
                                                                  revenues earned to costs incurred. Achievement of this
                                                                  goal is occasionally complicated by the requirement
                                                                  that NWCF business areas maintain stable budget-
                                                                  driven prices for goods and services, to protect
                                                                  customers from unforeseen price fluctuations.
           $228.9                                          $3.8


                                                  $68.3                   Navy Working Capital Fund Business
                                                                              Activities By Business Area

                                                                       Supply Management
             Fund Balance with Treasury                                Supply Management, Navy
             Accounts Receivable                                       (https://www.navsup.navy.mil)
             Inventory & Related Property                              Supply Management, Marine Corps
             General Property, Plant & Equipment                       (http://www.logcom.usmc.mil)
             Remaining Assets
                                                                       Depot Maintenance
                                                                       Depot Maintenance, Aviation
          DON GF Total Liabilities, FY 2012                            (http://www.navair.navy.mil)
                         ($ in Billions)
                                                                       Depot Maintenance, Marine Corps
                                                                       (http://www.logcom.usmc.mil)
                                 $1.8
                                           $1.7                        Base Support
                                                                       Facilities Engineering Commands
             $12.6                                                     (https://portal.navfac.navy.mil)
                                                                       Naval Facilities Engineering Service Center
                                                                       (https://portal.navfac.navy.mil)

                                                                       Transportation
                                                                       Military Sealift Command
                                                                       (http://www.msc.navy.mil)

                                                                       Research and Development
                                              $21.6                    Naval Research Laboratory*
                                                                       (http://www.nrl.navy.mil)
                                                                       Naval Surface Warfare Center
                                                                       (http://www.navsea.navy.mil)
                                                                       Naval Undersea Warfare Center
                                                                       (http://www.navsea.navy.mil)
             Accounts Payable                                          Naval Air Warfare Center
             Military Retirement and                                   (http://www.navair.navy.mil)
             Other Federal Employment Benefits
                                                                       Space and Naval Warfare Systems Centers
             Environmental and Disposal Liabilities                    (http://spawar.navy.mil)
             Remaining Liabilities
                                                                       *Also see Office of Naval Research
                                                                       (http://www.onr.navy.mil)
Navy Working Capital Fund
NWCF is a revolving fund established to meet the
                                                                  Results of Operations
diverse requirements of the Navy and Marine Corps
                                                                  The Combined SBR presents total budgetary resources
operating forces. Under the revolving fund concept,
                                                                  of $34.2 billion that were available to NWCF during
an appropriation or a transfer of funds finances
                                                                  FY 2012 and the status of those resources at fiscal year-
initial NWCF operations. General or appropriated
                                                                  end. Total budgetary resources increased $2.1 billion,

                                                                   Protect the Nation, Project Power, Provide Freedom of the Seas   31
which was a 6.7% increase over FY 2011. NWCF                               NWCF Sources of Funds, FY 2012
budget authority is comprised of contract authority                                        ($ in Billions)

and spending authority from offsetting collections of                                         $0.4
which the latter accounts for 63.4% of total budgetary
resources. The majority of the increase in overall                                    $3.2
budget authority is due to a $1.7 billion increase                                                              $8.9

in contract authority in FY 2012. NWCF business
activities obligated $30.4 billion of the $34.2 billion
total resources in FY 2012 which represents an increase
of $1.6 billion or 5.4% over FY 2011.

The Consolidated Statement of Net Cost presents net
cost of operations of $2.0 billion during FY 2012. Net
cost of operations represents gross costs incurred
                                                                                  $21.7
by NWCF less earned revenue. Sources of earned
revenue include DON, Army, and Air Force GF;
Defense Working Capital Funds; other Navy and
DoD appropriations; and non-DoD fund sources. The
                                                                           Contract Authority
decrease in earned revenue exceeded the decrease in                        Spending Authority from Offsetting Collections
gross costs by $10.5 billion in FY 2012 over FY 2011,                      Unobligated Balance Forward from Prior Years
which results in a positive net cost of operations.                        Other




                                    NWCF Net Cost of Operations, FY 2008 – 2012
                                                       ($ in Billions)
                 4           $3.1

                 2                            $1.6                                                           $2.0

                 0

                -2                                                ($2.8)

                -4

                -6
                                                                                  ($8.5)
                -8

               -10
                         2008            2009               2010             2011                    2012
                                                Fiscal Year Ending September 30


Financial Position
The NWCF continued to report a positive net position           which represents an increase of $0.5 billion and an
on its Consolidated Balance Sheet. Net position is the         2.4% increase from FY 2011. An increase of $0.7 billion
difference between total assets and total liabilities. As      and $0.2 billion in total assets and total liabilities
of 30 September 2012, net position totaled $21.0 billion,      contributed to the overall increase in net position.




32
 NWCF Total Assets, FY 2012                                              NWCF Total Liabilities, FY 2012
            ($ in Billions)                                                             ($ in Billions)



          $1.7     $1.3
                              $1.1
  $2.2
                                                                           $1.8




                                                                                                                $3.2




                                                                             $0.8

                  $20.5




Fund Balance with Treasury                                                 Accounts Payable
Accounts Receivable                                                        Military Retirement and
Inventory & Related Property                                               Other Federal Employment Benefits
General Property, Plant & Equipment                                        Remaining Liabilities
Remaining Assets

                                                         Cash Management
                                                         The DON manages working capital fund cash at
                                                         the Departmental level. It must maintain cash levels
                                                         at seven to ten days of operational costs, plus have
                                                         sufficient cash reserves to meet six months of projected
                                                         capital outlays, as required by the DoD Financial
                                                         Management Regulation. For FY 2012, the seven-day
                                                         cash requirement was $0.9 billion and the ten-day
                                                         requirement was $1.2 billion.

                                                         Supply Management, Navy received a $39 million
                                                         reimbursement for ordered items delivered to Defense
                                                         Logistics Agency.


Navy Working Capital Fund Cash Balances October 1, 2011 to September 30, 2012
                                                 ($ in Millions)

1800

1500

1200

 900

 600

 300

   0
         Oct     Nov      Dec        Jan   Feb     Mar       Apr     May      Jun      Jul      Aug       Sep

                                           Fiscal Year Ending September 30




                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   33
                                                               An F/A-18C Hornet launches from the flight deck of the aircraft
                                                               carrier USS Abraham Lincoln (CVN 72). Lincoln is deployed in support
                                                               of conducting maritime security operations and theater security
                                                               cooperation efforts.




                                                                                      Looking Forward
Our achievements during FY 2012 established a firm           anti-access/area denial challenges; counter weapons
foundation that will assure future success in executing      of mass destruction; operate effectively in cyberspace
our mission and building a sound business operating          and space; maintain a safe, secure, and effective
environment. In FY 2013, we will focus on achieving          nuclear deterrent; defend the homeland and provide
the DON’s objectives outlined in the Strategic               support to civil authorities; provide a stabilizing
Management section. Of those objectives, our priority        presence; conduct stability and counterinsurgency
will be to increase our effectiveness and efficiency,        operations; and conduct humanitarian, disaster relief,
improve the lives of our Sailors and Marines, and            and other operations. In order to achieve success in
maintain a leaner and stronger force in a time of            these missions, the DON must operate globally and
constrained budgets. Highlighted below are a few of          effectively by both land and sea. This strategy will
these priorities.                                            allow the DON the ability to prevent conflict by both
                                                             direct and indirect interactions.
Maritime Security
                                                             Taking Care of Our People
The DON is focused on aligning its goals with the new
strategic guidance of the DoD. This guidance calls for       Development and retention of highly qualified and
a smaller and leaner force that is agile, flexible, ready,   dedicated people are vital to our continued success.
and technologically advanced. In doing so, in FY 2013        In an era of reduced budgets, it is imperative for the
the DON will focus on succeeding in the following ten        DON to provide the right person with the right skills,
core missions: counter terrorism and irregular warfare;      at the right time as the best value to the joint force. By
deter and defeat aggression; project power despite           doing so, this will allow the DON to remain strong,


34
while becoming leaner and more agile. Our strategy                           support the energy savings efforts with initiatives such
for the future will be guaranteed by focusing on                             as the joint effort with the Department of Agriculture
developing policies that bring forth the promise of our                      and the Department of Energy to produce commercial
people, thereby ensuring full development of their                           scale biofuels at prices comparable to commercial
personal and professional capabilities. Our objectives                       oil. We remain on track to achieve the goal of cutting
remain: to align the personal and professional goals of                      petroleum use in non-tactical vehicles by 50 percent
our workforce with the needs of the joint force while                        by 2015 and allow for 50 percent of DON total energy
ensuring the welfare of our Sailors, Marines, and their                      consumption to come from alternative sources by 2020.
families; to deliver a high performing, competency-                          The planned “Green” Strike Group is on track to be
based and mission-focused force to meet the full                             operational by FY 2016.
spectrum of joint operations and maintain total force
readiness by enhancing the focus on sailor readiness.




A Chief Ship’s Serviceman is pinned by her family during a chief petty       The Chief of Naval Operations (CNO) and the Secretary of the Navy
officer pinning ceremony in the hangar bay aboard the Nimitz-class           (SECNAV) observe as the Military Sealift Command fleet replenishment
aircraft carrier USS Abraham Lincoln (CVN 72). Lincoln’s new chiefs          oiler USNS Henry J. Kaiser (T-AO 187), background, transfers biofuels to the
received their anchors and covers after a six-week chief training program.   guided-missile cruiser USS Princeton (CG 59) during a replenishment at sea.


Energy Reform                                                                Business Transformation
Readily available energy is essential for deploying                          The DON continues its commitment to building
our Sailors and Marines around the globe in support                          a performance based culture. During FY 2013, the
of our nation’s interests. During FY 2012, the DON                           DON will continue to actively develop process
spearheaded efforts to develop greater energy                                improvements, continue to work in conjunction
independence and conservation ashore and afloat. The                         with the DoD enterprise to improve performance
energy goals from the prior year of cutting petroleum                        management and budget reporting, and develop its
usage and finding alternative energy sources all                             vision for business transformation. In these times
remain on track. In FY 2013, we will continue to                             of fiscal constraint, the DON is challenged to make

                                                                               Protect the Nation, Project Power, Provide Freedom of the Seas         35
necessary investments in future capabilities while      environment will be both transparent and accountable
sustaining current warfighting effectiveness. As a      to DON’s stakeholders – the Department of Defense,
part of the strategy to meet these goals, the DON has   Congress, and the American taxpayer.
adopted a business transformation policy designed
to: employ business process change to reduce cost,      Limitations to the Financial Statements
exploit process improvements, enhance technology,
and ensure continued mission superiority through an     The principal financial statements have been
effective human capital strategy.                       prepared to report the financial position and results of
                                                        operations of the entity, pursuant to the requirements
DON business process improvement involves               of 31 United States Code 3515 (b). While the statements
executing, aligning, and integrating a series of        have been prepared from the books and records of
enterprise-wide initiatives which will dramatically     the entity in accordance with generally accepted
transform our ability to execute programs and support   accounting principles for Federal entities and the
our mission. The result will be improved efficiency,    formats prescribed by the Office of Management and
better decision-making, and an organizational culture   Budget, the statements are in addition to the financial
that is performance-based. The DON FIAR plan, in        reports used to monitor and control budgetary
concert with the continuing roll-out of Navy ERP and    resources which are prepared from the same books
other enterprise business initiatives, will transform   and records. The statements should be read with the
the Department’s business environment into a “best      realization that they are for a component of the U.S.
practices,” auditable end-state. This transformed       Government, a sovereign entity.




36                        General Fund
General Fund Principal Statements
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   37
                                                                      Principal Statements
The Fiscal Year 2012 Department of the Navy (DON) General Fund (GF) principal statements and related notes
are presented in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize financial information for individual funds and accounts
within the GF for the fiscal year ending September 30, 2012, and are presented on a comparative basis with
information previously reported for the fiscal year ending September 30, 2011.

The following statements comprise the DON GF principal statements:

      Consolidated Balance Sheet
      Consolidated Statement of Net Cost
      Consolidated Statement of Changes in Net Position
      Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




38                        General Fund
                                        Department of Defense - Department of the Navy General Fund


                                              CONSOLIDATED BALANCE SHEET
                                                            As of September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Consolidated              2011 Consolidated
ASSETS
   Intragovernmental:
       Fund Balance with Treasury (Note 3)                                                 $            143,102,685       $             138,448,267
       Investments and Related Interest (Note 4)                                                              7,968                           9,289
       Accounts Receivable (Note 5)                                                                         195,181                         321,788
       Other Assets (Note 6)                                                                                346,428                         165,099
   Total Intragovernmental Assets                                                                       143,652,262                     138,944,443

   Cash and Other Monetary Assets (Note 7)                                                                   93,840                         106,042
   Accounts Receivable, Net (Note 5)                                                                      3,616,372                       3,679,317
   Inventory and Related Property, Net (Note 8)                                                          68,340,085                      66,782,595
   General Property, Plant, and Equipment, Net (Note 9)                                                 228,851,453                     228,275,598
   Other Assets (Note 6)                                                                                 46,118,969                      44,799,298
TOTAL ASSETS                                                                               $            490,672,981       $             482,587,293
Stewardship Property, Plant, and Equipment (Note 9)*

LIABILITIES
   Intragovernmental:
       Accounts Payable (Note 11)                                                          $               1,587,406      $               1,996,758
       Other Liabilities (Note 13)                                                                         4,386,160                      4,869,187
   Total Intragovernmental Liabilities                                                                     5,973,566                      6,865,945

   Accounts Payable (Note 11)                                                                                232,068                         558,726
   Military Retirement and Other Federal
       Employment Benefits (Note 15)                                                                      1,670,760                       1,655,019
   Environmental and Disposal Liabilities (Note 12)                                                      21,599,934                      21,186,694
   Other Liabilities (Note 13)                                                                            8,172,836                       6,564,768
TOTAL LIABILITIES                                                                                        37,649,164                      36,831,152
Commitments and Contingencies (Note 14)*

NET POSITION
   Unexpended Appropriations - Other Funds                                                              184,561,909                     178,477,576
   Cumulative Results of Operations - Earmarked Funds                                                        29,532                          25,545
   Cumulative Results of Operations - Other Funds                                                       268,432,376                     267,253,020
TOTAL NET POSITION                                                                                      453,023,817                     445,756,141

TOTAL LIABILITIES AND NET POSITION                                                         $            490,672,981       $             482,587,293

* - Disclosure but no value required per Federal Accounting Standards.

The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas    39
                                        Department of Defense - Department of the Navy General Fund


                                     CONSOLIDATED STATEMENT OF NET COST
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)

                                                                                               2012 Consolidated          2011 Consolidated
Program Costs
   Gross Costs
      Military Personnel                                                                   $            47,405,225    $            47,198,600
      Operations, Readiness, & Support                                                                  63,204,636                 65,501,114
      Procurement                                                                                       50,485,242                 48,531,687
      Research, Development, Test, & Evaluation                                                         16,764,357                 18,201,273
      Family Housing & Military Construction                                                             2,434,831                  1,966,777

     Less: Earned Revenue                                                                              (10,599,907)               (12,463,027)

Net Cost of Operations                                                                     $           169,694,384    $           168,936,424

The accompanying notes are an integral part of the statements.




40                                  General Fund
                                        Department of Defense - Department of the Navy General Fund


                   CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                          2012 Earmarked Funds                2012 Other Funds
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                                       $                   25,545     $             267,253,020
  Budgetary Financing Sources:
     Appropriations Used                                                                                          (41)                  166,059,179
     Nonexchange Revenue                                                                                          218                             -
     Donations & Forfeitures of Cash & Cash Equivalents                                                        23,734                           237
  Other Financing Sources:
     Donations and Forfeitures of Property                                                                          -                         1,742
     Transfers-In/Out without Reimbursement                                                                         -                      (138,094)
     Imputed Financing from Costs Absorbed by Others                                                                -                       816,514
     Other                                                                                                          -                     4,114,238
  Total Financing Sources                                                                                      23,911                   170,853,816
  Net Cost of Operations                                                                                       19,924                   169,674,460
  Net Change                                                                                                    3,987                     1,179,356
  Cumulative Results of Operations                                                         $                   29,532     $             268,432,376

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                      $                         -    $             178,477,576
   Budgetary Financing Sources:
      Appropriations Received                                                                                       -                   173,531,259
      Appropriations Transferred-In/Out                                                                             -                     1,376,886
      Other Adjustments (Rescissions, etc)                                                                        (41)                   (2,764,633)
      Appropriations Used                                                                                          41                  (166,059,179)
   Total Budgetary Financing Sources                                                                                -                     6,084,333
   Unexpended Appropriations                                                                                        -                   184,561,909
   Net Position                                                                            $                   29,532     $             452,994,285

The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas    41
                                        Department of Defense - Department of the Navy General Fund


                   CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                     For the Years Ended September 30, 2011 and 2010
                                                                   ($ in thousands)
                                                                                               2012 Consolidated           2011 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                                       $           267,278,565     $           256,678,137
  Budgetary Financing Sources:
     Appropriations Used                                                                               166,059,138                 165,646,982
     Nonexchange Revenue                                                                                       218                         235
     Donations & Forfeitures of Cash & Cash Equivalents                                                     23,971                      18,422
  Other Financing Sources:
     Donations and Forfeitures of Property                                                                   1,742                         652
     Transfers-In/Out without Reimbursement                                                               (138,094)                    225,126
     Imputed Financing from Costs Absorbed by Others                                                       816,514                     881,374
     Other                                                                                               4,114,238                  12,764,061
  Total Financing Sources                                                                              170,877,727                 179,536,852
  Net Cost of Operations                                                                               169,694,384                 168,936,424
  Net Change                                                                                             1,183,343                  10,600,428
  Cumulative Results of Operations                                                         $           268,461,908     $           267,278,565

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                      $           178,477,576     $           169,307,091
   Budgetary Financing Sources:
      Appropriations Received                                                                           173,531,259                175,092,446
      Appropriations Transferred-In/Out                                                                   1,376,886                  2,607,610
      Other Adjustments (Rescissions, etc)                                                               (2,764,674)                (2,882,589)
      Appropriations Used                                                                              (166,059,138)              (165,646,982)
   Total Budgetary Financing Sources                                                                      6,084,333                  9,170,485
   Unexpended Appropriations                                                                            184,561,909                178,477,576
   Net Position                                                                            $            453,023,817    $           445,756,141

The accompanying notes are an integral part of the statements.




42                                  General Fund
                                        Department of Defense - Department of the Navy General Fund


                           COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Combined                  2011 Combined
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                         $              33,205,881      $              35,002,674
   Recoveries of Prior Year Unpaid Obligations                                                            13,249,015                     14,169,439
   Other Changes in Unobligated Balance                                                                   (1,337,751)                    (1,125,467)
   Unobligated Balance from Prior Year Budget Authority                                                   45,117,145                     48,046,646

    Appropriations                                                                                      173,505,214                     175,961,434
    Spending Authority from Offsetting Collections                                                        8,105,260                       7,587,503
Total Budgetary Resources                                                                  $            226,727,619       $             231,595,583

Status of Budgetary Resources:
    Obligations Incurred                                                                   $            194,177,904       $             198,389,702
    Unobligated Balance, End of Year
       Apportioned                                                                                       28,451,635                      29,803,065
       Unapportioned                                                                                      4,098,080                       3,402,816
    Unobligated Balance Brought Forward, End of Year                                                     32,549,715                      33,205,881
Total Budgetary Resources                                                                  $            226,727,619       $             231,595,583

The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas    43
                                        Department of Defense - Department of the Navy General Fund


                           COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Combined               2011 Combined
Change in Obligated Balance:
  Unpaid Obligations, Brought Forward, October 1                                           $           107,478,038     $         101,601,676
  Uncollected Customer Payments from Federal Sources, Brought
     Forward, October 1                                                                                  (2,509,887)              (3,154,898)
  Obligated Balance Start of Year, Net                                                                  104,968,151               98,446,778
  Obligations Incurred                                                                                  194,177,904              198,389,702
  Outlays, Gross                                                                                       (175,479,471)            (178,343,901)
  Change in Uncollected Customer Payments from Federal Sources                                             (119,915)                 645,011
  Recoveries of Prior Year Unpaid Obligations                                                           (13,249,015)             (14,169,439)
  Obligated Balance, End of Year
     Unpaid Obligations, End of Year, Gross                                                            112,927,456               107,478,038
     Uncollected Customer Payments from Federal Sources, End
        of Year                                                                                         (2,629,802)               (2,509,887)
  Obligated Balance, End of Year                                                           $           110,297,654     $         104,968,151

Budget Authority and Outlays, Net:
   Budget Authority, Gross                                                                 $           181,610,474     $         183,548,937
   Actual Offsetting Collections                                                                        (7,985,345)               (8,232,514)
   Change in Uncollected Customer Payments from Federal Sources                                           (119,915)                  645,011
   Budget Authority, Net                                                                   $           173,505,214     $         175,961,434

     Outlays, Gross                                                                        $           175,479,471     $         178,343,901
     Actual Offsetting Collections                                                                      (7,985,345)               (8,232,514)
     Outlays, Net                                                                                      167,494,126               170,111,387
     Distributed Offsetting Receipts                                                                      (226,131)                   36,444
     Agency Outlays, Net                                                                   $           167,267,995     $         170,147,831

The accompanying notes are an integral part of the statements.




44                                  General Fund
Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the
Department of the Navy (DON) General Fund (GF), as required by the Chief Financial Officers Act of 1990,
expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The financial
statements have been prepared from the books and records of DON GF in accordance with, and to the extent
possible, U.S. Generally Accepted Accounting Principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board (FASAB); the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR).
The accompanying financial statements account for all resources for which DON GF is responsible unless
otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernable.

The DON GF financial statements include information from both financial systems and nonfinancial feeder
systems. The Defense Finance and Accounting Service, Cleveland (DFAS-CL) collects information from the
financial system and incorporates it into the financial statements for DON GF. The DON GF collects financial
information from nonfinancial feeder systems through a data call process and submits it to DFAS-CL for
incorporation into the financial statements. On behalf of DON GF, DFAS-CL also collects information from
multiple sources, such as intragovernmental data from DON GF’s trading partners, which is incorporated
into the financial statements. The Defense Departmental Reporting System Data Collection Module (DDRS
DCM) captures certain required financial information from non-integrated systems for the DON GF financial
statements. The DDRS DCM identifies the information requirements to the source provider, and integrates data
into the financial statement preparation process.

The DON GF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136 due to
limitations of its financial and nonfinancial management processes and systems that support the financial
statements. The DON GF derives reported values and information for major asset and liability categories
largely from nonfinancial systems, such as inventory and logistic systems. These systems were designed to
support reporting requirements for maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with USGAAP. The DON GF continues
to implement process and system improvements addressing these limitations.

The Department of Defense Inspector General (DoDIG) issued an audit report dated November 8, 2012 and
identified 11 financial statement material weaknesses: (1) Financial Management Systems; (2) Fund Balance
with Treasury; (3) Accounts Receivable; (4) Other Assets; (5) Inventory and Related Property, Net; (6) General
Property, Plant, and Equipment; (7) Accounts Payable; (8) Statement of Net Cost; (9) Problem Disbursements;
(10) Unobligated Balances; (11) Statement of Changes in Net Position.

1.B.	 Mission of the Reporting Entity
The DON was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-12). The overall mission
of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces capable of winning wars,
deterring aggression, and maintaining freedom of the seas.

1.C.	 Appropriations and Funds
The DON receives appropriations and funds as general, working capital (revolving), trust, special, and deposit
funds. The DON uses these appropriations and funds (excluding deposit funds) to execute its missions and
subsequently report on resource usage.



                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   45
General funds are used for financial transactions funded by congressional appropriations, including
personnel, operation and maintenance, research and development, procurement, and family housing and
military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available on-line at http://www.
defenselink.mil/recovery.

The National Defense Sealift Fund is DON GF’s only revolving fund. Revolving funds are generally established
for carrying out specific activities. Revolving funds are financed through an appropriation or a transfer to
establish a corpus and are replenished through charges made for goods or services without fiscal year limitations.
The National Defense Sealift Fund receives an annual appropriation and has no corpus.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to record government receipts reserved for a specific purpose. Certain trust and
special funds may be designated as earmarked funds. Earmarked funds are financed by specifically identified
revenues, required by statute to be used for designated activities, benefits or purposes, and remain available over
time. The DON GF is required to separately account for and report on the receipt, use and retention of revenues
and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public
entity. They are not DON GF funds, and as such, are not available for DON GF’s operations. The DON GF is
acting as an agent or a custodian for funds awaiting distribution.

The DON GF is a party to allocation transfers with other federal agencies as a transferring (parent) entity or
receiving (child) entity. An allocation transfer is an entity’s legal delegation of authority to obligate budget
authority and outlay funds on its behalf. Generally, all financial activity related to allocation transfers (e.g.
budget authority, obligations, outlays) is reported in the financial statements of the parent entity. Exceptions to
this general rule apply to specific funds for which OMB has directed that all activity be reported in the financial
statements of the child entity. These exceptions include U.S. Treasury-Managed Trust Funds, Executive Office of
the President (EOP), and all other funds specifically designated by OMB.

Additionally, the DON GF receives allocation transfers from the EOP for the Foreign Military Financing Program
(meeting the OMB exception), the International Military Education and Training Program, U.S. Forest Service,
and the Federal Highway Administration. The activities for these funds are reported separately from the DoD
financial statements and reported to the parent.

The DON GF receives allocation transfers for the Security Assistance programs that meet the OMB exception
for EOP funds. These funds are reported separately from the DoD financial statements based on an agreement
with OMB.

1.D.	 Basis of Accounting
The DON GF’s financial management systems are unable to meet all full accrual accounting requirements. Many
of the DON GF’s financial and nonfinancial feeder systems and processes were designed and implemented prior
to the issuance of USGAAP. These systems were not designed to collect and record financial information on
the full accrual accounting basis as required by USGAAP. Most of DON GF’s financial and nonfinancial legacy
systems were designed to record information on a budgetary basis.




46                         General Fund
The DON GF financial statements and supporting trial balances are compiled from the underlying financial data
and trial balances of DON’s sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and accruals made for
major items such as payroll expenses, accounts payable, environmental liabilities, and Federal Employees’
Compensation Act (FECA) liabilities. Some of the sub-entity level trial balances may reflect known abnormal
balances resulting largely from business and system processes. At the consolidated DON GF level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes,
but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and
processes into compliance with USGAAP. One such action is the conversion of DON’s legacy systems to Navy
Enterprise Resource Planning (ERP) which is designed to modernize and standardize Navy’s business practices.
Navy ERP was developed utilizing the USSGL account structure to better comply with applicable financial
management requirements.

1.E.	 Revenues and Other Financing Sources
The DON GF receives congressional appropriations as financing sources for general funds that expire annually,
on a multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented
by revenues generated by sales of goods or services. The DON GF recognizes revenue as a result of costs
incurred for goods and services provided to other federal agencies and the public. Full-cost pricing is DON GF’s
standard policy for services provided as required by OMB Circular A-25, User Charges. The DON GF recognizes
revenue when earned within the constraints of its current system capabilities.

The DON GF does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost. The U.S. has cost sharing agreements with countries
having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. Fleet is in
a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, current financial and nonfinancial feeder systems were not designed to collect and record
financial information on the full accrual accounting basis. Estimates are made for major items such as payroll
expenses, accounts payable, environmental liabilities, and FECA liabilities. In the case of Operating Materiel
& Supplies (OM&S), operating expenses are generally recognized when the items are purchased. Efforts are
underway to transition to the consumption method for recognizing OM&S expenses. Under the consumption
method, OM&S would be expensed when consumed. Due to system limitations, in some instances expenditures
for capital and other long-term assets may be recognized as operating expenses. The DON GF continues to
implement process and system improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intra-entity activity and balances from consolidated
financial statements in order to prevent overstatement for business with itself. However, the DON GF cannot
accurately identify intragovernmental transactions by customer because DON GF’s systems do not track buyer
and seller data at the transaction level. Generally, seller entities within the DoD provide summary seller-
side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal accounting
offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The DoD is implementing replacement systems and a standard financial information structure
that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.



                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   47
Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of
the United States Government” provides guidance for reporting and reconciling intragovernmental balances.
While DON GF is unable to fully reconcile intragovernmental transactions with all federal agencies, DON GF is
able to reconcile balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and
the Federal Financing Bank, FECA transactions with the Department of Labor, and benefit program transactions
with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included.
The Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial
statements do not report any public debt, interest, or source of public financing, whether from issuance of debt or
tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the U.S. Treasury does not allocate such costs to DoD.

1.H.	 Transactions with Foreign Governments and International Organizations
Each year, DON GF sells defense articles and services to foreign governments and international organizations
under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority
to sell defense articles and services to foreign countries and international organizations generally at no profit or
loss to the Federal Government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The DON GF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE),
and the Department of State’s financial service centers process the majority of the DON GF’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S.
Treasury on checks issued, electronic fund transfers, interagency transfers, and deposits. The disbursing station
monthly reports are consolidated at the disbursing office level for financial reporting purposes.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. On a monthly basis DFAS performs a
reconciliation between DON GF’s FBWT and the U.S. Treasury.

1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency consists of
the total U.S. dollar equivalent of both purchased and nonpurchased foreign currencies held in foreign currency
fund accounts. Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.

The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported
consist primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting,
and foreign currency accommodation exchange missions.

The DON GF conducts a significant portion of operations overseas. Congress established a special account
to handle the gains and losses from foreign currency transactions for five general fund appropriations: (1)
operations and maintenance; (2) military personnel; (3) military construction; (4) family housing operation and
maintenance; and (5) family housing construction. The gains and losses are calculated as the variance between
the exchange rate current at the date of payment and a budget rate established at the beginning of each fiscal


48                         General Fund
year. Foreign currency fluctuations related to other appropriations require adjustments to the original obligation
amount at the time of payment. The DON GF does not separately identify currency fluctuation transactions.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable,
and refunds receivable. In accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities, the
methodology for losses due to uncollectable amounts are based on an individual account analysis and/or group
analysis. The analysis is based on three years of receivable data. This data is used to determine the historical
percentage of collections in each age category of receivables. The DON does not recognize an allowance for
estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to
be resolved between the agencies in accordance with dispute resolution procedures defined in the Treasury
Financial Manual Part 2, Chapter 4700, Appendix 10, “Intragovernmental Business Rules”.

1.L.	 Inventories and Related Property
The DON GF manages only military or government-specific materiel under normal conditions. Materiel is a
unique term that relates to military force management, and includes items such as ships, tanks, self-propelled
weapons, aircraft, support equipment, etc. As it relates to the DON GF, OM&S includes the related spares and
repair parts for materiel. Items commonly used in and available from the commercial sector are not managed
in DON GF’s materiel management activities. The DON GF holds materiel based on military need and support
for contingencies.

The DON GF does not have Inventory and only reports OM&S. The DON GF uses both the consumption
method and the purchase method of accounting for OM&S. DON GF OM&S is categorized as operating
materiels and supplies held for use, operating materiels and supplies held in reserve for future use (held for
repair) (including munitions not held for sale) and excess, obsolete and unserviceable operating material and
supplies. Items that are centrally managed and stored, such as ammunition and engines, are generally recorded
using the consumption method and are reported on the Balance Sheet as OM&S. When current systems cannot
fully support the consumption method, DON GF uses the purchase method. Under this method, materiel and
supplies are expensed when purchased. During FY 2012 and 2011, DON GF expensed significant amounts using
the purchase method because the systems could not support the consumption method or management deemed
that the item was in the hands of the end user. This is a material weakness for the DoD and long-term system
corrections are in process. Once the proper systems are in place, these items will be accounted for under the
consumption method of accounting.

DON GF OM&S assets held for use and held for repair use three cost valuation methods: Standard Price (SP),
Latest Acquisition Cost (LAC), and Moving Average Cost (MAC). Excess, obsolete, and unserviceable OM&S
are cost valued using Net Realizable Value. The LAC method is used because legacy logistics systems were
designed for materiel management rather than accounting purposes. Although these systems provide visibility
and accountability over inventory and related property items, they do not maintain historical cost data necessary
to comply with SFFAS No. 3. Additionally, these legacy inventory systems cannot produce financial transactions
using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (FFMIA). The
DON GF is continuing to transition OM&S to the MAC method. Most transitioned balances, however, were not
baselined to auditable historical cost, and remain noncompliant with SFFAS No. 3.

1.M.	 Investments in U.S. Treasury Securities
The DON GF reports investments in accordance with SFFAS No. 1, Accounting for Selected Assets and Liabilities.
The DON GF reports U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investments using the effective interest rate method or another
method obtaining similar results. The DON GF’s intent is to hold investments to maturity, unless they are
needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized
gains or losses on these securities.

                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   49
The DON GF invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal
agencies by the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror
the prices of particular U.S. Treasury securities traded in the government securities market.

1.N.	 General Property, Plant and Equipment
General Property, Plant and Equipment (PP&E) assets are capitalized in accordance with SFFAS No. 6,
Accounting for Property, Plant and Equipment, as amended by SFFAS Nos. 10, 23, and 35, when an asset has a
useful life of two or more years and when the acquisition cost equals or exceeds DoD’s capitalization threshold.
The DoD also requires the capitalization of improvements to existing General PP&E assets if the improvements
equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency, or capacity
of the asset. The DON GF depreciates all General PP&E, other than land and Military Equipment (ME) classified
as aircraft, on a straight-line basis in accordance with FMR Volume 4 Chapter 6. The DoD’s General PP&E
capitalization threshold is $100 thousand except for real property, which is $20 thousand.

The DON GF uses a combination of actual expenditure data and program funding to calculate the value for ME
in accordance with SFFAS No. 35. The DON GF is developing a process to track and record actual ME costs. The
ME value is updated using expenditure, acquisition, and disposal information.

Effective FY11, ME is recorded in Defense Property Accountability System (DPAS), and the Capital Asset
Management System-Military Equipment (CAMS-ME) is no longer used for recording ME transactions.

When it is in the best interest of the government, the DON GF provides government property to contractors to
complete contract work. The DON GF either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E
meets or exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on
DON GF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that
provides appropriate General PP&E information for financial statement reporting in accordance with Federal
Acquisition Regulations (FAR). The DoD requires DON to maintain, in their property systems, information on all
property furnished to contractors. These actions are structured to capture and report the information necessary
for compliance with federal accounting standards. The DON GF has not fully implemented this policy primarily
due to system limitations.

1.O.	Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the
rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds the
current capitalization threshold, DON GF records the applicable asset as though purchased, with an offsetting
liability, and depreciates it. The DON GF records the asset and the liability at the lesser of the present value of the
rental and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s
implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The DON GF,
as the lessee, receives the use and possession of leased property, for example real estate or equipment, from a
lessor in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and
risk of ownership. Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by DON GF are the largest component of operating leases and are based on
costs gathered from existing leases, General Services Administration bills, and interservice support agreements.
Future year projections use the Consumer Price Index.


50                         General Fund
1.P.	 Other Assets
Other assets include those assets, such as military and civil service employee pay advances and certain contract
financing payments that are not reported elsewhere on DON’s Balance Sheet. The DON GF maintains this
classification in accordance with SFFAS No. 1.

The DON GF conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, DON GF may provide financing payments. Contract financing payments are defined in the FAR, Part
32, as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government.
It is DoD policy to record certain contract financing payments as other assets. The DON GF has not fully
implemented this policy primarily due to system limitations.

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as
prescribed in SFFAS No. 1, Accounting for Selected Assets and Liabilities is to record advances or prepayments
in accordance with USGAAP. As such, payments made prior to the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when
the related goods and services are received. The DON GF has not implemented this policy primarily due to
system limitations.

Advances are cash outlays made by DON GF to its employees, contractors, or others to cover a part or all of the
recipients’ anticipated expenses. Military pay advances are advance payments authorized for purposes intended
to ease hardships imposed by the lack of regular payments when a military member is mobilized, ordered to
duty at distant stations, or deployed aboard ships for more than 30 days. Civilian pay advances are payments
advanced to full time DON civilians intended to finance unusual employee expenses associated with oversea
assignments that are not otherwise reimbursed and to aid foreign assignment recruitment and retention. Travel
advances are disbursed to employees prior to business trips. Travel advances are subsequently reduced when
travel expenses are actually incurred.

Due to inconsistencies in the posting logic for Nonfederal Advances and Prepayments, DON GF is noncompliant
with the FFMIA, which requires agencies to comply with the Federal financial management systems
requirements, standards promulgated by the FASAB, and the USSGL at the transaction level.

1.Q.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The DON GF recognizes contingent liabilities
when past events or exchange transactions occur, a future loss is probable, and the loss amount can be reasonably
estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. The DON GF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to
events such as aircraft, ship, and vehicle accidents; medical malpractice; property or environmental damages; and
contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for DON GF’s assets. Consistent with SFFAS
No. 6, Accounting for Property, Plant and Equipment, recognition of an anticipated environmental disposal
liability begins when the asset is placed into service. DON GF adheres to the DoD’s policy, which is consistent
with SFFAS No. 5, Accounting for Liabilities of Federal Government, and states that nonenvironmental
disposal liabilities are recognized when management decides to dispose of an asset. The DoD recognizes

                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   51
nonenvironmental disposal liabilities for military equipment nuclear-powered assets when placed into
service. These amounts are not easily distinguishable and are developed in conjunction with environmental
disposal costs.

1.R.	 Accrued Leave
Military leave, compensatory and annual leave earned by civilians, but not yet used, is reported as accrued
liabilities. The accrued balance is adjusted annually to reflect current pay rates. Any portions of the accrued
leave, for which funding is not available, are recorded as an unfunded liability. Sick leave for civilians is
expensed as taken.

1.S.	 Net Position
Net position consists of unexpended appropriations and cumulative results of operations. Unexpended
appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
payments have not been incurred. Cumulative results of operations represent the net difference between
expenses and losses, and financing sources (including appropriations, revenue, and gains), since inception.
The cumulative results of operations also include donations and transfers in and out of assets that were
not reimbursed.

1.T.	 Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The DON GF purchases capital
assets overseas with appropriated funds; however, the host country retains title to the land and capital
improvements. Treaty terms generally allow the DON continued use of these properties until the treaties expire.
In the event treaties or other agreements are terminated, use of the foreign bases is prohibited and losses are
recorded for the value of any nonretrievable capital assets. The settlement due to the U.S. or host nation is
negotiated and takes into account the value of capital investments and may be offset by the cost of environmental
cleanup.

1.U.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to specific obligations, payables, or receivables in the source systems and those
reported by the U.S. Treasury. Supported disbursements and collections may be evidenced by the availability of
corroborating documentation that would generally support the summary-level adjustments made to accounts
payable and receivable. Unsupported disbursements and collections do not have supporting documentation
for the transactions and most likely would not meet audit scrutiny. However, both supported and unsupported
adjustments may have been made to the DON GF’s Accounts Payable and Receivable trial balances prior
to validating that the underlying transactions required to establish the Accounts Payable/Receivable were
previously made. As a result, misstatements of reported Accounts Payable and Receivables are likely present in
the DON GF’s financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally
unable to determine whether undistributed disbursements and collections should be applied to federal or
nonfederal accounts payable/receivable at the time accounting reports are prepared. Accordingly, the DoD policy
is to allocate supported undistributed disbursements and collections between federal and nonfederal categories
based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Both
supported and unsupported undistributed disbursements and collections are then applied to reduce accounts
payable and receivable accordingly.




52                         General Fund
1.V.	 Fiduciary Activities
Fiduciary cash and other assets are not assets of the DON GF and are not recognized on the balance sheet.
Fiduciary activities are reported on the financial statement note schedules in accordance with SFFAS No. 31,
Accounting for Fiduciary Activities.

1.W.	 Military Retirement and Other Federal Employment Benefits
For financial reporting purposes, the DON’s actuarial liability for workers’ compensation benefits is developed
by the Department of Labor and provided to the DON at the end of each fiscal year. Refer to Note 15, Military
Retirement and Other Federal Employment Benefits for additional details and disclosures.


Note 2.	Nonentity Assets
                            As of September 30                                      2012                            2011
                                                 (Amounts in thousands)
1.	Intragovernmental Assets
     A.	Fund Balance with Treasury                                        $                 288,275      $                  386,464

2.	Nonfederal Assets
    A.	Cash and Other Monetary Assets                                                        93,840                        106,042
    B.	 Accounts Receivable                                                               3,528,238                      3,503,156
3.	Total Nonfederal Assets                                                                3,622,078                      3,609,198

4.	Total Nonentity Assets                                                                 3,910,353                      3,995,662

5.	Total Entity Assets                                                                 486,762,628                     478,591,631

6.	Total                                                                  $            490,672,981       $             482,587,293

Nonentity assets are assets for which the Department of the Navy (DON) General Fund (GF) maintains
stewardship accountability and reporting responsibility but are not available for the DON GF’s
normal operations.

Intragovernmental Fund Balance with Treasury
This nonentity asset category primarily represents amounts in DON’s Suspense Funds, Withheld State and Local
Taxes Fund, and Withheld Allotment of Compensation for Payment of Employee Organization Dues Fund.

Cash and Other Monetary Assets
This nonentity asset category represents disbursing officers’ cash, foreign currency, and undeposited collections
as reported on the Disbursing Officer’s Statement of Accountability. These assets are held by DON disbursing
officers on behalf of other agencies and are not available for DON’s use in normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The primary component of nonentity accounts receivable is an advance payment made to a contractor for the
A-12 aircraft procurement program, which remains in litigation and includes associated accrued interest. These
receivable balances are being reported in nonentity accounts receivable since the original appropriation year has
been cancelled, and any funds collected as a result of this litigation would be remitted to the U.S. Treasury.




                                                               Protect the Nation, Project Power, Provide Freedom of the Seas    53
Note 3.	 Fund Balance with Treasury
                         As of September 30                                  2012                   2011
                                               (Amounts in thousands)
1.	Fund Balances
    A.	Appropriated Funds                                               $      141,644,490    $        136,450,135
    B.	 Revolving Funds                                                          1,147,198               1,590,127
    C.	Trust Funds                                                                  20,588                  19,458
    D.	Special Funds                                                                 2,134                   2,083
    E.	 Other Fund Types                                                           288,275                 386,464
2.	Total                                                                $      143,102,685    $        138,448,267

Other Fund Types (Line 1.E) consist primarily of amounts in the following deposit and receipt accounts: General
Fund Proprietary Receipts, Pay of the Navy Deposit Fund, and Pay of the Marine Corps Deposit Fund.

Status of Fund Balance with Treasury
                         As of September 30                                  2012                   2011
                                               (Amounts in thousands)
1.	Unobligated Balance
    A.	Available                                                        $       28,451,635    $         29,803,065
    B.	 Unavailable                                                              4,098,080               3,402,816

2.	Obligated Balance not yet Disbursed                                         112,927,456             107,478,038

3.	Nonbudgetary FBWT                                                                263,260                283,450

4.	NonFBWT Budgetary Accounts                                                   (2,637,746)             (2,519,102)

5.	Total                                                                $      143,102,685    $        138,448,267

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and
is a reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and
obligated balances. The balances reflect the budgetary authority remaining for disbursement against current or
future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary
authority that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily
of funds invested in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain
unobligated balances are restricted for future use and are not apportioned for current use. Unobligated balances
for trust fund accounts are restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not
received, and those received but not paid.

Non-budgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds,
unavailable receipt accounts, clearing accounts and nonentity FBWT. For the Department of the Navy (DON)
General Fund (GF), Non-budgetary FBWT consists of balances in receipt accounts and clearing accounts.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of Trust
Fund investments in U.S. Treasury securities, unfilled customer orders without advance, and
reimbursements receivable.




54                          General Fund
Other
                         As of September 30                                                      2012                           2011
                                                   (Amounts in thousands)
1. 	Fund Balances Per Treasury Versus Agency
     A. 	Fund Balance per Treasury                                               $                144,586,439          $          139,907,357
     B.	 Fund Balance per DON                                                                     143,102,685                     138,448,267

2. 	Reconciling Amount                                                           $                  1,483,754          $             1,459,090

The total reconciling amount of $1.5 billion in FBWT is due to trust receipts, saving deposit program differences,
and parent-child transactions. The reconciling difference related to allocation transfers results from instances
in which DON allocates to or is allocated funds from various governmental entities. In cases in which DON
is allocated funds, the amount is excluded from the Fund Balance per DON, but included in Fund Balance per
Treasury. In cases in which DON allocates funds, the amount is included in the Fund Balance per DON, but it is
excluded from the Fund Balance per Treasury.

DON acknowledges that it has a material internal control weakness in that it does not reconcile its FBWT between
accounting systems at the DON Level and Treasury records at the transaction level. To remediate the weakness
the DON has partnered with its accounting service provider, Defense Finance and Accounting Service (DFAS) to
reconcile its FBWT and to sustain this reconciliation in the future.


Note 4.	Investments and Related Interest
            As of September 30                                                                   2012
                                                   (Amounts in thousands)
                                                                          Amortized (Premium)/
                                                       Cost                     Discount                Investments, Net    Market Value Disclosure
1.	Intragovernmental Securities
     A.	Nonmarketable, Market-Based
         1.	 Other Funds                       $              7,985      $                 (28)     $               7,957   $               7,957
     B.	 Accrued Interest                                        11                                                    11                      11
2.	Total                                       $              7,996      $                 (28)     $               7,968   $               7,968


            As of September 30                                                                   2011
                                                   (Amounts in thousands)
                                                                          Amortized (Premium)/
                                                       Cost                     Discount                Investments, Net    Market Value Disclosure
1.	Intragovernmental Securities
     A.	Nonmarketable, Market-Based
         1.	 Other Funds                       $              9,324      $                 (71)     $               9,253   $               9,259
     B.	 Accrued Interest                                        36                          -                         36                      36
2.	Total                                       $              9,360      $                 (71)     $               9,289   $               9,295

Other Funds (Line 1.A.1) represents DON Trust Fund holdings in interest-bearing securities for the Naval
Academy General Gift Fund and the Navy General Gift Fund. These investments are Nonmarketable Market-
Based U.S. Treasury securities reported at cost, net of amortized premiums and discounts. In accordance with the
SFFAS No. 27, Identifying and Reporting Earmarked Funds, DON Trust Funds are reported as earmarked funds.




                                                                      Protect the Nation, Project Power, Provide Freedom of the Seas              55
Note 5.	Accounts Receivable
                  As of September 30                                                      2012
                                                 (Amounts in thousands)
                                                                                   Allowance For Estimated
                                                               Gross Amount Due         Uncollectibles           Accounts Receivable, Net
1.	Intragovernmental Receivables                           $             195,181   $                N/A          $             195,181
2.	Nonfederal Receivables (From the Public)                            3,636,386                 (20,014)                    3,616,372

3.	Total                                                   $           3,831,567   $             (20,014)        $           3,811,553


                  As of September 30                                                      2011
                                                 (Amounts in thousands)
                                                                                   Allowance For Estimated
                                                               Gross Amount Due         Uncollectibles           Accounts Receivable, Net
1.	Intragovernmental Receivables                           $             321,788   $                N/A          $             321,788
2.	Nonfederal Receivables (From the Public)                            3,694,629                 (15,312)                    3,679,317

3.	Total                                                   $           4,016,417   $             (15,312)        $           4,001,105

The accounts receivable represent the Department of Navy (DON) General Fund’s (GF) claim for payment from
other entities. Intra-governmental Receivables primarily represents amounts due from other federal agencies
for reimbursable work performed pursuant to the Economy Act and other statutory authority. Claims with
other federal agencies are resolved in accordance with the Intragovernmental Business Rules. Refer to Note 2,
Nonentity Assets for additional information on Nonfederal Accounts Receivable. Since the DON is at risk of not
collecting on these public accounts receivable, the DON is recognizing an allowance for uncollectible amounts.
The methodology used in determining the allowance amount is discussed in Note 1.K.

The DON is currently working on an effort to drive compliance with Office of Management and Budget (OMB)
Circular A-11, Section 20.4(b)(4). Non-compliance results in unsupported departmental level adjustments which
negatively impacts achievement of the DON’s audit readiness goals for its Statement of Budgetary Resources.
DON is partnering with its service providers to clarify guidance, resolve funding issues and standardize business
practices. In addition, the DON and the Defense Finance and Accounting Service (DFAS) are aggressively
pursuing collection mechanisms for amounts currently due from the public.


Note 6.	Other Assets
                        As of September 30                                         2012                               2011
                                                 (Amounts in thousands)
1.	Intragovernmental Other Assets
     A.	Advances and Prepayments                                            $             346,428            $                 165,099

2.	Nonfederal Other Assets
    A.	Outstanding Contract Financing Payments                                         45,824,661                          44,497,095
    B.	 Advances and Prepayments                                                          282,061                             289,676
    C.	Other Assets (With the Public)                                                      12,247                              12,527
3.	Total Nonfederal Other Assets                                            $          46,118,969            $             44,799,298

4.	Total                                                                    $          46,465,397            $             44,964,397


Intragovernmental Other Assets - Advances and Prepayments
Advances are cash outlays made by a federal entity to cover a part or all of the recipients’ anticipated expenses or
as advance payments for the costs of goods and services the entity receives. Prepayments are payments made to
cover certain periodic expenses before those expenses are incurred.


56                         General Fund
Nonfederal Other Assets - Outstanding Contract Financing Payments
Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Government that protect the contract work from state or local taxation, liens or attachment by the contractor’s
creditors, transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued
to mean that ownership of the contractor’s work has transferred to the Federal Government. The Federal
Government does not have the right to take the work, except as provided in contract clauses related to
termination or acceptance, and the Department of the Navy (DON) is not obligated to make payment to the
contractor until delivery and acceptance. Some of the amounts reported as Outstanding Contract Financing
Payments (OCFP) may be progress payments based on percentage or stage of completion. However, DON is
unable to identify these due to system limitations and all amounts are reported as OCFP.

The balance of OCFP includes $44.4 billion in contract financing payments and an additional $1.4 billion in
estimated incurred but unpaid progress payments and government acceptance of a satisfactory product. (See
additional discussion in Note 13, Other Liabilities).

Nonfederal Other Assets - Other Assets (With the Public)
Other Assets (With the Public) includes advance pay to DON military personnel, travel advances to military
and civilian personnel, and miscellaneous advances to contractors that are not considered outstanding contract
financing payments.


Note 7.	 Cash and Other Monetary Assets
                         As of September 30                                      2012                            2011
                                              (Amounts in thousands)
1.	Cash                                                                $                   65,511     $                      76,772
2.	Foreign Currency                                                                        28,329                            29,270

3.	Total                                                               $                  93,840      $                  106,042

Cash and Foreign Currency consist primarily of cash held by the Department of the Navy (DON) Disbursing
Officers to carry out their payment, collection, and foreign currency accommodation exchange mission. Foreign
Currency is also held in overseas banks in support of contingency operations. The primary source of the amounts
reported is the Disbursing Officers Statements of Accountability.

Restriction on Cash, Foreign Currency and Other Monetary Assets
Total Cash and foreign currency reported are nonentity assets that are not available for DON’s use in normal
operations. Therefore, as of September 30, 2012 and 2011, the $93.8 million and $106 million in Cash and Foreign
Currency is restricted as to its use.


Note 8.	Inventory and Related Property, Net
                         As of September 30                                      2012                            2011
                                              (Amounts in thousands)
1.	Operating Materiel & Supplies, Net                                  $              68,340,085      $              66,782,595




                                                            Protect the Nation, Project Power, Provide Freedom of the Seas       57
Operating Materiel and Supplies, Net
                    As of September 30                                                                 2012
                                                             (Amounts in thousands)
                                                                   OM&S Gross Value   Revaluation Allowance       OM&S, Net     Valuation Method
1.	OM&S Categories
    A.	Held for Use                                            $        64,466,653    $         (28,046)      $    64,438,607   SP, LAC, MAC
    B.	 Held for Repair                                                  4,700,125             (798,647)            3,901,478   SP, LAC, MAC
    C.	Excess, Obsolete, and Unserviceable                               1,249,665           (1,249,665)                    -            NRV

2.	Total                                                       $        70,416,443    $      (2,076,358)      $    68,340,085

                    As of September 30                                                                 2011
                                                             (Amounts in thousands)
                                                                   OM&S Gross Value   Revaluation Allowance       OM&S, Net     Valuation Method
1.	OM&S Categories
    A.	Held for Use                                            $        61,924,364    $               -       $    61,924,364   SP, LAC, MAC
    B.	 Held for Repair                                                  6,093,922           (1,235,691)            4,858,231   SP, LAC, MAC
    C.	Excess, Obsolete, and Unserviceable                               1,163,912           (1,163,912)                    -            NRV

2.	Total                                                       $        69,182,198    $      (2,399,603)      $    66,782,595

Legend for Valuation Methods:
LAC = Latest Acquistion Cost	   NRV = Net Realizable Value
SP = Standard Price	            MAC = Moving Average Cost


Operating Materiel and Supplies (OM&S) includes spare and repair parts, ammunition, conventional missiles,
torpedoes, aircraft configuration pods, and centrally managed aircraft engines. The categories of OM&S are
Ammunitions and Munitions, Principal End and Secondary Items, Sponsor Owned Materiel (SOM), Realtime
Reutilization Asset Management (RRAM) Materiel and Other OM&S. The Moving Average Cost (MAC)
valuation method is used for a majority of the OM&S categories; however Latest Acquisition Cost (LAC) is also a
valuation method applied depending on the legacy inventory system used to track OM&S. There are no known
restrictions on the use of OM&S.

The DON General Fund assigns OM&S items to a category based upon the type and condition of the asset.
OM&S Held for Use includes spare and repair parts, clothing and textiles, and petroleum products. OM&S
Held for Repair consists of damaged materiel that is more economical to repair than to dispose. Excess, Obsolete,
and Unserviceable OM&S consists of scrap materiel or items that cannot be economically repaired and are
awaiting disposal.

The DON GF recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending
development of an effective means of valuing such materiel.

The consumption method shall be applied when accounting for OM&S and valued at historical cost or any
method approximating historical cost (e.g. standard cost or LAC). Exceptions to the consumption method is
provided when (1) the OM&S are not significant amounts, (2) they are in the hands of the end user for use in
normal operations, or (3) it is not cost beneficial to apply the consumption method. In any of these events, the
purchase method may be used.

Ammunition and Munitions
Ammunition and Munitions are maintained in the Department of the Navy (DON) Ordnance Information System
and valued at the LAC.




58                                   General Fund
Principal End and Secondary Items
Principal End and Secondary Items include OM&S such as shipboard hull, mechanical, and electronic equipment,
and uninstalled aircraft engines. They are items of such importance that central inventory control is required.
They normally possess one of the following characteristics: essential for combat or training; high dollar value;
difficult to procure or produce; or critical basic materiel or components. Principal End and Secondary Items are
valued at MAC.

Sponsor-Owned Material
SOM is defined as programmatic materiel required in support of Program Managers’ mission requirements
for production, life cycle maintenance, and installation of systems and equipment. The materiel usage may
involve, but is not limited to: item fabrication, assembly, testing, manufacturing, development, repair, or research
and development.

Realtime Reutilization Asset Management Materiel
Materiel maintained and valued in RRAM is considered excess to the owner, or materiel manager responsible
for the materiel, but may not be excess to the DON. Standard price is used to value all stock-numbered items.
Part-numbered items are valued by best available information. Stock-numbered items represent common
items available in the supply system. Part-numbered items are older, unique items, only used in specific types
of OM&S.

Other OM&S
Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War Reserve
materiel in possession of the U.S. Coast Guard.


Note 9.	 General Property, Plant and Equipment, Net
           As of September 30                                                                          2012
                                                         (Amounts in thousands)
                                                Depreciation/
                                                Amortization                                                       (Accumulated
                                                  Method         Service Life          Acquisition Value      Depreciation/ Amortization)       Net Book Value
1.	Major Asset Classes
    A.	Land                                        N/A              N/A            $          612,657          $             N/A            $         612,657
    B.	 Buildings, Structures, and Facilities      S/L            20 or 40                 43,733,681                 (23,834,274)                 19,899,407
    C.	Leasehold Improvements                      S/L          lease term                      6,530                      (2,702)                      3,828
    D.	Software                                    S/L           2-5 or 10                      3,405                      (3,008)                        397
    E.	 General Equipment                          S/L            5 or 10                  14,858,936                  (8,900,915)                  5,958,021
    F.	 Military Equipment                         S/L            Various                 416,154,006                (222,121,894)                194,032,112
    G.	Construction-in-Progress (Excludes
        Military Equipment)                        N/A             N/A                      7,189,011                        N/A                    7,189,011
    H.	 Other                                                                               1,156,020                           -                   1,156,020
2.	Total                                                                           $      483,714,246          $     (254,862,793)          $     228,851,453




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas                   59
                As of September 30                                                                    2011
                                                           (Amounts in thousands)
                                                  Depreciation/
                                                  Amortization                                                    (Accumulated
                                                    Method         Service Life       Acquisition Value      Depreciation/ Amortization)       Net Book Value
1.	Major Asset Classes
    A.	Land                                          N/A              N/A         $          615,579          $             N/A            $         615,579
    B.	 Buildings, Structures, and Facilities        S/L            20 or 40              40,040,721                 (22,578,930)                 17,461,791
    C.	Leasehold Improvements                        S/L          lease term                   6,530                      (2,391)                      4,139
    D.	Software                                      S/L           2-5 or 10                  10,956                     (10,439)                        517
    E.	 General Equipment                            S/L            5 or 10               14,718,004                  (8,816,331)                  5,901,673
    F.	 Military Equipment                           S/L            Various              374,404,232                (177,473,327)                196,930,905
    G.	Construction-in-Progress (Excludes
        Military Equipment)                          N/A             N/A                   6,167,963                        N/A                    6,167,963
    H.	 Other                                                                              1,193,031                           -                   1,193,031
2.	Total                                                                          $      437,157,016          $     (208,881,418)          $     228,275,598

Legend for Valuation Methods:
S/L = Straight Line	       N/A = Not Applicable


Restrictions on the Use or Convertibility of General Property, Plant, & Equipment
The Department of the Navy (DON) has the use of land, buildings, and other overseas facilities that are obtained
through various international treaties and agreements negotiated by the Department of State. Generally,
treaty terms allow DON continued use of these properties until the treaties expire. There are no other known
restrictions on General Property, Plant, and Equipment (PP&E).

Accounting Standards for Military Equipment
The DON estimates values for Capitalized Military Equipment using department internal records. The Defense
Property Accountability System is a Department of Defense wide system used to provide DON’s Military
Equipment valuations.

In FY 2012, the DON added 247 new aircraft to the inventory and retired 223.

Other General PP&E consists of Real Property held in caretaker status. Caretaker status is defined as those
properties that Navy still owns, but which are being held awaiting further disposal action to another entity, such
as Defense Base Closure and Realignment Commission property awaiting sale or transfer to another Federal
agency. As of September 30, 2012, the accumulated depreciation related to these assets in caretaker status is
currently included in the total accumulated depreciation of Buildings, Structures, and Facilities still in service and
is unknown at this time. The DON is researching the dollar value of accumulated depreciation expense related to
these assets.

Construction in Progress
Construction in Progress (CIP) is a temporary classification of assets under construction. The costs of new
construction and capital improvements are accumulated in a CIP account while the asset is under construction.
CIP accounts include all costs incurred to bring the asset to a form and condition suitable for its intended use. The
sum of the individual costs in the CIP account will determine the total cost of the asset that is then recorded in the
appropriate PP&E general ledger account.

The DON General Fund (GF) is currently reporting outstanding contract financing payments as Nonfederal
Other Assets. The DON GF recognizes that U.S. generally accepted accounting principles and federal accounting
standards require these payments to be recorded as CIP for items meeting the definition of General PP&E.

Heritage Assets and Stewardship Land
The Federal Accounting Standards Advisory Board’s SFFAS No. 29, Heritage Assets and Stewardship Land,
requires note disclosures for these types of assets. The DON’s policy is to preserve its heritage assets, which are
items of historical, cultural, educational, or artistic importance.

60                              General Fund
Heritage assets within DON consist of buildings and structures, archeological sites, and museum collections. The
DON defines these as follows:

Buildings and Structures
Buildings and structures that are listed on, or eligible for listing on, the National Register of Historic Places,
including Multi-Use Heritage Assets.

Archeological Sites
Sites that have been identified, evaluated, and determined to be eligible for or are listed on the National Register
of Historical Places in accordance with Section 110 National Historical Preservation Act.

Museum Collection Items
Items that are unique for one or more of the following reasons: historical or natural significance; cultural,
educational, or artistic importance; or significant technical or architectural characteristics.	

                                                                       As of September 30,                                                 As of September 30,
                     Categories                  Measure Quantity              2011               Additions               Deletions                2012
Buildings and Structures                             Each                       10,035                        -                       -             10,035
Archaeological Sites                                 Each                       18,534                        -                       -             18,534
Museum Collection Items (Objects, Not
   Including Fine Art)                               Each                     649,547                  16,757                 162,366             503,938
Museum Collection Items (Objects, Fine Art)          Each                      40,157                     781                     125              40,813

DON’s Heritage Asset information is entered into the DON Heritage Asset Management System database,
and is not based on a physical inventory per the guidance of the Naval Audit Service. Due to a change in the
administration of this database, some information pertaining to Museum Collection Items (MCI) from the
National Museum of the Marine Corps was not properly collected, resulting in an erroneous ending balance
for MCI for FY11. This error was identified and corrected during Q2 of FY12 with the following change to
beginning quantities: MCI including fine art increased by 6,341 items and MCI not including fine art decreased by
2,079 items. Efforts to ensure proper collection and reporting of the data are ongoing.

The DON’s stewardship land consists mainly of mission essential land acquired by donation or devise. The DON
held the following acres of land as of September 30, 2012.

                                                   (acres in thousands)

   Facility Code               Facility Title     As of September 30, 2011            Additions                   Deletions           As of September 30, 2012

     9110          Government Owned Land                                5                          -              1                                       4
     9120          Withdrawn Public Land                            2,030                          -              -                                   2,030
     9130          Licensed and Permitted Land                         21                          -              -                                      21
                                                                                                        Grand Total                                   2,055
                                                                                            TOTAL - All Other Lands                                      25
                                                                                         TOTAL - Stewardship Lands                                    2,030

Relationship of Heritage Assets to DON’s Mission
The overall mission of DON is to control and maintain freedom of the seas, project power beyond the sea, and
influence events and advance U.S. interests across the full spectrum of military operations. As this mission has
been executed, DON has become a large-scale owner of historic buildings, structures, districts, archeological sites
and artifacts, ships, aircraft, other cultural resources, and several hundred installations to include stewardship
land. Protection of these components of the nation’s heritage assets and stewardship land is an essential part of
DON’s mission; DON is committed to responsible cultural resources stewardship.




                                                                       Protect the Nation, Project Power, Provide Freedom of the Seas                       61
Note 10.	Liabilities Not Covered by Budgetary Resources
                          As of September 30                                   2012                    2011
                                                  (Amounts in thousands)
1.	Intragovernmental Liabilities
     A.	Other                                                              $          519,939   $             553,572

2.	Nonfederal Liabilities
    A.	Accounts Payable                                                               20,837                  88,870
    B.	 Military Retirement and Other Federal Employment Benefits                  1,670,271               1,654,800
    C.	Environmental Liabilities                                                  21,599,934              21,186,693
    D.	Other Liabilities                                                           4,924,700               4,764,684
3.	Total Nonfederal Liabilities                                            $      28,215,742    $         27,695,047

4.	Total Liabilities Not Covered by Budgetary Resources                    $      28,735,681    $         28,248,619

5.	Total Liabilities Covered by Budgetary Resources                                8,913,483               8,582,533

6.	Total                                                                   $      37,649,164    $         36,831,152

Liabilities Not Covered by Budgetary Resources are liabilities incurred which are not covered by available
budgetary resources. These include liabilities resulting from the receipt of goods or services in the current or prior
periods, or the occurrence of eligible events in the current or prior periods, for which revenues of other sources
of funds necessary to pay the liabilities have not been made available through Congressional appropriations or
earnings of the entity. Notwithstanding an expectation that the appropriations will be made, whether they in fact
will be made is completely at the discretion of the Congress.

Intragovernmental Liabilities - Other consists primarily of unfunded Federal Employees’ Compensation Act
(FECA) liabilities due to the Department of Labor and unemployment compensation that will be funded by
future years’ budgetary resources.

Accounts payable not covered by budgetary resources is related to cancelled year accounts payable that are
not budgeted. Military Retirement and Other Federal Employment Benefits are future actuarial liabilities.
Environmental liabilities are estimates related to future events, such as cleanup of nuclear powered assets that
will be budgeted for when those assets are removed from service. Finally, other liabilities include annual leave,
estimated legal contingent liabilities, and the disposal of excess structures that are not currently budgeted for but
will become funded as future events occur.

Military Retirement and Other Federal Employment Benefits consist of unfunded FECA actuarial liabilities not
due during the current fiscal year. Refer to Note 15, Military Retirement and Other Federal Employment Benefits,
for additional details and disclosures.

Environmental Liabilities consist of liabilities related to active installations, Defense Base Closure and
Realignment Commission sites, equipment and weapons programs, and chemical weapons disposal. Refer to
Note 12, Environmental Liabilities and Disposal Liabilities, for additional details and disclosures.




62                           General Fund
Note 11.	Accounts Payable
                   As of September 30                                                                2012
                                                     (Amounts in thousands)
                                                                                              Interest, Penalties, and
                                                                    Accounts Payable            Administrative Fees                Total
1.	Intragovernmental Payables                                   $           1,587,406     $                        N/A       $          1,587,406
2.	Nonfederal Payables (to the Public)                                        231,951                              117                    232,068
3.	Total                                                        $           1,819,357     $                        117       $          1,819,474

                   As of September 30                                                                2011
                                                     (Amounts in thousands)
                                                                                              Interest, Penalties, and
                                                                    Accounts Payable            Administrative Fees                Total
1.	Intragovernmental Payables                                   $           1,996,758     $                        N/A       $          1,996,758
2.	Nonfederal Payables (to the Public)                                        558,714                               12                    558,726
3.	Total                                                        $           2,555,472     $                         12       $          2,555,484

Accounts Payable includes amounts owed to federal and nonfederal entities for goods and services received by
Department of the Navy (DON) General Fund (GF). The DON GF’s systems do not track intragovernmental
transactions by customer at the transaction level. Buyer-side accounts payable are adjusted to agree with
interagency seller-side accounts receivable. This is accomplished by 1) reclassifying amounts between federal and
nonfederal cost categories, 2) accruing additional accounts payable and expenses, and 3) applying both supported
and unsupported undistributed disbursements at the reporting entity level.


Note 12.	Environmental and Disposal Liabilities
                          As of September 30                                              2012                                   2011
                                                     (Amounts in thousands)
1.	Environmental Liabilities–Nonfederal
    A.	Accrued Environmental Restoration Liabilities
        1.	 Active Installations—Installation Restoration Program (IRP)
            and Building Demolition and Debris Removal (BD/DR)                   $                2,511,374              $           2,582,351
        2.	 Active Installations—Military Munitions Response Program
            (MMRP)                                                                                1,979,961                          1,898,185

    B.	 Other Accrued Environmental Liabilities—Non-BRAC
        1.	 Environmental Corrective Action                                                           65,352                                69,811
        2.	 Environmental Closure Requirements                                                       374,704                               359,376
        3.	 Environmental Response at Operational Ranges                                              14,168                                13,999
        4.	 Asbestos                                                                                 337,428                               348,972
        5.	 Non-Military Equipment                                                                   519,390                               513,504
        6.	 Other                                                                                        810                                   831

    C.	Base Realignment and Closure Installations
       1.	 Installation Restoration Program                                                       1,417,953                          1,413,412
       2.	 Military Munitions Response Program                                                      153,939                            163,564
       3.	 Environmental Corrective Action / Closure Requirements                                    22,879                             24,404

    D.	Environmental Disposal for Military Equipment / Weapons
       Programs
       1.	 Nuclear Powered Military Equipment / Spent Nuclear Fuel                              14,055,948                         13,637,332
       2.	 Other Weapons Systems                                                                   146,028                            160,953

2.	Total                                                                         $              21,599,934               $         21,186,694

The above table excludes estimated total cleanup costs associated with General Property, Plant, and Equipment of
$2.8 billion for Fiscal Year (FY) 2012 and $2.5 billion for FY 2011.

                                                                     Protect the Nation, Project Power, Provide Freedom of the Seas              63
The “Other” type of environmental liabilities under Other Accrued Environmental Costs (Line 1.B.6) represents
an environmental estimate for disposal of Polychlorinated Biphenyls (PCB) transformers located at various
Naval installations.

In addition to the liabilities reported above, the Department of the Navy (DON) has the potential to incur costs
for restoration initiatives in conjunction with returning overseas Defense facilities to host nations. The DON is
unable to provide a reasonable estimate at this time because the extent of restoration required is not known.

Applicable Laws and Regulations for Cleanup Requirements
The following is a list of significant laws that affect DON’s conduct of environmental policy and regulations:

      Superfund Amendments and Reauthorization Act of 1986
      The Resource Conservation and Recovery Act of 1976 as amended by the Hazardous and Solid Waste
        Amendments of 1984
      The Clean Water Act of 1977, amended the Federal Water Pollution Control Act
      The Safe Drinking Water Act of 1974
      The Clean Air Act, as amended in 1990
      The Atomic Energy Act of 1954
      The Nuclear Waste Policy Act of 1982
      The Low Level Radioactive Waste Policy Amendments Act of 1986
      The National Environmental Policy Act of 1969 (only Defense Base Closure and Realignment
        Commission (BRAC)

Methods for Assigning Total Cleanup Costs to Current Operating Periods

Active Installations - Defense Environmental Restoration Program (DERP) Funded: Accrued DERP cleanup liabilities
represent the cost to correct past releases of hazardous constituents to Property, Plant, and Equipment, including
acquired land and Stewardship Land, as described in Chapter 6 of Volume 4 of Department of Defense (DoD)
Financial Management Regulations (FMR).

Environmental cleanup of past releases is funded by DERP and carried out under applicable regulatory laws and
procedural guidance including the DoD’s “Management Guidance for DERP,” and “Environmental and Non-
Environmental Liabilities,” Chapter 13 of Volume 4 of DoD FMR.

Environmental restoration activities may be conducted at operating installations under the Installation
Restoration Program (IRP) and at Closed, Transferred, and Transferring Munitions Ranges under the Military
Munitions Response Program (MMRP). Determining total environmental cleanup cost considers, on a current
cost basis, the anticipated actions required to complete the cleanup, as well as applicable legal and/or regulatory
requirements. Program management and support costs are also included in the estimates. The estimate
produced is based on site-specific information and use of cost models validated in accordance with DoD
Instruction 5000.61, “DoD Modeling and Simulation, Verification, Validation, and Accreditation,” of May 2003.
The cost estimates are developed and maintained in DON’s Normalization of Data System (NORM) database.
Such cost estimates are based on the current technology available.

MMRP liabilities are specific to the identification, investigation, removal, and remedial actions to address
environmental contamination at ranges that were closed prior to September 30, 2002. The contamination
may include munitions, chemical residues from military munitions and munitions scrap at ranges on active
installations that pose a threat to human health or the environment. Cost to Complete (CTC) is not estimated


64                         General Fund
until there is sufficient site-specific data available to estimate the total CTC. However, DON uses the cost of the
study as the estimate until the study is completed.

The Accrued environmental restoration costs do not include the costs of environmental compliance; pollution
prevention, conservation activities, contamination, or spills associated with current operations or treaty
obligations, all of which are accounted for as part of ongoing operations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities associated
with the Nuclear Powered Aircraft Carriers and Submarines, Other Nuclear Powered Ships, Conventional
Ships, and Spent Nuclear Fuel. During FY 2006, under the DON Financial Improvement Program (FIP), DON
completed a review of the estimating methodology for determining the cost for disposal of ships and submarines.
This review resulted in an environmental and non-environmental liability estimate that more accurately reflects
the true costs of disposal. The estimating methodology is based on average cost per class of ship rather than an
average applied to all ships regardless of class.

Description of the Types of Environmental Liabilities and Disposal Liabilities

Accrued Environmental Restoration Liabilities
The DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced must be based on site specific
information and use cost models validated in accordance with DoD Instruction 5000.61.” The DON
environmental cleanup cost estimate was based on 3,919 IRP and 365 MMRP sites at 207 active installations. As
of September 30, 2012, DON estimated and reported $4.5 billion for environmental restoration liabilities. This
amount is comprised of $2.5 billion in Active Installations-IRP liabilities and $2.0 billion in Active Installations-
MMRP liabilities.

Other Accrued Environmental Liabilities – Non-BRAC
The DON defines Non-BRAC environmental units as those sites associated with on-going operations such as
solid waste management unit cleanup, landfill closure, permitted facilities, removal, replacement, retro fill, and/or
disposal of PCB transformers, underground storage tank remedial investigation and closure. As part of the DON
FIP efforts, the DON completed surveying, identifying, and estimating, Non-BRAC units and began recognizing
the estimated environmental liability in 1st Quarter, FY 2007. At September 30, 2012 the total Other Accrued
Environmental Liabilities is $1.3 billion. Of the total, the Navy portion is $1.1 billion while the Marine Corps
portion is $0.3 billion.

Base Realignment and Closure Installations
BRAC environmental sites are environmental sites at DON installations that are or will be closed under the
congressionally mandated BRAC process. As of September 30, 2012, DON has estimated and reported $1.6 billion
for BRAC funded environmental liabilities. This amount includes $1.4 billion for IRP, $0.2 billion for MMRP, and
$0.02 billion for environmental corrective action and closure requirements. MMRP includes military munitions,
chemical residues from military munitions, and munitions scrap at locations on a BRAC installation.

Environmental Disposal for Military Equipment / Weapons Programs
Environmental Disposal for Weapons Systems are those estimates associated with the environmental disposal
costs for DON Nuclear Weapons Programs that include Nuclear Powered Aircraft Carriers and Submarines and
Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The DON reported an environmental
disposal liability for Weapons Systems Programs of $14.2 billion in FY2012. This amount includes Nuclear
Powered Military Equipment of $11.2 billion, Spent Nuclear Fuel (Other) of $2.8 billion, and Other Weapons
Systems of $0.2 billion.




                                                               Protect the Nation, Project Power, Provide Freedom of the Seas   65
Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation,
Deflation, Technology, or Applicable Laws and Regulations
Estimated environmental liabilities are adjusted for price growth (inflation) and increases in labor rates and
materials. Currently, there are no indications that any of the environmental liabilities for any category will be
adjusted due to deflation. As of September 30, 2012, there are no changes to the environmental liability estimates
due to changes in laws, regulations, and agreements with regulatory agencies. The DON does not have any
estimates that were changed due to advances in technology.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the Reported
Environmental Liabilities
The environmental liabilities for DON are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The
actual results may materially vary from the accounting estimates if agreements with regulatory agencies require
remediation to a different degree than when calculating the estimates. Liabilities can be further affected if
investigation of the environmental sites reveals contamination levels that differ from the estimate parameters.

Overall, DON has a reasonable level of confidence in the estimates recognized on the financial statements. This
reasonable level of confidence in the estimates is because the estimates for DERP/BRAC programs are based on
the CTC module of the NORM System. A verification, validation, and accreditation were completed by a third
party for CTC module of NORM, while the environmental program managers continue to validate the data.

For the Weapons systems, the environmental program managers base their environmental disposal estimates on
actual costs for similar projects. The methodology used reflects the most accurate estimate of what it will cost to
dispose of weapons systems. Given the fact that the planned date for opening the Department of Energy’s (DOE)
planned waste repository has been delayed, there is uncertainty associated with the estimate for spent nuclear
fuel. As DOE’s plans are solidified, DON’s estimates for spent nuclear fuel will change accordingly.

The DON believes that the total current environmental liabilities for BRAC are reasonable based on information
available at the time in calculating the estimates. However, as the FY 2005 BRAC closure activities are
implemented over the next several fiscal years, the actual results may vary materially from the required
reportable estimates. The variance will depend on additional information obtained from planned or ongoing
studies of the extent and concentration of site environmental contamination and based on property disposal
requirements to meet community needs. In addition to the possibility of the estimates changing on current
identified sites, DON may incur additional environmental cleanup and restoration costs if new sites are identified
as BRAC activities are implemented.

The DON believes that the current environmental liabilities for Other Accrued Environmental Liabilities (Non-
DERP) as of September 30, 2012 are reasonable, based upon the information available at the time in calculating
the estimates and completing the fence to fence survey. However, as internal controls are implemented to sustain
this effort, changes to some of the estimates could occur. In addition to the possibility of some of the estimates
changing for the current list of identified units, DON may incur additional units and changes to estimates as the
inventory of units are reviewed annually. The BRAC Program Management Office has been notified that a status
change was made in the Other Environmental Liabilities (OEL) database. BRAC is developing eligibility criteria
for the reporting of these OEL units.




66                         General Fund
Note 13.	Other Liabilities
                     As of September 30                                                           2012
                                                   (Amounts in thousands)
                                                                 Current Liability          Noncurrent Liability           Total
1.	Intragovernmental
     A.	 Advances from Others                                $              212,571     $                      -       $        212,571
     B.	 Deposit Funds and Suspense Account Liability                             -                            -                      -
     C.	Disbursing Officer Cash                                              95,170                            -                 95,170
     D.	 Judgment Fund Liabilities                                            6,533                            -                  6,533
     E.	 FECA Reimbursement to the Dept. of Labor                           162,613                      204,193                366,806
     F.	 Custodial Liabilities                                            3,526,910                            -              3,526,910
     G.	Employer Contribution and Payroll Taxes Payable                      30,938                            -                 30,938
     H.	 Other Liabilities                                                  147,232                            -                147,232

2.	Total Intragovernmental Other Liabilities                 $            4,181,967     $                204,193       $      4,386,160

3.	Nonfederal
    A.	 Accrued Funded Payroll and Benefits                  $               980,016    $                          -   $           980,016
    B.	 Advances from Others                                                 493,118                               -               493,118
    C.	Deposit Funds and Suspense Accounts                                   262,812                               -               262,812
    D.	 Nonenvironmental Disposal Liabilities
        (1)	Military Equipment (Nonnuclear)                                 151,304                       26,488                177,792
        (2)	Excess/Obsolete Structures                                       66,094                      525,598                591,692
    E.	 Accrued Unfunded Annual Leave                                     2,940,264                            -              2,940,264
    F.	 Contract Holdbacks                                                   73,563                                              73,563
    G.	Employer Contribution and Payroll Taxes Payable                       21,557                                              21,557
    H.	 Contingent Liabilities                                               15,364                    2,610,012              2,625,376
    I.	 Other Liabilities                                                     6,646                            -                  6,646

4.	Total Nonfederal Other Liabilities                        $            5,010,738     $              3,162,098       $      8,172,836

5.	Total                                                     $            9,192,705     $              3,366,291       $    12,558,996

                     As of September 30                                                           2011
                                                   (Amounts in thousands)
                                                                 Current Liability          Noncurrent Liability           Total
1.	Intragovernmental
     A.	 Advances from Others                                $              286,402     $                      -       $        286,402
     B.	 Deposit Funds and Suspense Account Liability                       386,464                            -                386,464
     C.	Disbursing Officer Cash                                             107,433                            -                107,433
     D.	 Judgment Fund Liabilities                                            6,605                            -                  6,605
     E.	 FECA Reimbursement to the Dept. of Labor                           164,436                      217,859                382,295
     F.	 Custodial Liabilities                                            3,501,764                            -              3,501,764
     G.	Employer Contribution and Payroll Taxes Payable                      30,004                            -                 30,004
     H.	 Other Liabilities                                                  168,220                            -                168,220

2.	Total Intragovernmental Other Liabilities                 $            4,651,328     $                217,859       $      4,869,187

3.	Nonfederal
    A.	 Accrued Funded Payroll and Benefits                  $               398,789    $                          -   $           398,789
    B.	 Advances from Others                                                 550,805                               -               550,805
    C.	Deposit Funds and Suspense Accounts                                   (25,423)                              -               (25,423)
    D.	 Nonenvironmental Disposal Liabilities
        (1)	Military Equipment (Nonnuclear)                                  12,844                      207,551                220,395
        (2)	Excess/Obsolete Structures                                        3,218                      535,369                538,587
    E.	 Accrued Unfunded Annual Leave                                     2,896,018                            -              2,896,018
    F.	 Contract Holdbacks                                                   71,252                            -                 71,252
    G.	Employer Contribution and Payroll Taxes Payable                       19,677                            -                 19,677
    H.	 Contingent Liabilities                                               13,395                    1,871,643              1,885,038
    I.	 Other Liabilities                                                     9,630                            -                  9,630

4.	Total Nonfederal Other Liabilities                        $            3,950,205     $              2,614,563       $      6,564,768

5.	Total                                                     $            8,601,533     $              2,832,422       $    11,433,955


                                                                 Protect the Nation, Project Power, Provide Freedom of the Seas          67
Intragovernmental Other Liabilities (Line 1.H) consists primarily of Unemployment Compensation
unfunded liabilities.

Contingent Liabilities includes $1.4 billion related to contracts authorizing progress payments based on cost as
defined in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the
contractors’ work vests with the Federal Government when a specific type of contract financing payment is made.
This action protects taxpayer funds in the event of contract nonperformance. It is Department of Defense policy
that these rights should not be misconstrued as rights of ownership. The Department of the Navy (DON) General
Fund (GF) is under no obligation to pay contractors for amounts greater than the amounts of progress payments
authorized in contracts until delivery and government acceptance. Due to the probability the contractors will
complete their efforts and deliver satisfactory products, and because the amount of contractor costs incurred but
not yet paid are estimable, the DON GF has recognized a contingent liability for the estimated unpaid costs that
are considered conditional for payment pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated
costs incurred to date by contractors and amounts authorized to be paid under progress payments based on
cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative
unliquidated progress payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total contractor-incurred costs to
determine the contingency amount.


Note 14.	 Commitments and Contingencies
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests, which may ultimately
result in settlements or decisions adverse to the Federal Government. These proceedings and actions arise in
the normal course of operations and their ultimate disposition is unknown. The DON has accrued contingent
liabilities for legal actions where the Office of General Counsel (OGC) considers an adverse decision probable
and the amount of the loss is measurable. In the event of an adverse judgment against the Government, some of
the liabilities may be payable from the U.S. Treasury Judgment Fund. The DON records contingent liabilities in
Note 13, Other Liabilities.

For FY 2012, DON General Fund (GF) materiality threshold for reporting litigation, claims, or assessments is
$51.5 million. The DON OGC conducts a review of litigation and claims threatened or asserted involving DON
GF to which the OGC attorneys devoted substantial attention in the form of legal consultation or representation.

The DON currently has 12 cases that meet the existing FY 2012 DON GF materiality threshold. DON legal
counsel was unable to express an opinion concerning the likely outcome on 9 of 12 cases.

Due to the inherent uncertainties of litigation, lawyers generally refrain from expressing judgments as to
outcomes except in those relatively few clear cases. In response to a Department of Defense (DoD) Inspector
General Audit, “DoD Process for Reporting Contingent Legal Liabilities,” DON developed a methodology to
determine an estimate for contingent legal liabilities. Using this methodology, DON recognized and disclosed
an estimate for contingent legal liabilities. The methodology considers the likelihood of an unfavorable outcome
or potential liability and provides an overall assessment of all cases currently pending and not on an individual
case basis. The likelihood of an unfavorable or potential liability was determined by using an average of the
data from the current year-to-date and the preceding two years. The total dollar amount of the cases closed was
divided by the total dollar amount claimed in those closed cases for each of the last two years plus current year,
which were then used to calculate the average. This average is based entirely on historical data and represents
the percentage that has historically been paid on claims. The merits of each individual case have not been taken
into consideration. The estimate for those cases considered reasonably possible to result in an adverse judgment

68                         General Fund
against DON is $246.7 million. Until sufficient historical data can be collected for the Navy Working Capital
Fund, the DON GF estimate will consider all DON funding sources together.

The DON is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of expenditures. Currently, DON has limited
automated system processes by which it captures or assesses these potential liabilities; therefore, the amounts
reported may not fairly present DON’s contingent liabilities.


Note 15.	 Military Retirement and Other Federal Employment Benefits
               As of September 30                                                               2012
                                                (Amounts in thousands)
                                                                             Assumed Interest    (Less: Assets Available to
                                                       Liabilities               Rate (%)               Pay Benefits)             Unfunded Liabilities
1.	Other Actuarial Benefits
    A.	FECA                                       $       1,670,271                              $                     -      $           1,670,271
    B.	 Other                                                   489                                                 (489)                         -
2.	Total                                          $       1,670,760                              $                  (489)     $           1,670,271

               As of September 30                                                               2011
                                                (Amounts in thousands)
                                                                             Assumed Interest    (Less: Assets Available to
                                                       Liabilities               Rate (%)               Pay Benefits)             Unfunded Liabilities
1.	Other Actuarial Benefits
    A.	FECA                                       $       1,654,801                              $                     -      $           1,654,801
    B.	 Other                                                   218                                                 (218)                         -
2.	Total                                          $       1,655,019                              $                  (218)     $           1,654,801

The Department of the Navy (DON) reports an actuarial liability for the Federal Employee’s Compensation
Act (FECA). FECA provides federal employees injured in the performance of duty with workers’ compensation
benefits, which include wage-loss benefits for total or partial disability, medical benefits, and vocational
rehabilitation. FECA also provides survivor benefits to eligible dependents if the injury causes the employee’s
death. The FECA is administered by the Office of Workers’ Compensation Programs.

Actuarial Cost Method Used and Assumptions:
The DON’s actuarial liability for workers’ compensation benefits is developed by the Department of Labor and
provided to DON only at the end of each fiscal year.

The estimate for future workers’ compensation benefits includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but not
reported claims. The liability is determined using a method that utilizes historical benefit payment patterns
related to a specific incurred period to predict the ultimate payments related to that period. Consistent with
past practice, these projected annual benefit payments have been discounted to present value using the Office
of Management and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds. Interest rate
assumptions utilized for discounting were as follows:

	Discount Rates
	   2.293% in Year 1
	   3.138% in Year 2 and thereafter

To provide more specificity for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for the charge back year (CBY) 2012 were also used to adjust the methodology’s historical payments to current

                                                                     Protect the Nation, Project Power, Provide Freedom of the Seas                      69
year constant dollars. The compensation COLAs and CPIMs used in the projections for various CBY were
as follows:

	          CBY	     COLA	CPIM
	          2012 	   N/A 	 N/A
	          2013 	   2.83% 	 3.65%
	          2014 	   2.03% 	 3.66%
	          2015 	   1.93% 	 3.72%
	          2016 	   2.00% 	 3.73%
	          2017 	   2.03% 	 3.80%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was
based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the
percentage change in the liability amount to the percentage change in the actual incremental payments, (3) a
comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2012 to the average
pattern observed during the most current three charge back years, and (4) a comparison thereafter of the
estimated liability per case in the 2012 projection to the average pattern for the projections of the most recent
three years.

Note 16.	Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
                           As of September 30                                  2012                    2011
                                                (Amounts in thousands)
1.	Intragovernmental Cost                                                $        50,908,881    $          50,201,170
2.	Nonfederal Cost                                                               129,385,410              131,198,281
3.	Total Cost                                                            $       180,294,291    $         181,399,451

4.	Intragovernmental Revenue                                             $        (3,312,422)   $          (3,546,706)
5.	Nonfederal Revenue                                                             (7,287,485)              (8,916,321)
6.	Total Revenue                                                         $       (10,599,907)   $         (12,463,027)

7.	Total                                                                 $       169,694,384    $         168,936,424

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government supported by appropriations or other means. The intent of the SNC is to provide gross and net cost
information related to the amount of output or outcome for a given program or organization administered by a
responsible reporting entity. The Department of Defense’s (DoD) current processes and systems do not capture
and report accumulated costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The DoD is in the process of reviewing available data and developing
a cost reporting methodology as required by the Statement of Federal Financial Accounting Standards (SFFAS)
No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government, as amended by SFFAS
No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue represent transactions made between two reporting entities within the
Federal Government. Public costs and revenues are exchange transactions made between the reporting entity
and a nonfederal entity.

The DON’s financial management systems are unable to meet all of the requirements for full accrual accounting.
Many of DON’s financial and nonfinancial feeder systems and processes were designed and implemented prior
to the issuance of U.S. Generally Accepted Accounting Principles (USGAAP) for federal agencies. Most of DON’s
legacy systems were designed to record information on a budgetary basis, and do not track intragovernmental
transactions by customer at the transaction level. Considering these systems limitations, DON GF is unable

70                            General Fund
to accurately compare its intragovernmental costs and revenues with the corresponding balances of its
intragovernmental trading partners. Buyer-side accounts payable and expenses were adjusted to match seller-
side accounts receivable and revenues. This is accomplished by reclassifying amounts between federal and
public cost categories, and accruing additional costs when necessary. Intradepartmental revenues and expenses
are then eliminated.

In conjunction with the DoD, DON has undertaken efforts to determine the actions required to bring its financial
and nonfinancial feeder systems and processes into compliance with all elements of USGAAP. One such action
is the revision of its accounting systems to record transactions based on the U.S. Standard General Ledger. Until
such time as all of the DON’s financial and nonfinancial feeder systems and processes are updated to collect
and report financial information as required by USGAAP, DON GF’s financial data will be largely based on
budgetary transactions (obligations, disbursements, and collections), transactions from nonfinancial feeder
systems, and adjustments for known accruals of major items such as payroll expenses, accounts payable, and
environmental liabilities.

The DON’s accounting systems generally do not capture information relative to Heritage Assets separately and
distinctly from normal operations.


Note 17.	Disclosures Related to the Statement of Changes in Net Position
Unexpended Appropriations represent the amount of spending authorized as of year-end that is unliquidated or
unobligated and has not lapsed, been rescinded, or withdrawn.

Cumulative Results of Operations represents the net results of operations since inception. Included as a reduction
in Cumulative Results of Operations are accruals for which related expenses require funding from future
appropriations. These future funding requirements include, among others (a) accrued annual leave earned but
not taken, (b) expenses for contingent liabilities, and (c) expenses for environmental liabilities.

Appropriations Received on the Statement of Changes in Net Position (SCNP) does not agree with
Appropriations Received on the Statement of Budgetary Resources (SBR) due to differences between proprietary
and budgetary accounting concepts and reporting requirements. The difference of $26.1 million is due to certain
cash receipts recorded as “Appropriations Received” on the SBR but recognized as exchange or non-exchange
revenue (usually in special and trust fund accounts) and reported on the SCNP in accordance with SFFAS
No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
Financial Accounting.

In the SCNP, all offsetting balances (i.e. transfers-in, transfers-out, revenue and expenses) for general fund
activity between earmarked and other (non-earmarked) funds are reported on the same lines. Therefore, the
Eliminations column contains all appropriate elimination entries, which net to zero within each respective line,
except for intra-entity imputed financing costs.

Other Financing Sources - Other consists primarily of gains and losses associated with Military Equipment,
Operating Materiel & Supplies, and Real Property.

The abnormal balances in Appropriations Used included within the Budgetary Financing Sources section are
a result of the closing of the Rossmoor Liquidating Trust Settlement Account. Current Treasury posting rules
require this account closing event to be treated as a return of unexpended appropriations even though these
accounts are not required to treat the funds as “Unexpended Appropriations.” This Treasury posting logic is
being corrected in FY 2013 when Treasury includes a new U.S. Standard General Ledger account to allow a
closing event such as this to be treated as a cancellation of “Revenue and Other Financing Sources” instead of as a


                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   71
cancellation of “Unexpended Appropriations.” These abnormal balances will be self correcting in the post closing
process for FY12, and will therefore no longer be abnormal beginning in FY13.


Note 18.	Disclosures Related to the Statement of Budgetary Resources
                     As of September 30                                  2012                      2011
                                                (Amounts in thousands)
1.	Net Amount of Budgetary Resources Obligated for
  Undelivered Orders at the End of the Period                   $           154,814,226   $            148,297,754


Apportionment Categories for Obligations Incurred
On the Statement of Budgetary Resources (SBR): Obligations Incurred includes $185 billion of Direct Program
Obligations and $9.1 billion of Reimbursable Program Obligations.

On the Report on Budget Execution (SF-133):
    Direct Obligations, Category A, amounts apportioned quarterly, are $108.0 billion.
      Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are $77.0 billion.
      Total Direct Obligations are therefore $185 billion
      Category A Reimbursable Obligations are $0.
      Category B Reimbursable Obligations are $9.1 billion.
      Total Reimbursable Obligations are therefore $9.1 billion.


Other Disclosures
The SBR includes intra-entity transactions because the statements are presented as combined.

Appropriations Received on the Statement of Changes in Net Position does not agree with Appropriations
Received on the SBR due to differences between proprietary and budgetary accounting concepts and reporting
requirements. The difference of $26.1 million is due to Trust Funds and Special Receipt Accounts included in the
Appropriations Received line of the SBR.

Legal limitations and restrictions affect the use of the unobligated balance of budget authority based upon
program and fiscal year in the applicable appropriation language or in the alternative provisions section at the
end of the appropriations act.

Permanent, Indefinite Appropriations
The National Defense Sealift Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which provides
for the construction (including design of vessels), purchase, alteration, and conversion of Department of Defense
(DoD) sealift vessels; operation, maintenance, and lease or charter of DoD vessels for national defense purposes;
installation and maintenance of defense features for national defense purposes on privately owned and operated
vessels that are constructed in the United States and documented under the laws of the U.S.; research and
development relating to national defense sealift; and expenses for maintaining the National Defense Reserve
Fleet, including the acquisition, alteration or conversion of vessels. There was one transfer for $4.6 million
into NDSF from Operation and Maintenance Defense health program as of September 30, 2012. There were no
transfers out of NDSF during this period.

The Environmental Restoration, Navy (ER, N) appropriation is a transfer account that funds environmental
restoration, reduction, and recycling of hazardous waste, removal of unsafe buildings and debris, and similar
purposes. Funds remain available until transferred and remain available for the same purpose and same time
period as the appropriations to which transferred. There were two transfers from ER, N for $0.3 billion to the
Operation and Maintenance, Navy appropriation. There were no transfers into ER, N during this period.


72                         General Fund
Note 19.	Reconciliation of Net Cost of Operations to Budget
                         As of September 30                                           2012                           2011
                                                  (Amounts in thousands)
Resources Used to Finance Activities:
    Budgetary Resources Obligated:
       1.	 Obligations Incurred                                             $            194,177,904       $            198,389,702
       2.	 Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                    (21,354,258)                   (21,756,944)
       3.	 Obligations Net of Offsetting Collections and Recoveries                      172,823,646                    176,632,758
       4.	 Less: Offsetting Receipts                                                        (226,131)                        36,444
       5.	 Net Obligations                                                               172,597,515                    176,669,202
    Other Resources:
       6.	 Donations and Forfeitures of Property                                               1,742                            652
       7.	 Transfers In/Out without Reimbursement                                           (138,094)                       225,126
       8.	 Imputed Financing from Costs Absorbed by Others                                   816,514                        881,374
       9.	 Other                                                                           4,114,238                     12,764,061
       10.	Net Other Resources Used to Finance Activities                                  4,794,400                     13,871,213
11.	Total Resources Used to Finance Activities                              $            177,391,915       $            190,540,415
Resources Used to Finance Items Not Part of the Net Cost of
  Operations:
       12.	Change in Budgetary Resources Obligated for Goods,
           Services, and Benefits Ordered But Not Yet Provided:
              12a.	 Undelivered Orders                                      $              (6,516,469)     $             (10,316,024)
              12b.	 Unfilled Customer Orders                                                  340,369                       (622,769)
       13.	Resources That Fund Expenses Recognized in Prior Periods                          (158,378)                      (182,244)
       14.	Budgetary Offsetting Collections and Receipts That Do Not
           Affect Net Cost of Operations                                                     226,131                         (36,444)
       15.	Resources That Finance the Acquisition of Assets                              (15,764,666)                    (16,206,440)
       16.	Other Resources or Adjustments to Net Obligated Resources
           That Do Not Affect Net Cost of Operations:
              16a.	 Other                                                                  (3,977,906)                   (12,989,838)
17.	Total Resources Used to Finance Items Not Part of the Net Cost of
    Operations                                                              $            (25,850,919)      $            (40,353,759)
18.	Total Resources Used to Finance the Net Cost of Operations              $            151,540,996       $            150,186,656

Components of the Net Cost of Operations That Will Not Require or
  Generate Resources in the Current Period:
    Components Requiring or Generating Resources in Future Period:
        19.	Increase in Annual Leave Liability                              $                   7,230      $                  30,795
        20.	Increase in Environmental and Disposal Liability                                  434,868                      1,891,194
        21.	Increase in Exchange Revenue Receivable from the Public                           139,587                         27,231
        22.	Other                                                                             203,339                        283,146
        23.	Total Components of Net Cost of Operations That Will
            Require or Generate Resources in Future Periods                                   785,024                      2,232,366
    Components Not Requiring or Generating Resources:
        24.	Depreciation and Amortization                                                 19,679,709                      19,729,331
        25.	Revaluation of Assets or Liabilities                                          (4,152,446)                     (6,173,204)
        26.	Other
               26a.	 Operating Material and Supplies Used                                   4,125,346                      5,527,002
               26b.	 Other                                                                 (2,284,245)                    (2,565,727)
        27.	Total Components of Net Cost of Operations That Will Not
            Require or Generate Resources                                                 17,368,364                      16,517,402
29.	 Total Components of Net Cost of Operations That Will Not Require
     or Generate Resources in the Current Period                            $             18,153,388       $             18,749,768
30.	Net Cost of Operations                                                  $            169,694,384       $            168,936,424




                                                                 Protect the Nation, Project Power, Provide Freedom of the Seas    73
The Reconciliation of Net Cost of Operations to Budget is designed to provide information about the total
resources used by an entity, to explain how those resources were used to finance orders for goods and services
not yet delivered, to acquire assets and liabilities, and to fund the entity’s net cost of operations. It is designed
to report the differences and facilitate the reconciliation of accrual-based amounts used in the Statement of Net
Cost (SNC) and obligation-based amounts used in the Statement of Budgetary Resources. The computations and
presentation of items in the Reconciliation of Net Cost of Operations to Budget demonstrate that the budgetary
and proprietary information in an entity’s financial management system agrees.

Due to the Department of the Navy (DON) financial system limitations, budgetary data does not agree with
proprietary expenses and capitalized assets. Differences between budgetary and proprietary data are previously
identified deficiencies. This causes a difference in net cost between the SNC and the Reconciliation of Net Cost
of Operations to Budget that requires an adjustment to the Reconciliation of Net Cost of Operations to Budget.
As of September 30, 2012, an adjustment of ($0.7 billion) was made to Resources that Finance the Acquisition of
Assets so that proprietary accounts reconcile with the budgetary accounts.

The Reconciliation of Net Cost of Operations to Budget is presented as a consolidated statement. However, the
following lines are presented as combined instead of consolidated due to interagency budgetary transactions not
being eliminated:

      Obligations Incurred
      Less: Spending Authority from Offsetting Collections and Recoveries
      Obligations Net of Offsetting Collections and Recoveries
      Less: Offsetting Receipts
      Net Obligations
      Undelivered Orders
      Unfilled Customer Orders

Description of Other Lines
Resources Used to Finance Activities - Budgetary Resources Obligated contains a balance of $4.1 billion. This balance
represents the data call net gains and losses recorded in relation to the capitalization of assets such as Real
Property, Operating Materials and Supplies, and Military Equipment.

Resources Used to Finance Items not Part of the Net Cost of Operations contains a balance of ($4.0) billion. This
balance reflects net gains and losses recorded in relation to the net change of the value of assets such as Military
Construction, Ammunition, Real Property, and Shipbuilding and Conversion.

Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period contains
an other balance of $0.2 billion in relation to Components Requiring or Generating Resources in Future Period.
This amount consists mainly of non-environmental liabilities, contract incentives, and contingent legal liabilities.
Components Not Requiring or Generating Resources contains an other balance of ($2.3) billion which is primarily
comprised of a crosswalk change for CIP reporting.




74                          General Fund
Note 20.	Earmarked Funds
                                                   BALANCE SHEET
                   As of September 30                                                          2012
                                                 (Amounts in thousands)
                                                               Other Earmarked Funds         Eliminations                 Total

ASSETS
Fund Balance with Treasury                                 $                 22,722                          -                     22,722
Investments                                                                   7,968                          -                      7,968
Total Assets                                               $                 30,690                          -                     30,690

LIABILITIES and NET POSITION
Other Liabilities                                          $                   1,158                         -                      1,158
Total Liabilities                                          $                   1,158                         -                      1,158

Cumulative Results of Operations                           $                 29,532                          -                     29,532
Total Liabilities & Net Position                           $                 30,690                          -                     30,690

                                               STATEMENT OF NET COST
           For the period ended September 30                                                   2012
Program Costs                                              $                 19,924                          -                     19,924
Net Cost of Operations                                     $                 19,924                          -                     19,924

                                        STATEMENT OF CHANGES IN NET POSITION
           For the period ended September 30                                                   2012
Net Position Beginning of the Period                       $                 25,545                          -                     25,545

Net Cost of Operations                                                       19,924                          -                     19,924
Budgetary Financing Sources                                                  23,911                          -                     23,911
Change in Net Position                                     $                  3,987                          -                      3,987

Net Position End of Period                                 $                 29,532                          -                     29,532




                                                                  Protect the Nation, Project Power, Provide Freedom of the Seas       75
                                                       BALANCE SHEET
                   As of September 30                                                        2011
                                                     (Amounts in thousands)
                                                                   Other Earmarked Funds   Eliminations       Total
ASSETS
Fund Balance with Treasury                                     $                 21,541                   -           21,541
Investments                                                                       9,289                   -            9,289
Total Assets                                                   $                 30,830                   -           30,830

LIABILITIES and NET POSITION
Other Liabilities                                              $                   5,285                  -            5,285
Total Liabilities                                              $                   5,285                  -            5,285

Cumulative Results of Operations                               $                 25,545                   -           25,545
Total Liabilities & Net Position                               $                 30,830                   -           30,830

                                                   STATEMENT OF NET COST
           For the period ended September 30                                                 2011

Program Costs                                                  $                 26,678                   -           26,678
Net Cost of Operations                                         $                 26,678                   -           26,678

                                            STATEMENT OF CHANGES IN NET POSITION
           For the period ended September 30                                                 2011
Net Position Beginning of the Period                           $                 33,682                   -           33,682

Net Cost of Operations                                                           26,678                   -           26,678
Budgetary Financing Sources                                                      18,541                   -           18,541
Change in Net Position                                         $                 (8,137)                  -           (8,137)

Net Position End of Period                                     $                 25,545                   -           25,545



Earmarked funds are financed by specifically identified revenues and are required by statute to be used for
designated activities or purposes. The Department of the Navy (DON) currently has six earmarked funds,
a decrease of one from FY11 due to the cancellation of the Rossmoor Liquidating Trust Settlement. Upon
cancellation, the remaining unobligated balance in the account was transferred to the General Fund of the
U.S. Treasury, and this account will not receive additional funds or incur additional obligations.

For the remaining six earmarked funds (three Special Funds and three Trust Funds), a brief description follows
below. There have been no changes in legislation during or subsequent to the reporting period that significantly
changes the purpose or that redirects a material portion of the accumulated balances of any of these six funds.
Generally, revenues for DON’s earmarked funds are inflows of resources to the Government.

Special Earmarked Funds

Wildlife Conservation, Military Reservations, Navy
This fund, authorized by 16 United States Code 670b, provides for the development and conservation of fish
and wildlife and recreational facilities on military installations. Proceeds from the sale of fishing and hunting
permits are used for these programs at DON installations charging such user fees. These programs are carried
out through cooperative plans agreed upon by the local representatives of the Secretary of Defense, the Secretary
of the Interior, and the appropriate agency of the State in which the installation is located.



76                           General Fund
Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy
This fund, authorized by Public Law 103-139, 107 Statute 1418, was established to recognize and fulfill the
commitments made on behalf of the United States to the people of Hawaii and to return to the State of Hawaii
the Island of Kaho’olawe. Congress has found it to be in the national interest and an essential element in the
Federal Government’s relationship with the State of Hawaii the conveyance, clearance, or removal of unexploded
ordnance, environmental restoration, control of access to the Island and future use of the Island be undertaken in
a manner consistent with the enhancement of that relationship, the Department of Defense’s military mission, the
federal interest, and applicable provisions of law. This fund is financed by congressional appropriations.

Ford Island Improvement Account
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to carry
out improvements to property and facilities that will deliver overall benefits to DON at the Pearl Harbor Naval
Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor National Historic Landmark.
The Ford Island legislation allows DON to sell or lease properties in Hawaii and use the proceeds to develop
Ford Island.

Trust Earmarked Funds

DON General Gift Fund
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the Secretary
of the Navy (SECNAV) may accept, hold, administer, and spend any gift, devise, or bequest of real or personal
property, made on the condition that it be used for the benefit, or in connection with the establishment, operation,
or maintenance of a school, hospital, library, museum, cemetery, or other institution under the jurisdiction
of DON.

Ships Stores Profit, Navy
This trust fund is authorized by 10 United States Code 7220. Deposits to this fund are derived from profits
realized through the operation of ships’ stores and from gifts accepted for providing recreation, amusement, and
contentment for enlisted members of the Navy and Marine Corps.

U.S. Naval Academy General Gift Fund
This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, SECNAV may
accept, hold, administer, and spend any gift, devise, or bequest of personal property, made on the condition
that it be used for the benefit of, or in connection with, the United States Naval Academy, or the Naval Academy
Museum, its collections, or its services.


Note 21.	 Fiduciary Activities
Schedule of Fiduciary Activities
                For the period ended September 30                                      2012                            2011
                                                    (Amounts in thousands)
   1.	 Fiduciary Net Assets, Beginning of Year                               $                   32,769     $                   28,384
   2.	 Contributions                                                                             46,803                         47,803
   3.	 Investment Earnings                                                                        2,560                          2,905
   4.	 Distributions to and on Behalf of Beneficiaries                                          (51,320)                       (46,323)
   5.	 Increase/(Decrease) in Fiduciary Net Assets                           $                   (1,957)    $                    4,385
   6.	 Fiduciary Net Assets, End of Period                                   $                   30,812     $                   32,769

Fiduciary Net Assets
                For the period ended September 30                                      2012                            2011
                                                    (Amounts in thousands)
   1.	 Cash and Cash Equivalents                                             $                   30,812     $                      32,769


                                                                  Protect the Nation, Project Power, Provide Freedom of the Seas       77
The Department of the Navy’s Fiduciary Activity consists of funds in the Savings Deposit Program. Under 10,
USC, §1035, and Department of Defense Financial Management Regulation (FMR), Volume 7A, Chapter 51,
service members of both the Navy and Marine Corps who are on a permanent duty assignment outside the
United States or its possessions can earn interest at a rate prescribed by the president, not to exceed 10 percent a
year, on up to $10 thousand deposited into the program. This limitation shall not apply to deposits made on or
after September 1, 1966 in the case of those members in a missing status during the Vietnam conflict, the Persian
Gulf conflict, or a contingency operation. A permanent duty assignment is defined as any active duty assignment
that contemplates duty in the designated area as a permanent change of station, or more than 30 days on
temporary additional duty, temporary duty, or with a deployed ship or unit. As stated in the FMR, this definition
of a permanent duty assignment applies specifically to this program, effective as of July 1, 1991. Interest accrual
shall terminate 90 days after the member’s return to the U.S. or its possessions. The deposit funds included in the
balance are 17X6025 for Navy and 17X6026 for Marine Corps.


Note 22.	Operating Lease Disclosure
            As of September 30                                                        2012
                                                 (Amounts in thousands)
                                                 Land and Buildings       Equipment           Other            Total
1. Entity as Lessee - Operating Leases
    Future Payments Due
        Fiscal Year
            2013                             $             147,865    $           1,600   $            7   $      149,472
            2014                                           150,566                1,712                8          152,286
            2015                                           153,317                1,848                8          155,173
            2016                                           156,120                1,978                9          158,107
            2017                                           158,974                2,123                9          161,106
            After 5 Years                                  162,139                2,272               10          164,421

Total                                        $             928,981    $          11,533   $           51   $      940,565




78                          General Fund
General Fund Required Supplementary
Stewardship Information
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   79
      General Fund Required Supplementary Stewardship Information
                                    Investments in Research and Development
                                   Yearly Investment in Research and Development
                                             For Fiscal Years 2008 through 2012
                                                      ($ in millions)
Categories                                        FY12              FY11              FY10             FY09             FY08
Basic Research                                $          554    $          547    $          552   $          523   $          452
Applied Research                                         738               728               752              854              748
Development
    Advanced Technology Development                      761               821               859              883              752
    Advanced Component Development
       and Prototypes                                 3,950              4,080          3,910            3,464            3,329
    System Development and Demonstration              5,382              6,429          7,325            8,288            8,141
    Research, Development, Test, and
       Evaluation Management Support                  1,298              1,285          1,293            1,245            1,112
    Operational Systems Development                   4,137              4,285          4,505            4,249            3,943
Totals                                        $      16,820     $       18,175    $    19,196      $    19,506      $    18,477

Investments in Research and Development
Investment values are based on Research and Development outlays (expenditures). Outlays are used because
current Department of the Navy (DON) systems are unable to fully capture and summarize costs in accordance
with standards promulgated by the Federal Accounting Standards Advisory Board.

Research and Development (R&D) programs are classified as Basic Research, Applied Research, and
Development. The definition of each R&D category and subcategory is explained below.

A.	 Basic Research
Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic Research
involves the gathering of a fuller knowledge or understanding of the subject under study. Major outputs are
scientific studies and research papers.

The following are two representative program examples for the Basic Research category.

Marine Meteorology and Space:
Navy requires the capability to predict the weather at time and space scales that support global operations,
planning, and tactical operations. The Office of Naval Research’s (ONR) Marine Meteorology (MM) and Space
Program supports basic and applied research to understand, analyze, and predict the chaotic and nonlinear
surface to space environment on all scales, including the interaction of space, ocean, ice, and land, to characterize
and forecast operationally relevant aspects of the environment and its inherent uncertainty globally and
regionally.

The MM program seeks to understand processes through theory and field experiments, supports model
development to represent new processes numerically, and funds basic research to integrate new knowledge
into prediction systems. Topics of emphasis include air-sea interaction, coupled modeling, predictability,
high resolution mesoscale weather prediction, targeted observing, aerosols, tropical cyclones, and 4D
data assimilation.




80                         General Fund
Major efforts include:
Tropical Cyclone Structure 2008 (TCS-08): Conducted the first major Western Pacific Operating Region airborne
field experiment since 1993 to improve the understanding of storm scale processes and increase the predictability
of TCS over the western North Pacific.

Coupled Ocean/Atmosphere Mesoscale Prediction System (COAMPS)-TC: Utilizing the results of TCS-08, a
version of the Navy’s mainstay mesoscale numerical weather prediction model was modified successfully to
provide the first skillful predictions of tropical cyclone intensity by a dynamical model.

Earth System Prediction Capability: Seasonal predictions represent a bridge between climate prediction and
weather prediction. Two initiatives have begun to improve the coupling, parameterizations and processes in
prediction models aimed at extending skill from sub-seasonal to intra-seasonal and inter-annual timescales.

Space: The space weather research initiative focused upon triggers for ionospheric irregularities affecting
communication and navigation, global assimilative ionospheric modeling, and high altitude lightning effects.

What this research will accomplish:
This research will field dynamic weather models that provide unprecedented extended range forecasting. See a
video about this research and why it is important to the Navy:

http://www.youtube.com/watch?v=vht4NWLzMOk&list=UUON9qgTd6NZQmI0ev38oEKg&index=4&feature=plcp

Hydromechanics:
ONR Hydromechanics Program has contributed to ship and submarine design and performance in many
respects, including measurement techniques at model and full scale, theoretical descriptions of ship and
sub motion and fluid mechanics, new concepts in propulsion, and advanced computational prediction.
Hydromechanics supports research in the phenomena of ship, sub, and propulsor interaction with the sea toward
improvements in efficiency, robustness, and operator guidance. Focus is on extreme conditions/maneuvers,
the production of a bubble wake, physics of cavitation and stratification, and new concepts in hullform and
propulsion.

The goal of the program is the identification, understanding, prediction, and control of all hydrodynamics
phenomena in the interaction of a ship or submarine with the sea. Observation, mathematical analysis,
computational techniques, and optimization of hullform, propulsion, and operations are key to achieving the
goal. Basic research forms the foundation for applied research projects toward naval application. Of particular
interest is the response of ships and subs to extreme conditions such as high sea states or emergencies such as
loss of a control surface or a crash-back maneuver (reverse propulsor thrust). Other important hydromechanics
phenomena include the entrainment of air around a ship and the resulting bubble wake ship track, hydroacoustic
noise, and ocean stratification effects. Formation of the bubble wake for a given ship is extremely difficult to
predict, yet important for defense against wake-homing torpedoes.

The hydromechanics of cavitation, especially on propulsors, is also complex and is a major source of noise as well
as surface erosion. Recent advances include the identification of a puzzling noise source due to vortex-interaction
downstream of a propeller tip. As with the bubble wake, the presence of both gas and liquid complicate the
numerical modeling of the phenomena.

What this research will accomplish:
    An understanding and proper mathematical/numerical formulation of ship and sub motion and
        propulsion will permit intelligent modifications to hullforms, propulsors, and control Computational
        shape optimization will improve the examination of design alternatives


                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   81
      An understanding of the bubble wake processes, cavitation, and stratification will guide the way toward
        possible methods of wake and noise control and accurate prediction of hydrodynamic characteristics for
        vulnerability analysis


B.	Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge
or understanding for the purpose of meeting the recognized need. This research points toward specific military
needs with a view toward developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, and research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system to include non system
specific development efforts.

The following are two representative program examples for the Applied Research category.

Advanced Power and Energy for Unmanned Undersea Vehicles (UUV):
ONR’s UUV Power & Energy Program is developing component and system technologies for advanced high
energy density propulsion systems enabling their operation reliably in an air-independent environment for 70+
days of continuous operation. One of the Chief of Naval Operation’s priorities is to accelerate the development
of long endurance UUVs to gain persistent access to areas denied to manned platforms, act as a force multiplier,
and decrease platform and personnel vulnerabilities due to the frequent energy section refresh required in
current UUVs. New power sources with improved energy density (5-10X times Silver Oxide-Zinc batteries), quick
recharge or refueling, and operation at an acceptable cost are required.

To achieve long endurance, advanced and highly efficient power conversion technologies such as Stirling
engines, Solid Oxide Fuel Cells (SOFC) and Polymer Electrolyte Membrane (PEM) Fuel Cells are coupled with
high storage density reactants for both fuels and oxidizers. Fuel cell systems, in particular, have the potential to
yield chemical to electrical conversion efficiencies in excess of 70% since they are not limited thermodynamically
by the Carnot Cycle, and show great promise to meet both near-term and far-term UUV energy storage and
power conversion requirements.

What this research will accomplish:
    Development of PEM, SOFC, and related fuel/oxidizer storage technologies
      Enables UUV energy systems to operate continuously for 70+ days without refueling (system energy
        densities upwards of 1000 Watt-hours/liter).


Universal Gateway:
On any Navy destroyer, cruiser or carrier today, there are two networks: one for combat systems (weapons
and sensors) and one for command and control, or C2, which also encompasses intelligence, surveillance and
reconnaissance. There are some 30 interconnections between the two networks, making it difficult to integrate
data into a real-time common operating picture, in addition to being expensive to maintain.

In response, ONR developed the Universal Gateway, which collapses the 30 connections into a single portal,
rapidly automating data integration, enhancing information assurance and reducing manpower workloads
and costs. The gateway can be put between different networks, despite their classification levels, so information
is available in a timely and effective way for warfighters. One example of how this will help Sailors is by
automating air tasking orders. Currently, an air tasking order comes to a ship on the C2 side. The only way to
link the information into a combat system—such as Aegis—is for a Sailor to download the information from the
C2 network CD and then manually upload it into the combat system. The objective for the gateway is to produce

82                         General Fund
a shared situation display for ships that goes beyond showing just force and unit locations—who and where—to
showing a full common operating picture—who, what, when, where, why and how.

Between 2010 and 2011, ONR completed a series of limited technical evaluations that proved the gateway could
integrate the various technologies that run on it. ONR also has been working on connecting data from unmanned
aerial systems, which involves combat systems and surveillance information, into the gateway. This would help
achieve a networked force, which is key to the DON’s goals for information dominance. The next phase is to
move the data into a cloud environment and add analytical capability to save time and manpower.

For another future initiative, ONR has established partnerships with the Army and Air Force to advance the
Universal Gateway as means of developing a common C2 system for tracking and accessing unmanned vehicles
in a joint environment. The Universal Gateway is the product of a unique rapid prototyping collaboration
between ONR; Program Executive Office Integrated Warfare Systems; and Program Executive Office Command,
Control, Communications, Computers and Intelligence. The partnership has been extremely successful, primarily
due to increased communication, which has resulted in more rapid transitioning—quickly getting items into
prototyping, experimentation and, ultimately to the Sailors and Marines.

What this research will accomplish:
    Automatically uploads data to/between ship networks
     Supports the goal of a network-centric Navy
     See a video about this research:
http://www.youtube.com/watch?v=_ni27sGS3dc&list=UUON9qgTd6NZQmI0ev38oEKg&index=2&feature=plcp

C.	Development
Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of five
stages, as defined below.

1. 	 Advanced Technology Development is the systematic use of the knowledge or understanding gained from
     research directed toward proof of technological feasibility and assessment of operational and production
     rather than the development of hardware for service use. It employs demonstration activities intended to
     prove or test a technology or method.

2. 	 Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
     operating environment as possible to assess the performance or cost reduction potential of advanced
     technology. Programs in this phase are generally system specific. Major outputs of Advanced Component
     Development and Prototypes are hardware and software components or complete weapon systems ready for
     operational and developmental testing and field use.

3. 	 System Development and Demonstration concludes the program or project and prepares it for production.
     It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapons
     systems finalized for complete operational and developmental testing.

4. 	 Research, Development, Test, and Evaluation Management Support is support for installations and
     operations for general research and development use. This category includes costs associated with test
     ranges, military construction maintenance support for laboratories, operation and maintenance of test aircraft
     and ships, and studies and analyses in support of the Research and Development program.


                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   83
5. 	 Operational Systems Development is concerned with development projects in support of programs or
     upgrades that are still in engineering and manufacturing development. These projects have received
     approval for production, for which production funds have been budgeted in subsequent fiscal years.

The following are four representative program examples for the Development category.

Solid State Laser Maturation Program:
The Solid State Laser Technology Maturation (SSL-TM) program will develop and mature high-energy laser
technologies into a prototypical weapon system for use and installation on the Navy’s surface combatants. The
Department of Defense (DOD) began funding research in high-energy lasers (HEL) soon after the invention of
the laser in 1960 when it was thought that they might (if scalable to high power) have tremendous impact on how
wars were fought. The Navy jointly built a multi-hundred-kilo-watt class laser in the 1970s, from which the Navy
leveraged this technology to produce the nation’s first mega-watt-class HEL weapon test bed.

The Mid-InfraRed Advanced Chemical Laser and the SeaLite Beam Director were installed and integrated
at White Sands Missile Range in the mid-1980s and used for experiments by DoD. While performance of
these mega-watt-class lasers was highly promising with many targets successfully engaged, the logistics and
safety issues of hazardous chemicals in a shipboard environment severely hampered further development or
implementation on the Navy’s surface combatants.

Solid State Laser technology with weapons-level effects has been maturing rapidly and recent advancements by
the scientific and commercial sectors have begun to show that a potential application on surface combatants is
possible. In particular, the ONR Maritime Laser Demonstration for the first time in 2011 took a laser to sea and
successfully conducted a mission scenario against a representative threat small boat, while underway. Further,
support for a continuation of competitive programs continues to garner interest and generate discussion. The
goal of the SSL-TM Program is to produce multiple demonstration-level events with prototypical quality systems
in a competitive environment.

What this research will accomplish:
    Produce a prototypical weapon system for use on surface Navy combatants. Lasers have the capability
        for speed-of-light engagements, with very precise, real-time targeting and battle damage assessments


Electromagnetic Railgun:
The Electromagnetic Railgun (EM) launcher is a long-range weapon that fires projectiles using electricity instead
of chemical propellants. Magnetic fields created by high electrical currents accelerate a sliding metal conductor,
or armature, between two rails to launch projectiles at 4,500 mph to 5,600 mph.

The EM Railgun was initiated in 2005 as Innovative Naval Prototype (INP). The DON’s science and technology
corporate board chartered the INP construct to foster game-changing and disruptive technologies ahead of
the normal requirements process. The goal during Phase I of EM Railgun research was a proof-of-concept
demonstration at 32 mega-joule muzzle energy has been achieved. A future weapon system at this energy level
would be capable of launching a 100-nautical mile projectile. This launch energy has the advantage of being able
to stress many components to evaluate full-scale mechanical and electromagnetic forces.

Phase I was focused on the development of launcher technology with adequate service life, development of
reliable pulsed power technology and component risk reduction for the projectile. Phase II, which started in
2012, will advance the technology for transition to an acquisition program. Phase II technology efforts will
concentrate on demonstrating a rep-rate fire capability up to 10 rounds per minute. Thermal management
techniques required for sustained firing rates will be developed for both the launcher system and the pulsed


84                         General Fund
power system. Two industry prototypes were developed, and are being tested at the railgun facility in Dahlgren,
Va. The railgun is a true warfighting game-changer. Wide-area coverage, exceptionally quick response and very
deep magazines will extend the reach and lethality of ships armed with this technology.

What this research will accomplish:
    With its increased velocity and extended range, the EM Railgun will give Sailors a multi-mission
        capability, allowing them to conduct precise naval surface fire support, or land strikes; cruise missile and
        ballistic missile defense; and surface warfare to deter enemy vessels.


Autonomous Combat Casualty Care:
Expeditionary Medicine is a Science and Technology (S&T) focus area which supports Navy and Marine Corps
combat forces by developing products to treat injuries. Products must not only be safe and effective but must
also be small, lightweight and rugged since naval combat forces must travel light and fast.

 Under development is a “system of systems” which will provide autonomous control of ventilation, fluid
resuscitation, administration of drugs, sedation and analgesia, and maintenance of core body temperature
through constant physiologic monitoring. The system will also have telemedicine capability.

The device is called the Autonomous Critical Care System (ACCS) and the objective is to provide appropriate
intervention which will yield improved survival and outcomes. The system is based on “closed-loop-control”,
an example of which is a household thermostat which heats or cools a house to maintain a set temperature. The
ACCS performs interventions to maintain a patient’s medical condition based on changes in his/her physiology.

The ACCS can be used for patient transport, aboard ships, or in land-based medical treatment facilities to
augment medical personnel. Continuous monitoring of a patient’s physiology allows immediate detection of
adverse changes in their medical status and thus faster interventions. The system affords appropriate intervention
in the absence of a skilled caregiver and reduces manpower and logistics demand.

What this research will accomplish:
    Ability to maintain a critically injured/ill patient for minimum of 2 hrs w/o any degradation in
        clinical status
     The ACCS will provide the right care at the right time


Squad Electric Power Network:
The Squad Electric Power Network (SEPN) is an individually wearable, electrical-power management and
distribution system that provides a universal link between worn or carried electrical devices assigned to the
squad and current or future power sources.

This effort addresses the S&T Warfighter Gap PR11-39: The Marine rifle squad cannot operate persistently and
effectively while dismounted due to being overburdened with electronic devices with individual power sources
of multiple types. Numerous squad capabilities are dependent on sustained electrical power requiring heavy,
short-life batteries.

The goal of the SEPN is to reduce the weight and logistical burden associated with electrical power requirements
for individual and squad-level equipment while additionally providing a capability for individual energy
sustainment in austere environments utilizing power harvesting/scavenging from available or disparate sources.




                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   85
The expected, overarching benefits of the SEPN are:
	 1)	 Reduce the number and weight of spare batteries carried in dismounted operations.
	 2)	 Remove incompatibility between battery types and equipment
	 3)	 Promote electrical energy harvesting of source power at an individual level.
	 4)	 Provide mission planning tools such as data logging and state of charge indication.

Phase I prototypes have been delivered and limited technical assessments focused on human factors and
electrical performance have been conducted. Phase II prototypes are expected to be delivered at the end of FY12.
The Phase I prototypes successfully participated in a Limited Objective Experiment at Ft Pickett in summer 2012.

The Advanced Power Sources Program within Marine Corps Systems Command, Combat Systems Support will
be the recipient of this product. This is an overarching program that addresses advanced capability in small
and innovative power technologies that can be rapidly transitioned to production and fielding. The project will
initiate an abbreviated Engineering and Manufacturing Development (EMD) Phase of 12-18 months to complete
and mature the demonstrated technology, as well as conduct test and evaluation.

Upon completion of EMD, a production decision will be sought to procure production articles, conduct
qualification testing, any required operational testing, logistics assessments, and preparation for full production
and fielding in FY16.

What this research will accomplish:
    Reduced spare battery weight & bulk
      Reduced individual battery logistics
      Enable energy harvesting
      Enable state-of-charge indication

NON-FEDERAL PHYSICAL PROPERTY

The DON General Fund does not fund this type of Activity.




86                         General Fund
General Fund Required Supplementary
Information
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   87
                     General Fund Required Supplementary Information
                                                        Department of the Navy
                                                  General Property, Plant, and Equipment
                                              Real Property Deferred Maintenance and Repair
                                                        For Fiscal Year Ended September 30, 2012
                                                                      ($ in thousands)
                                                                                                                 2. Required Work (Deferred
Property Type                                                                       1. Plant Replacement Value   Maintenance and Repair)      3. Percentage

Category 1: Enduring Facilities
Navy                                                                                $        138,796,060         $          39,806,400               28.68%
Marine Corps                                                                        $         43,856,876         $             990,360                2.26%
Category 2: Excess Facilities or Planned for Replacement
Navy                                                                                $            1,060,550       $              479,960              45.26%
Marine Corps                                                                        $            1,660,951       $                    -                0.0%
Category 3: Heritage Assets
Marine Corps                                                                        $            4,395,903       $                99,347              2.26%

NOTE: In the table above, Navy real property deferred maintenance and repair data represent both Department of the Navy General Fund and Navy Working
Capital Fund (NWCF). Similarly, Marine Corps real property deferred maintenance and repair data represent both the United States Marine Corps General Fund and
NWCF-Marine Corps.



Description of Property Type categories:
    Category 1 – Buildings, Structures, and Utilities that are enduring and required to support an ongoing
       mission, including multi-use Heritage Assets.
      Category 2 – Buildings, Structures, and Utilities that are excess to requirements or planned for
        replacement or disposal, including multi-use Heritage Assets.
      Category 3 – Buildings, Structures, and Utilities that are Heritage Assets.


1. 	 The method used to assess facilities condition is a combination of commercial Infrastructure Condition
     Assessment Program (ICAP) software and facilities inspection. The Navy’s Quality rating (Q-rating) is
     calculated using the below formula:
                                            Q = 1 - (Requirements) X 100
                                                          PRV
	 The Navy models the “Requirements” value from the condition rating and configuration rating.

	    The method used to assess Marine Corps facilities conditions is twofold. All buildings, paving and rail assets
     are inspected using the Sustainment Management Systems (SMS) methodology developed by the U.S. Army
     Corps of Engineers Civil Engineering Research Laboratory which provides a facilities condition index (FCI)
     for these assets. Other assets are assessed via facilities inspection, which categorizes buildings as Adequate,
     Substandard, or Inadequate. Assets inspected using the SMS methodology takes the FCI to determine the
     asset’s Q-rating. Those assets without a direct FCI rating are converted by the Marine Corps from Adequate
     Substandard and Inadequate ratings to Q-ratings by assessing facilities that are rated as Adequate and less
     than 25 years old as Q1; facilities that are over 25 years old and rated as Adequate as Q2; facilities rated as
     Substandard as Q3; and Inadequate facilities as Q4.

2. 	 The condition rating is a measure (0 -100) of an asset’s physical condition at a particular point in time. The
     Navy uses condition modeling software to capture condition assessment data to model system/component
     condition ratings. The condition assessment data is supplemented by eyes-on condition assessments that
     capture accurate facility components and confirm as-built condition. In FY12, the condition assessment


88                                   General Fund
    program was expanded to include utility systems. Updated condition ratings for utility systems have caused
    an increase in deferred maintenance and repair backlog.

3. 	 The configuration rating is a measure (0 - 100) of the asset’s capability to support the current occupant or
     mission with respect to functionality. The Configuration Rating is calculated in the internet Navy Facility
     Assets Data Store (iNFADS) from an algorithm that weights configuration deficiency codes (code compliance,
     functional/space criteria, location/siting criteria or inadequate capacity/coverage) collected during Asset
     Evaluations. Deficiency codes identify impacts to the suitability of spaces for their intended use, including
     obsolescence of facility components that do not meet new standards.

4. 	 The DON’s Q-rating is represented by the bands: 100%-90% Q1; 90%-80% Q2; 80%-60% Q3; and less than
     60% Q4.

5. 	 The FY 2012 target Q-rating value representing full investment requirement for the Navy is Q1. The
     Department of the Navy (DON) follows the Office of the Secretary of Defense installation strategic plan goal
     of having facilities at a Q2 level on average as an acceptable rating. This represents an average level of 15%
     of Plant Replacement Value (PRV) as an acceptable level of deferred maintenance. The table above shows that
     deferred maintenance for the Navy is valued at 28.68%, 45.26% and 0% of PRV for categories 1 through 3,
     respectively. The deferred maintenance and repair estimates are based on the facility Q-ratings found in the
     Navy’s real property inventory.

	   The table above shows that deferred maintenance for Marine Corps is valued at approximately 2.26% of PRV
    for categories 1 and 3. Category 2 is zero because deferred maintenance backlogs are not held on facilities to
    be demolished.

6. 	 The Facility Readiness Evaluation System (FRES) application was used to generate the Deferred Maintenance
     and Repair Report. FRES is updated with iNFADS data on a weekly basis and at the end of the fiscal year.
     The PRV and deferred maintenance and repair estimates for all three categories are reported for Command
     Navy Installations Command installations only, and only the Maintenance Fund Sources listed below are
     included. Facilities maintained by Bureau of Medicine and Surgery, defense agencies and Family Housing,
     Navy are excluded from the estimates.

     Operation and Maintenance, Navy
     Operation and Maintenance, Navy Reserve
     Research, Development, Test, and Evaluation
     Navy Working Capital Fund


7. 	 Category 1 excludes facilities identified in Categories 2 and 3. The Navy currently identifies Category 2
     facilities as follows: facilities assigned a RPA Operational Status Code of excess or surplus and RPA Interest
     Type Code Fee, ONST, ONFG, or Lease. Excess is defined as “property under the control of a federal agency
     that the head of the agency determines is not required to meet the agency’s needs or responsibilities.” The
     source for this definition is CFT Title 40 USC 102. Category 3 includes facilities that are single-use Heritage
     Assets. iNFADS does not identify any Navy facilities as single-use Heritage Assets; therefore, the amounts
     recorded for this category are zero.



                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   89
                                                 Military Equipment Deferred Maintenance
                                                        For Fiscal Year Ended September 30, 2012
                                                                     ($ in thousands)
Major Category                                                                         OP30 Amounts                   Adjustments                       Totals
    1. Aircraft                                                                        $209,340                     $(53,029)                   $156,311
    2. Automotive Equipment                                                              34,446                      (34,446)                          -
    3. Combat Vehicles                                                                   32,280                      (32,280)                          -
    4. Construction Equipment                                                             6,290                           10                       6,300
    5. Electronics and Communications Systems                                            14,610                          531                      15,141
    6. Missiles                                                                         110,981                       (3,179)                    107,802
    7. Ships                                                                            506,634                     (396,052)                    110,582
    8. Ordnance Weapons and Munitions                                                    20,503                          (93)                     20,410
    9. All Other Items Not Identified Above                                              25,211                      (15,918)                      9,293
Total                                                                                  $960,295                    $(534,456)                   $425,839

Note: The deferred maintenance amounts reported in the Budget Exhibit Operations (OP) Depot Maintenance (30) that accompanied the most recent President’s
Budget was used as the basis to identify and report amounts in the Military Equipment Deferred Maintenance. Material amounts of deferred maintenance beyond
the scope of the OP-30 Budget Exhibit, that warrant reporting are in the “Adjustments” column.


Aircraft Deferred Maintenance
Four sub-categories comprise aircraft deferred maintenance: airframe rework and maintenance (active and
reserve), engine rework and maintenance (active and reserve), component repair, and software maintenance.
The airframe rework deferred maintenance calculation reflects year-end unfunded requirements, which represent
aircraft that have reached their Fixed Induction Date or have failed an Aircraft Service Period Adjustment
inspection. The engine rework deferred maintenance calculation reflects year-end actual requirements minus
actual funded units. Component repair deferred maintenance represents the difference between the validated
requirements minus corresponding funding.

Airframe rework and maintenance (active and reserve) is predominantly performed under the Integrated
Maintenance Concept (IMC) and for a small number of aircraft under Standard Depot Level Maintenance.
Currently, the AV-8B, C-130, C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, and P-3 aircraft programs
have been incorporated under the IMC concept. The IMC concept uses Planned Maintenance Intervals,
performing more frequent depot maintenance, but with smaller work packages, thereby reducing out-of-service
time. The goal of this program is to improve readiness while reducing operating and support costs. The Naval
Air Systems Command’s (NAVAIR) Industrial Strategy is to maintain the minimum level of organic capacity
consistent with force levels that are necessary to sustain peacetime readiness and maintain fighting surge
capability. NAVAIR works in partnership with private industry to make maximum use of industry’s production
capabilities and for non-core related aviation depot maintenance.

Combat Vehicles Deferred Maintenance
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine Corps
assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the Amphibious
Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total requirement is
the planned quantity of combat vehicles that require depot level maintenance in a year as determined by
program managers and the operating forces with requirements validated by a modeling process. The deferred
maintenance is the difference between the validated requirements and funding received for that fiscal year.

Missiles Deferred Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, software maintenance, and
other. Deferred maintenance is defined as the difference between the total weapon maintenance requirement
as determined by requirements modeling processes and the weapon maintenance that is funded in accordance
with the annual budget controls for the missile maintenance program. The maintenance requirements model
projects the quantity of missiles and missile components per weapon system that are required to be maintained
or reworked annually.


90                                  General Fund
Ships Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the Current Ships’
Maintenance Plan database, which captures maintenance actions at all levels (organizational, intermediate,
depot) for active and reserve ships. Only depot level deferred maintenance is provided in the calculation of
ship deferred maintenance. This includes maintenance actions deferred from actual depot maintenance work
packages as well as maintenance deferred before inclusion in a work package due to fiscal, operational, or
capacity constraints. Although there are some deferred maintenance actions, no ships fall into the category of
“unacceptable operating condition.” Any ship that would be at risk of being in unacceptable operating condition
would receive priority for maintenance funding to maintain acceptable operating condition.

Ordnance Weapons and Munitions Deferred Maintenance
Ordnance weapons and munitions are part of a broader category, Other Weapons Systems. This category
is comprised of ordnance, end item maintenance for support equipment, camera equipment, landing aids,
calibration equipment, air traffic control equipment, target systems, expeditionary airfield equipment,
special weapons, target maintenance, and repair of repairable components. Three categories define ordnance
maintenance: ordnance maintenance, software maintenance, and other. Although the various programs vary in
the methodology in defining requirements, all programs define deferred maintenance as the difference between
validated requirements and funding.

Electronics and Communications Systems
The electronics and communications systems category refers to deferred systems maintenance for active and
reserve Navy and Marine Corps assets. This category consists of maintenance performed on a variety of
radar, radio, and wire and communications equipment. In part, the systems include or are associated with
the Surveillance Towed-Array Sensor System (called SURTASS), P-3 Beartrap, satellite subsystems, the Multi-
Band Deployable Antenna, the Multi-Mode Inter/Intra Team Radio, and a variety of radio and radar sets used
within the DON. The total requirement is the planned quantity of systems and their components that require
depot level maintenance in a year as determined by program managers and the operating forces. The deferred
maintenance is then the difference between the validated requirements and funding received for that fiscal year.

Construction Equipment
The construction equipment category refers to deferred equipment maintenance for active and reserve Marine
Corps assets. This category consists of maintenance performed on a variety of tractors and earth moving
equipment. In part, the equipment includes the Aardvark Tactical, the 277C Multi-Terrain Loader, the Medium
Crawler Tractor, the Armored Excavator with Brush Hog, and Bridge Erection equipment. The total requirement
is the planned quantity of equipment that requires depot level maintenance in a year as determined by
program managers and the operating forces. The deferred maintenance is the difference between the validated
requirements and funding received for that fiscal year.

Deferred Maintenance on All Other Items Not Identified Above
This category comprises deferred maintenance for software, arrest gear, lighting and surfacing equipment,
and EFTM (external fuel transfer module). The deferred maintenance is the difference between the validated
requirements and funding received for that fiscal year.

Software maintenance includes the operational and system test software that runs in the airborne avionics
systems (e.g., mission computer, display computer, radar) and the software that runs the ground-based support
labs used to perform software sustainment (e.g., compilers, editors, simulation, configuration management).

Heritage Assets Condition Information
The methodology used to report the condition of the heritage assets was a combination of visual assessment
of the objects, historic value to the DON collection, and general display and storage standards for historic
collections. The overall condition of the collection objects is good.




                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   91
                                       Department of Defense - Department of the Navy


                STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                           For the periods ended September 30, 2012 and 2011
                                                          ($ in thousands)
                                                                     Research,
                                                                 Development, Test &                                         Family Housing &
                                                                     Evaluation        Procurement     Military Personnel   Military Construction
Budgetary Resources:
Unobligated Balance Brought Forward, Oct 1                      $      2,882,267 $      25,089,299 $          553,620 $           2,683,751
Recoveries of Prior Year Unpaid Obligations                            1,213,162         4,030,173          2,768,667             1,342,264
Other Changes in Unobligated Balance                                    (251,442)         (333,525)            56,403                (2,613)
Unobligated Balance from Prior Year Budget
   Authority, Net                                                     3,843,987         28,785,947         3,378,690              4,023,402
Appropriations                                                       17,657,584         47,106,714        47,713,857              2,404,797
Spending Authority from Offsetting Collections                          174,002            896,677           376,971              1,032,290
Total Budgetary Resources                                       $    21,675,573 $       76,789,338 $      51,469,518 $            7,460,489

Status of Budgetary Resources:
Obligations Incurred                                            $    18,974,901 $       52,634,970 $      50,670,002 $            4,858,725
Unobligated Balance, End of Year
    Apportioned                                                       2,408,750         23,146,008           170,895              2,519,399
    Unapportioned                                                       291,922          1,008,360           628,621                 82,365
Total Unobligated Balance, End of Year                                2,700,672         24,154,368           799,516              2,601,764
Total Budgetary Resources                                       $    21,675,573 $       76,789,338 $      51,469,518 $            7,460,489

Change in Obligated Balance:
Unpaid Obligations, Brought Forward, October 1                  $      9,503,731 $      65,004,017 $        1,682,639 $           5,777,004
Uncollected Customer Payments from Federal Sources,
  Brought Forward, October 1                                           (133,936)          (245,242)             (52)               (648,533)
Obligated Balance Start of Year, Net                                  9,369,795         64,758,775        1,682,587               5,128,471
Obligations Incurred                                                 18,974,901         52,634,970       50,670,002               4,858,725
Outlays, Gross                                                      (16,995,225)       (44,519,954)     (46,922,869)             (4,045,886)
Change in Uncollected Customer Payments from
  Federal Sources                                                        16,323             31,725            (5,347)               106,773
Recoveries of Prior Year Unpaid Obligations                          (1,213,162)        (4,030,173)       (2,768,667)            (1,342,264)
Obligated Balance, End of Year
   Unpaid Obligations, End of Year, Gross                            10,270,245         69,088,860          2,661,105             5,247,579
   Uncollected Customer Payments from Federal
      Sources, End of Year                                             (117,613)          (213,517)            (5,399)             (541,760)
Obligated Balance, End of Year                                  $    10,152,632 $       68,875,343 $        2,655,706             4,705,819
Budget Authority and Outlays, Net:
Budget Authority, Gross                                         $    17,831,586 $       48,003,391 $      48,090,828 $            3,437,087
Actual Offsetting Collections                                          (190,325)          (928,402)         (371,624)            (1,139,063)
Change in Uncollected Customer Payments from
  Federal Sources                                                        16,323             31,725            (5,347)               106,773
Budget Authority, Net                                           $    17,657,584 $       47,106,714 $      47,713,857 $            2,404,797

Outlays, Gross                                                  $    16,995,225 $       44,519,954 $      46,922,869 $            4,045,886
Actual Offsetting Collections                                          (190,325)          (928,402)         (371,623)            (1,139,065)
Outlays, Net                                                         16,804,900         43,591,552        46,551,246              2,906,821
Distributed Offsetting Receipts                                               –                  –                 –                      –
Agency Outlays, Net                                             $    16,804,900 $       43,591,552 $      46,551,246 $            2,906,821




92                          General Fund
                                     Department of Defense - Department of the Navy


                STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                         For the periods ended September 30, 2012 and 2011
                                                        ($ in thousands)
                                                                  Operations, Readiness
                                                                       & Support               2012 Combined             2011 Combined
Budgetary Resources:
Unobligated Balance Brought Forward, Oct 1                    $             1,996,944 $             33,205,881 $               35,002,674
Recoveries of Prior Year Unpaid Obligations                                 3,894,749               13,249,015                 14,169,439
Other Changes in Unobligated Balance                                         (806,574)              (1,337,751)                (1,125,467)
Unobligated Balance from Prior Year Budget
   Authority, Net                                                           5,085,119               45,117,145                48,046,646
Appropriations                                                             58,622,262              173,505,214               175,961,434
Spending Authority from Offsetting Collections                              5,625,320                8,105,260                 7,587,503
Total Budgetary Resources                                     $            69,332,701 $            226,727,619 $             231,595,583

Status of Budgetary Resources:
Obligations Incurred                                          $            67,039,306 $            194,177,904 $             198,389,702
Unobligated Balance, End of Year
    Apportioned                                                               206,583               28,451,635                29,803,065
    Unapportioned                                                           2,086,812                4,098,080                 3,402,816
Total Unobligated Balance, End of Year                                      2,293,395               32,549,715                33,205,881
Total Budgetary Resources                                     $            69,332,701 $            226,727,619 $             231,595,583

Change in Obligated Balance:
Unpaid Obligations, Brought Forward, October 1                $            25,510,647 $            107,478,038 $             101,601,676
Uncollected Customer Payments from Federal Sources,
  Brought Forward, October 1                                              (1,482,124)               (2,509,887)               (3,154,898)
Obligated Balance Start of Year, Net                                      24,028,523               104,968,151                98,446,778
Obligations Incurred                                                      67,039,306               194,177,904               198,389,702
Outlays, Gross                                                           (62,995,537)             (175,479,471)             (178,343,901)
Change in Uncollected Customer Payments from
  Federal Sources                                                            (269,389)                (119,915)                   645,011
Recoveries of Prior Year Unpaid Obligations                                (3,894,749)             (13,249,015)               (14,169,439)
Obligated Balance, End of Year
   Unpaid Obligations, End of Year, Gross                                  25,659,667              112,927,456               107,478,038
   Uncollected Customer Payments from Federal
      Sources, End of Year                                                 (1,751,513)              (2,629,802)               (2,509,887)
Obligated Balance, End of Year                                $            23,908,154 $            110,297,654 $             104,968,151
Budget Authority and Outlays, Net:
Budget Authority, Gross                                       $            64,247,582 $            181,610,474 $             183,548,937
Actual Offsetting Collections                                              (5,355,931)              (7,985,345)               (8,232,514)
Change in Uncollected Customer Payments from
  Federal Sources                                                            (269,389)                (119,915)                  645,011
Budget Authority, Net                                         $            58,622,262 $            173,505,214 $             175,961,434

Outlays, Gross                                                $            62,995,537 $            175,479,471 $             178,343,901
Actual Offsetting Collections                                              (5,355,930)              (7,985,345)               (8,232,514)
Outlays, Net                                                               57,639,607              167,494,126               170,111,387
Distributed Offsetting Receipts                                              (226,131)                (226,131)                   36,444
Agency Outlays, Net                                           $            57,413,476 $            167,267,995 $             170,147,831




                                                                      Protect the Nation, Project Power, Provide Freedom of the Seas     93
     Department of the Navy Fiscal Year 2012 Annual Financial Report

               Protect the Nation,
                  Project Power,
            Provide Freedom of the Seas




94    General Fund
General Fund Other Accompanying
Information
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   95
                  GENERAL FUND Other Accompanying Information
                                     Table 1. Summary of Financial Statement Audit

                Audit Opinion                                                      Disclaimer
                  Restatement                                                          No
                                                   Beginning
Areas of Material Weaknesses                        Balance      New        Resolved        Consolidated   Reassessed   Ending Balance

Financial Management Systems                          1           0            0                 0             0              1
Fund Balance with Treasury                            1           0            0                 0             0              1
Accounts Receivable                                   1           0            0                 0             0              1
Other Assets                                          1           0            0                 0             0              1
Inventory and Related Property, Net                   1           0            0                 0             0              1
General Property, Plant and Equipment                 1           0            0                 0             0              1
Accounts Payable                                      1           0            0                 0             0              1
Statement of Net Cost                                 1           0            0                 0             0              1
Problem Disbursements                                 1           0            0                 0             0              1
Unobligated Balances                                  1           0            0                 0             0              1
Statement of Changes in Net Position                  0           1            0                 0             0              1

                                     Table 2. Summary of Management Assurances

                          Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
                    Statement of Assurance                                             No Assurance

                                Effectiveness of Internal Control over Operations (FMFIA § 2)
                    Statement of Assurance                                                  Qualified
                                                   Beginning
Material Weaknesses                                 Balance      New        Resolved        Consolidated   Reassessed   Ending Balance

Service Contracts                                     0           1            0                 0             0              1
Attenuating Hazardous Noise in Acquisition &
   Weapon System Design                               1           0            0                 0             0              1
Management of Communications Security
  (COMSEC) Equipment                                  1           0            0                 0             0              1
Safeguarding Personally Identifiable
   Information (PII)                                  1           0            0                 0             0              1
Effective Use of Earned Value Management
   (EVM) Across Shipbuilding Programs                 1           0            0                 0             0              1
Total Material Weaknesses                             4           1            0                 0             0              5
                      Conformance with Financial Management System Requirements (FMFIA § 4)
                    Statement of Assurance                                             No Assurance

                     Conformance with Federal Financial Management Improvement Act (FFMIA)
               Overall Substantial Compliance                                          No Assurance




96                           General Fund
    Appropriations, Funds, and Accounts Included in the Principal Statements

Entity Accounts
General Funds
	       17X0380	     Coastal Defense Augmentation, Navy
	        17 0703	    Family Housing, Navy and Marine Corps
	        17 0730	    Family Housing Construction, Navy and Marine Corps
	        17 0735	    Family Housing Operation and Maintenance, Navy and Marine Corps
	       17X0810	     Environmental Restoration, Navy
	        17 1000	    Medicare-Eligible Retiree Health Fund Contribution, Navy
	        17 1001	    Medicare-Eligible Retiree Health Fund Contribution, Marine Corps
	        17 1002	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Navy
	        17 1003	    Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
	       17X1105	     Military Personnel, Marine Corps
	        17 1105	    Military Personnel, Marine Corps
	       17X1106	     Operations and Maintenance, Marine Corps
	        17 1106 	   Operation and Maintenance, Marine Corps
	        17 1107	    Operation and Maintenance, Marine Corps Reserve
	        17 1108 	   Reserve Personnel, Marine Corps
	        17 1109 	   Procurement, Marine Corps
	        17 1116 	   Operation and Maintenance - Recovery Act, Marine Corps
	        17 1117 	   Operation and Maintenance - Recovery Act, Marine Corps Reserve
	       17X1205 	    Military Construction, Navy and Marine Corps
	        17 1205 	   Military Construction, Navy and Marine Corps
	        17 1206 	   Military Construction - Recovery Act, Navy and Marine Corps
	        17 1235 	   Military Construction, Naval Reserve
	       17X1236 	    Payments to Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration
                     Fund, Navy
	       17X1319 	    Research, Development, Test, and Evaluation, Navy
	        17 1319 	   Research, Development, Test, and Evaluation, Navy
	        17 1320 	   Research, Development, Test and Evaluation - Recovery Act, Navy
	        17 1405 	   Reserve Personnel, Navy
	       17X1453 	    Military Personnel, Navy
	        17 1453 	   Military Personnel, Navy
	        17 1506 	   Aircraft Procurement, Navy
	       17X1507 	    Weapons Procurement, Navy
	        17 1507 	   Weapons Procurement, Navy
	        17 1508 	   Procurement of Ammunition, Navy and Marine Corps
	       17X1611	     Shipbuilding and Conversion, Navy
	        17 1611 	   Shipbuilding and Conversion, Navy
	       17X1804	     Operation and Maintenance, Navy
	        17 1804 	   Operation and Maintenance, Navy
	        17 1805 	   Operation and Maintenance - Recovery Act, Navy
	       17X1806 	    Operations and Maintenance, Navy Reserve
	        17 1806 	   Operation and Maintenance, Navy Reserve
	        17 1807 	   Operation and Maintenance - Recovery Act, Navy Reserve
	       17X1810 	    Other Procurement, Navy
	        17 1810 	   Other Procurement, Navy




                                                          Protect the Nation, Project Power, Provide Freedom of the Seas   97
Revolving Funds
	       17X4557 	 National Defense Sealift Fund, Navy
	        17 4557 	 National Defense Sealift Fund, Navy

Earmarked Trust Funds
	      17X8716 	 Department of the Navy General Gift Fund
	      17X8723 	 Ships Stores Profits, Navy
	      17X8733 	 United States Naval Academy General Gift Fund

Earmarked Special Funds
	      17X5095 	 Wildlife Conservation, etc., Military Reservations, Navy
	      17X5185 	 Kaho Olawe Island Conveyance, Remediation, and Environmental Restoration Fund, Navy
	      17X5562 	 Ford Island Improvement Account

General Fund Non- Entity Accounts
Deposit Funds
	       17X6001 	    Proceeds of Sales of Lost, Abandoned, or Unclaimed Personal Property, Navy (T)
	       17X6002 	    Personal Funds of Deceased, Mentally Incompetent or Missing Personnel, Navy (T)
	       17X6025 	    Pay of the Navy, Deposit Fund (T)
	       17X6026 	    Pay of the Marine Corps, Deposit Fund (T)
	       17X6434 	    Servicemen’s Group Life Insurance Fund, Suspense, Navy
	       17X6705 	    Civilian Employees Allotment Account, Navy
	       17X6706 	    Commercial Communication Service, Navy
	        17 6763 	   Gains and Deficiencies on Exchange Transactions, Navy
	       17X6850 	    Housing Rentals, Navy
	       17X6999 	    Accounts Payable, Check Issue Underdrafts, Navy




98                         Navy Working
                           General Fund Capital Fund
Navy Working Capital Fund Principal
Statements
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   99
                                                                       Principal Statements
The Fiscal Year 2012 Navy Working Capital Fund (NWCF) principal statements and related notes are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B.
The statements and related notes summarize financial information for individual funds and accounts within the
NWCF for the fiscal year ending September 30, 2012, and are presented on a comparative basis with information
previously reported for the fiscal year ending September 30, 2011.

The following statements comprise the NWCF principal statements:

       Consolidated Balance Sheet
       Consolidated Statement of Net Cost
       Consolidated Statement of Changes in Net Position
       Combined Statement of Budgetary Resources


The principal statements and related notes have been prepared to report financial position pursuant to the
requirements of the Chief Financial Officers Act of 1990, as amended by the Government Management Reform
Act of 1994. The accompanying notes should be considered an integral part of the principal statements.




100                        Navy Working Capital Fund
                                              Department of Defense - Navy Working Capital Fund


                                              CONSOLIDATED BALANCE SHEET
                                                            As of September 30, 2012 and 2011
                                                                   ($ in thousands)

                                                                                               2012 Consolidated              2011 Consolidated
ASSETS
   Intragovernmental:
       Fund Balance with Treasury (Note 3)                                                 $               1,334,582      $               1,247,786
       Accounts Receivable (Note 4)                                                                        1,083,381                        894,434
       Other Assets (Note 5)                                                                                      10                             10
   Total Intragovernmental Assets                                                                          2,417,973                      2,142,230

   Cash and Other Monetary Assets (Note 6)                                                                       295                          2,452
   Accounts Receivable, Net (Note 4)                                                                          43,326                         39,995
   Inventory and Related Property, Net (Note 7)                                                           20,485,300                     20,519,479
   General Property, Plant, and Equipment, Net (Note 8)                                                    2,234,480                      2,340,475
   Other Assets (Note 5)                                                                                   1,628,448                      1,021,730
TOTAL ASSETS                                                                               $              26,809,822      $              26,066,361
Stewardship Property, Plant and Equipment (Note 8)*

LIABILITIES
   Intragovernmental:
       Accounts Payable (Note 10)                                                          $                 184,615      $                  181,490
       Other Liabilities (Note 12)                                                                           531,429                         631,748
   Total Intragovernmental Liabilities                                                                       716,044                         813,238

   Accounts Payable (Note 10)                                                                              3,015,987                      2,799,892
   Military Retirement and Other Federal Employment Benefits
      (Note 14)                                                                                              757,427                        739,256
   Other Liabilities (Note 12)                                                                             1,281,831                      1,174,979
TOTAL LIABILITIES                                                                                          5,771,289                      5,527,365
Commitments and Contingencies (Note 13)*

NET POSITION
   Unexpended Appropriations - Other Funds                                                                    1,607                           1,254
   Cumulative Results of Operations - Other Funds                                                        21,036,926                      20,537,742
TOTAL NET POSITION                                                                                       21,038,533                      20,538,996

TOTAL LIABILITIES AND NET POSITION                                                         $             26,809,822       $              26,066,361

* - Disclosure but no value required per Federal Accounting Standards.
The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas   101
                                              Department of Defense - Navy Working Capital Fund


                                     CONSOLIDATED STATEMENT OF NET COST
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Consolidated          2011 Consolidated
Program Costs
   Gross Costs
      Operations, Readiness, & Support                                                     $            35,470,797    $            46,240,534

      Less: Earned Revenue                                                                             (33,425,738)               (54,714,590)

Net Cost of Operations                                                                     $             2,045,059    $            (8,474,056)

The accompanying notes are an integral part of the statements.




102                                 Navy Working Capital Fund
                                              Department of Defense - Navy Working Capital Fund


                   CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Consolidated              2011 Consolidated
CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                                                       $              20,537,742      $              13,283,263
  Budgetary Financing Sources:
     Appropriations Used                                                                                         (353)                           27,267
  Other Financing Sources:
     Transfers-In/Out without Reimbursement                                                                  341,583                        (85,696)
     Imputed Financing from Costs Absorbed by Others                                                         538,390                        578,014
     Other                                                                                                 1,664,623                     (1,739,162)
  Total Financing Sources                                                                                  2,544,243                     (1,219,577)
  Net Cost of Operations                                                                                   2,045,059                     (8,474,056)
  Net Change                                                                                                 499,184                      7,254,479
  Cumulative Results of Operations                                                         $              21,036,926      $               20,537,742

UNEXPENDED APPROPRIATIONS
   Beginning Balances                                                                      $                    1,254     $                      28,521
   Budgetary Financing Sources:
      Appropriations Used                                                                                        353                        (27,267)
   Total Budgetary Financing Sources                                                                             353                        (27,267)
   Unexpended Appropriations                                                                                   1,607                          1,254
   Net Position                                                                            $              21,038,533      $              20,538,996

The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas      103
                                              Department of Defense - Navy Working Capital Fund


                           COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Combined             2011 Combined
Budgetary Resources:
   Unobligated Balance, Brought Forward, October 1                                         $            3,164,084    $           2,900,938
   Recoveries of Prior Year Unpaid Obligations                                                          1,870,102                  564,486
   Other Changes in Unobligated Balance                                                                (1,448,900)                (329,550)
   Unobligated Balance from Prior Year Budget Authority, Net                                            3,585,286                3,135,874

    Contract Authority                                                                                  8,929,539                7,218,237
    Spending Authority from Offsetting Collections                                                     21,659,085               21,688,494
Total Budgetary Resources                                                                  $           34,173,910    $          32,042,605

Status of Budgetary Resources:
    Obligations Incurred                                                                   $           30,439,413    $          28,878,521
    Unobligated Balance, End of Year
       Apportioned                                                                                      3,694,934               3,145,928
       Unapportioned                                                                                       39,563                  18,156
    Unobligated Balance Brought Forward, End of Year                                                    3,734,497               3,164,084
Total Budgetary Resources                                                                  $           34,173,910    $          32,042,605

The accompanying notes are an integral part of the statements.




104                                 Navy Working Capital Fund
                                              Department of Defense - Navy Working Capital Fund


                           COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                     For the Years Ended September 30, 2012 and 2011
                                                                   ($ in thousands)
                                                                                               2012 Combined                  2011 Combined
Change in Obligated Balance:
  Unpaid Obligations, Brought Forward, October 1                                           $              12,119,020      $              12,105,212
  Uncollected Customer Payments from Federal Sources,Brought
     Forward, October 1                                                                                 (10,846,545)                     (9,724,859)
  Obligated Balance Start of Year, Net                                                                    1,272,475                       2,380,353
  Obligations Incurred                                                                                   30,439,413                      28,878,521
  Outlays, Gross                                                                                        (28,194,322)                    (28,300,227)
  Change in Uncollected Customer Payments from Federal Sources                                           (1,827,760)                     (1,121,686)
  Recoveries of Prior Year Unpaid Obligations                                                            (1,870,102)                       (564,486)
  Obligated Balance, End of Year
     Unpaid Obligations, End of Year, Gross                                                               12,494,009                     12,119,020
     Uncollected Customer Payments from Federal Sources, End
        of Year                                                                                         (12,674,305)                    (10,846,545)
  Obligated Balance, End of Year                                                           $               (180,296)      $               1,272,475

Budget Authority and Outlays, Net:
   Budget Authority, Gross                                                                 $             30,588,624       $               28,906,731
   Actual Offsetting Collections                                                                        (28,281,118)                    (28,555,323)
   Change in Uncollected Customer Payments from Federal Sources                                          (1,827,760)                     (1,121,686)
   Budget Authority, Net                                                                   $                479,746       $                (770,278)

    Outlays, Gross                                                                         $             28,194,322       $              28,300,227
    Actual Offsetting Collections                                                                       (28,281,118)                    (28,555,323)
    Agency Outlays, Net                                                                    $                (86,796)      $                (255,096)

The accompanying notes are an integral part of the statements.




                                                                                Protect the Nation, Project Power, Provide Freedom of the Seas   105
Note 1.	 Significant Accounting Policies
1.A.	 Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of
the Navy Working Capital Fund (NWCF), as required by the Chief Financial Officers (CFO) Act of 1990,
expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The financial
statements have been prepared from the books and records of the NWCF in accordance with, and to the extent
possible, U.S. Generally Accepted Accounting Principles (USGAAP) promulgated by the Federal Accounting
Standards Advisory Board (FASAB); the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation (FMR). The
accompanying financial statements account for all resources for which the NWCF is responsible unless otherwise
noted.

The NWCF is unable to fully implement all elements of USGAAP and OMB Circular No. A-136, due to limitations
of financial and nonfinancial management processes and systems that support the financial statements. The
NWCF derives reported values and information for major asset and liability categories largely from nonfinancial
systems, such as inventory and logistic systems. These systems were designed to support reporting requirements
for maintaining accountability over assets and reporting the status of federal appropriations rather than
preparing financial statements in accordance with USGAAP. The NWCF continues to implement process and
system improvements addressing these limitations.

The NWCF currently has 13 auditor identified material weaknesses which are the following: (1) Financial
Management Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Inventory and Related
Property, Net; (5) General Property, Plant, and Equipment; (6) Accounts Payable; (7) Other Liabilities;
(8) Statement of Budgetary Resources; (9) Intragovernmental Eliminations; (10) Unsupported Accounting Entries;
(11) Operating Materials and Supplies (OM&S); (12) Statement of Net Cost; and (13) Reconciliation of Net Cost of
Operations to Budget.

1.B.	 Mission of the Reporting Entity
The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat. 533; 5 U.S.C. 411-
12). The overall mission of DON is to maintain, train, and equip combat-ready Navy and Marine Corps forces
capable of winning wars, deterring aggression, and maintaining freedom of the seas. The NWCF provides goods,
services, and infrastructure to DON and other DoD customers to help ensure our military forces are mobile,
ready, and have the most advanced technology.

1.C.	 Appropriations and Funds
NWCF received funding to establish an initial corpus through an appropriation or a transfer of resources from
existing appropriations or funds. The corpus finances operations which result in transactions that flow through
the fund. The NWCF furnishes goods and services sold to customers on a reimbursable basis and maintains the
corpus. Reimbursable receipts fund future operations and generally are available in their entirety for use without
further congressional action. At various times, Congress provides additional appropriations to supplement the
NWCF as an infusion of cash when revenues are inadequate to cover costs within the corpus. The NWCF uses
these appropriations and funds to execute its mission and subsequently report on resource usage.

1.D.	 Basis of Accounting
The NWCF’s financial management systems are unable to meet all full accrual accounting requirements. Many
of the NWCF’s financial and nonfinancial feeder systems and processes were designed and implemented prior to
the issuance of USGAAP. These systems were not designed to collect and record financial information on the full
accrual accounting basis as required by USGAAP. Most of NWCF’s financial and nonfinancial legacy systems
were designed to record information on a proprietary basis.


106                       Navy Working Capital Fund
The NWCF financial statements and supporting trial balances are compiled from the underlying financial data
and trial balances of the NWCF sub-entities. The underlying data is largely derived from proprietary transactions
from nonfinancial feeder systems, and accruals made for major items such as payroll expenses, accounts payable,
Federal Employees’ Compensation Act (FECA) liabilities, and revenue. Some of the sub-entity level trial balances
may reflect known abnormal balances resulting largely from business and system processes. At the consolidated
NWCF level, these abnormal balances may not be evident. Disclosures of abnormal balances are made in the
applicable footnotes, but only to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes
into compliance with USGAAP. One such action is the conversion of DON’s legacy systems to Navy Enterprise
Resource Planning (ERP) which is designed to modernize and standardize Navy’s business practices. Navy ERP
was developed utilizing the United States Standard General Ledger (USSGL) account structure to better comply
with applicable financial management requirements. Until all NWCF financial and nonfinancial feeder systems
and processes are updated to collect and report financial information as required by USGAAP, financial data will
be derived from proprietary transactions, data from nonfinancial feeder systems, and accruals.

1.E.	 Revenues and Other Financing Sources
The NWCF’s business areas include Depot Maintenance, Supply Management, Research and Development, Base
Support, and Transportation. Each of the NWCF programs recognizes revenues and other financing sources in
the manner described below.

Depot Maintenance NWCF activities recognize revenue according to the percentage of completion method.
Supply Management NWCF activities recognize revenue from the sale of inventory items. Research and
Development NWCF activities recognize revenue according to the percentage of completion method or as actual
costs are incurred and billed. Base Support NWCF activities recognize revenue at the time service is rendered.
Transportation NWCF activities recognize revenue on either a reimbursable or per diem basis. The majority of
per diem projects are billed and collected in the month services are rendered. The remaining per diem projects
accrue revenue in the month the services are rendered. For reimbursable projects, costs and revenue are
recognized in the month services are rendered.

The NWCF does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in the amount reported in the Statement of Net Cost. The U.S. has cost-sharing agreements with
countries having a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S.
Fleet is in a port.

1.F.	 Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. Current financial and nonfinancial feeder systems were not designed to collect and record financial
information on the full accrual accounting basis. Estimates are made for major items, such as payroll expenses,
accounts payable, FECA liabilities, and revenue. Operating, Materials and Supplies (OM&S) and operating
expenses are generally recognized when the items are purchased. Efforts are underway to transition to the
consumption method for recognizing OM&S expenses. Under the consumption method, OM&S would be
expensed when consumed. Due to system limitations, some expenditures for capital and other long-term
assets may be recognized as operating expenses. The NWCF continues to implement process and system
improvements to address these limitations.

1.G.	 Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intra-entity activity and balances from consolidated
financial statements in order to prevent overstatement for business with itself. However, the NWCF cannot
accurately identify intragovernmental transactions by customer because NWCF’s systems do not track buyer
and seller data at the transaction level. Generally, seller entities within the DoD provide summary seller-

                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   107
side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal accounting
offices. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances and are then
eliminated. The DoD is implementing replacement systems and a standard financial information structure
that will incorporate the necessary elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.

The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report
of the United States Government”, provides guidance for reporting and reconciling intragovernmental balances.
While NWCF is unable to fully reconcile intragovernmental transactions with all federal agencies, NWCF is
able to reconcile balances pertaining to FECA transactions with the Department of Labor, and benefit program
transactions with the Office of Personnel Management.

The NWCF’s proportionate share of public debt and related expenses of the Federal Government are not
included. The Federal Government does not apportion debt and its related costs to federal agencies. The
NWCF’s financial statements do not report any public debt, interest, or source of public financing, whether from
issuance of debt or tax revenues.

1.H.	 Transactions with Foreign Governments and International Organizations
Each year, NWCF sells defense articles and services to foreign governments and international organizations
under the provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority
to sell defense articles and services to foreign countries and international organizations generally at no profit or
loss to the Federal Government. Payment in U.S. dollars is required in advance.

1.I.	 Funds with the U.S. Treasury
The NWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of the
Defense Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers
(USACE), and the Department of State’s financial service centers process the majority of the NWCF’s cash
collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports that
provide information to the U.S. Treasury on checks issued, electronic fund transfers, interagency transfers, and
deposits. The disbursing station monthly reports are consolidated at the disbursing office level for financial
reporting purposes.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation
on interagency transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. On a monthly basis DFAS performs a
reconciliation between NWCF FBWT and the U.S. Treasury balance.

1.J.	 Cash and Other Monetary Assets
Cash is the total of cash resources under the control of NWCF which includes coin, paper currency, negotiable
instruments, and amounts held for deposit in banks and other financial institutions. There are no restrictions
on cash.

1.K.	 Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and
refunds receivable. In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 1,
Accounting for Selected Assets and Liabilities, the methodology for losses due to uncollectable amounts are based
on an individual account analysis and/or group analysis. The analysis is based on three years of receivable data.
This data is used to determine the historical percentage of collections in each age category of receivables. The
DON does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims
against other federal agencies are to be resolved between the agencies in accordance with dispute resolution


108                        Navy Working Capital Fund
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual Part 2,
Chapter 4700, Appendix 10, “Intragovernmental Business Rules”.

1.L.	 Inventories and Related Property
The NWCF values approximately 95% of its resale inventory using the Moving Average Cost (MAC) method.
The NWCF reports the remaining 5% of resale inventories at an approximation of historical cost using Latest
Acquisition Cost (LAC) adjusted for holding gains and losses. The LAC method is used because legacy inventory
systems were designed for materiel management rather than accounting. Materiel is a unique term that
relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft,
etc., and related spares, repair parts, and support equipment. Although these systems provide visibility and
accountability over inventory items, they do not maintain historical cost data necessary to comply with SFFAS
No. 3, Accounting for Inventory and Related Property. Additionally, these systems cannot produce financial
transactions using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L.
104-208). The NWCF is continuing to transition the balance of the inventories to the MAC method through the
implementation of Navy ERP. Most transitioned balances, however, were not baselined to auditable historical
cost and remain noncompliant with SFFAS No. 3.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items
owned and managed by NWCF. This inventory is retained to support military or national contingencies.
Inventory held for repair is damaged inventory that requires repair to make it suitable for sale. Often, it is more
economical to repair these items rather than to procure them. The NWCF often relies on weapon systems and
machinery no longer in production and held for repair. As a result, NWCF supports a process that encourages
the repair and rebuilding of weapon systems and machinery. This repair cycle is essential to maintaining a
ready, mobile, and armed military force. Work in process balances include (1) costs related to the production
or servicing of items, including direct material, labor, applied overhead; (2) the value of finished products or
completed services that are yet to be placed in service; and (3) munitions in production and depot maintenance
work with its associated costs incurred in the delivery of maintenance services.

The NWCF manages only military or government-specific materiel under normal conditions. Items commonly
used in and available from the commercial sector are not managed in NWCF’s materiel management activities.
Operational cycles are irregular and the military risks associated with stock-out positions have no commercial
parallel. The NWCF holds materiel based on military need and support for contingencies. The DoD is currently
developing a methodology to be used to account for “inventory held for sale” and “inventory held in reserve for
future sale” under the provisions of SFFAS No. 3, Accounting for Inventory and Related Property.

Related property includes OM&S. NWCF OM&S is categorized as OM&S Held for Use. The OM&S is valued at
LAC. The NWCF uses both the consumption method and the purchase method of accounting for OM&S. Items
that are centrally managed and stored, such as engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption
method, NWCF uses the purchase method. Under this method, materiel and supplies are expensed when
purchased. During FY 2012 and FY 2011, NWCF expensed significant amounts using the purchase method
because the systems could not support the consumption method or management deemed that the item was
in the hands of the end user. This is a material weakness for the DoD and long-term system corrections are in
process. Once the proper systems are in place, these items will be accounted for under the consumption method
of accounting.

1.M.	 General Property, Plant and Equipment
Property, Plant and Equipment (PP&E) consists of two categories: General PP&E, and Stewardship PP&E.
Military Equipment (a classification of General PP&E), Heritage Assets and Stewardship Land (classifications of
Stewardship PP&E) are reported on the financial statements of the DON’s General Fund. The NWCF classifies all
PP&E assets in the General PP&E category. The DoD’s General PP&E capitalization threshold is $100 thousand

                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   109
except for real property, which is $20 thousand. The NWCF has not fully implemented the threshold for real
property: therefore, NWCF is primarily using the capitalization threshold of $100 thousand for General PP&E,
and most real property.

General PP&E assets are capitalized in accordance with SFFAS No. 6, as amended by SFFAS Nos. 10, 23, and
35 when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds DoD’s
capitalization threshold. SFFAS No. 35 amends SFFAS No. 6 permitting the use of estimated PP&E values when
historical cost information is not available. The DoD also requires the capitalization of improvements to existing
General PP&E assets if the improvements equal or exceed the capitalization threshold for General PP&E, extend
the useful life, or increase the size, efficiency, or capacity of the asset. The NWCF depreciates all General PP&E,
other than land, on a straight-line basis.

When it is in the best interest of the government, the NWCF provides government property to contractors to
complete contract work. The NWCF either owns or leases such property, or it is purchased directly by the
contractor for the government based on contract terms. When the value of contractor-procured General PP&E
meets or exceeds the DoD capitalization threshold, federal accounting standards require that it be reported on
NWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that
provides appropriate General PP&E information for financial statement reporting in accordance with Federal
Acquisition Regulations (FAR). The DoD requires NWCF to maintain, in their property systems, information
on all property furnished to contractors. These actions are structured to capture and report the information
necessary for compliance with federal accounting standards. The NWCF has not fully implemented this policy
primarily due to system limitations.

1.N.	Leases
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, lease payments for the
rental of equipment and operating facilities are classified as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), and the value equals or exceeds
the current capitalization threshold, NWCF records the applicable asset as though purchased, with an offsetting
liability, and depreciates it. The NWCF records the asset and the liability at the lesser of the present value of the
rental and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s
implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The NWCF, as
the lessee, receives the use and possession of leased property, for example real estate or equipment, from a lessor
in exchange for a payment of funds. An operating lease does not substantially transfer all the benefits and risk of
ownership. Payments for operating leases are expensed over the lease term as they become payable.

Office space and leases entered into by NWCF are the largest component of operating leases and are based on
costs gathered from existing leases, General Services Administration bills, and interservice support agreements.
Future year projections use the Consumer Price Index.

1.O.	 Other Assets
Other assets include nonfederal advances and prepayments, military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere on NWCF’s
Balance Sheet.

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy as
prescribed in SFFAS No. 1, Accounting for Selected Assets and Liabilities, is to record advances or prepayments
in accordance with USGAAP. As such, payments made prior to the receipt of goods and services should be
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when

110                         Navy Working Capital Fund
the related goods and services are received. The NWCF has not implemented this policy primarily due to
system limitations.

The NWCF conducts business with commercial contractors under two primary types of contracts: fixed price
and cost reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can
cause, NWCF may provide financing payments. Contract financing payments are defined in the FAR, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. It is
DoD policy to record certain contract financing payments as other assets. The NWCF has not fully implemented
this policy primarily due to system limitations.

Advances are cash outlays made by DON GF to its employees, contractors, or others to cover a part or all of the
recipients’ anticipated expenses. Military pay advances are advance payments authorized for purposes intended
to ease hardships imposed by the lack of regular payments when a military member is mobilized, ordered to
duty at distant stations, or deployed aboard ships for more than 30 days. Civilian pay advances are payments
advanced to full time DON civilians intended to finance unusual employee expenses associated with oversea
assignments that are not otherwise reimbursed and to aid foreign assignment recruitment and retention. Travel
advances are disbursed to employees prior to business trips. Travel advances are subsequently reduced when
travel expenses are actually incurred.

Due to inconsistencies in the posting logic for Nonfederal Advances and Prepayments, NWCF is noncompliant
with the Federal Financial Management Improvement Act of 1996 (FFMIA),which requires agencies to comply
with the Federal financial management systems requirements, standards promulgated by the FASAB, and the
USSGL at the transaction level.

1.P.	 Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12,
Recognition of Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty
will be resolved when one or more future events occur or fail to occur. The NWCF recognizes contingent
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but
there is at least a reasonable possibility of incurring a loss or additional losses. The NWCF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events
such as aircraft, ship and vehicle accidents; property or environmental damages; and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for DON NWCF assets. Consistent with SFFAS
No. 6, Accounting for Property, Plant and Equipment, recognition of an anticipated environmental liability begins
when the asset is placed into service. DON NWCF adheres to the DoD’s policy, which is consistent with SFFAS
No. 5 Accounting for Liabilities of Federal Government, and states that non-environmental disposal liabilities are
recognized when management decides to dispose of an asset. The NWCF Environmental Liabilities are reported
under the DON GF.

1.Q.	 Accrued Leave
The NWCF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick
leave for civilians is expensed as taken. The liabilities are based on current pay rates.

1.R.	 Net Position
Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
Appropriations represent the amounts of budget authority that are unobligated and have not been rescinded

                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   111
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
payments have not been incurred. Cumulative Results of Operations represent the net difference between
expenses and losses, and financing sources (including appropriations, revenue, and gains), since inception.
The cumulative results of operations also include donations and transfers in and out of assets that were
not reimbursed.

1.S.	 Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to specific obligations, payables, or receivables in the source systems and
those reported by the U.S. Treasury. Supported disbursements and collections may be evidenced by the
availability of corroborating documentation that would generally support the summary level adjustments
made to accounts payable and receivable. Unsupported disbursements and collections do not have supporting
documentation for the transactions and most likely would not meet audit scrutiny. However, both supported
and unsupported adjustments may have been made to the NWCF Accounts Payable and Receivable trial balances
prior to validating underlying transactions required to establish the Accounts Payable/Receivable. As a result,
misstatements of reported Accounts Payable and Receivables are likely present in the NWCF financial statements.

Due to noted material weaknesses in current accounting and financial feeder systems, the DoD is generally
unable to determine whether undistributed disbursements and collections should be applied to federal or
nonfederal accounts payables/receivables at the time accounting reports are prepared. Accordingly, the DoD
policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts
receivable. Both supported and unsupported undistributed disbursements and collections are then applied to
reduce accounts payable and receivable accordingly.

1.T.	 Military Retirement and Other Federal Employment Benefits
For financial reporting purposes, the DON’s actuarial liability for workers’ compensation benefits is developed
by the Department of Labor and provided to the DON at the end of each fiscal year. Refer to Note 14 Military
Retirement and Other Federal Employment Benefits for additional details and disclosures.


Note 2.	Nonentity Assets
                        As of September 30                                        2012                    2011
                                                         (Amounts in thousands)
1.	Nonfederal Assets
    A. Accounts Receivable                                                $                   8,888   $               6,513

2	Total Entity Assets                                                                    26,800,934              26,059,848

3.	Total Assets                                                           $              26,809,822   $          26,066,361



Nonentity assets are assets for which the Navy Working Capital Fund (NWCF) maintains stewardship
accountability and reporting responsibility, but are not available for the NWCF’s normal operations.

Nonentity Nonfederal Accounts Receivable (Public)
The nonentity nonfederal accounts receivable amount represents interest, penalties, fines and administrative fees
that will be remitted to the U.S. Treasury.




112                          Navy Working Capital Fund
Note 3.	 Fund Balance with Treasury
                         As of September 30                                      2012                           2011
                                              (Amounts in thousands)
1.	Fund Balances
    A.	Revolving Funds                                                 $               1,334,582      $               1,247,786

Status of Fund Balance with Treasury
                         As of September 30                                      2012                            2011
                                              (Amounts in thousands)
1.	Unobligated Balance
    A.	Available                                                       $                3,694,934     $                3,145,928
    B.	 Unavailable                                                                        39,563                         18,156

2.	Obligated Balance not yet Disbursed                                                12,494,009                     12,119,020

3.	Non-FBWT Budgetary Accounts                                                       (14,893,924)                   (14,035,318)

4.	Total                                                               $                1,334,582     $                1,247,786

The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated
balances. The balances reflect the budgetary authority remaining for disbursement against current and
future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary
authority that has not been set aside to cover outstanding obligations.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not
received, and those received but not paid.

Non-FBWT Budgetary Accounts reduces the Status of FBWT. This amount is comprised of contract authority,
accounts receivable, and unfilled orders without advance from customers for the Navy Working Capital Fund.

Other
                         As of September 30                                      2012                           2011
                                              (Amounts in thousands)
1.	Fund Balances Per Treasury Versus Agency
    A.	Fund Balance per Treasury                                       $               1,334,583      $               1,247,787
    B.	 Fund Balance per DON                                                           1,334,582                      1,247,786

2.	Reconciling Amount                                                  $                         1    $                       1




                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   113
Note 4.	Accounts Receivable
                  As of September 30                                                            2012
                                                       (Amounts in thousands)
                                                                                         Allowance For Estimated
                                                                     Gross Amount Due         Uncollectibles           Accounts Receivable, Net
1.	Intragovernmental Receivables                                 $           1,083,381   $                N/A          $           1,083,381
2.	Nonfederal Receivables (From the Public)                                     54,760                 (11,434)                       43,326

3.	Total                                                         $           1,138,141   $             (11,434)        $           1,126,707



                  As of September 30                                                            2011
                                                       (Amounts in thousands)
                                                                                         Allowance For Estimated
                                                                     Gross Amount Due         Uncollectibles           Accounts Receivable, Net
1.	Intragovernmental Receivables                                 $             894,434   $                N/A          $             894,434
2.	Nonfederal Receivables (From the Public)                                     58,413                 (18,418)                       39,995

3.	Total                                                         $             952,847   $             (18,418)        $             934,429



The accounts receivable represent the Navy Working Capital Fund’s (NWCF) claim for payment from other
entities. Intragovernmental Receivables primarily represents amounts due from other federal agencies for
reimbursable work performed pursuant to the Economy Act and other statutory authority. Refer to Note 2,
Nonentity Assets, for additional information on Nonfederal Accounts Receivable. Since the Department of the
Navy (DON) is at risk of not collecting on these public accounts receivable, the DON is recognizing an allowance
for uncollectible amounts. The methodology used in determining the allowance amount is discussed in Notes
1.K. Claims with other federal agencies are resolved in accordance with the Intragovernmental Business Rules.

The DON is currently working on an effort to drive compliance with Office of Management and Budget OMB
Circular A-11, Section 20.4(b)(4). Non-compliance results in unsupported departmental level adjustments which
negatively impacts achievement of the DON’s audit readiness goals for its Statement of Budgetary Resources.
DON is partnering with its service providers to clarify guidance, resolve funding issues and standardize business
practices. In addition, the DON and the Defense Finance and Accounting Service are aggressively pursuing
collection mechanisms for amounts currently due from the public.


Note 5.	Other Assets
                        As of September 30                                               2012                               2011
                                                       (Amounts in thousands)
1.	Intragovernmental Other Assets
     A.	Advances and Prepayments                                                  $                     10         $                         10

2.	Nonfederal Other Assets
    A.	Outstanding Contract Financing Payments                                                  521,037                              461,867
    B.	 Advances and Prepayments                                                              1,105,100                              558,464
    C.	Other Assets (With the Public)                                                             2,311                                1,399
3.	Total Nonfederal Other Assets                                                  $           1,628,448            $               1,021,730

4.	Total                                                                          $           1,628,458            $               1,021,740



Nonfederal Other Assets - Outstanding Contract Financing Payments
Contract terms and conditions for certain types of contract financing payments convey specific rights to the Navy
Working Capital Fund (NWCF) that protect the contract work from state or local taxation, liens or attachment by

114                        Navy Working Capital Fund
the contractor’s creditors, transfer of property, or disposition in bankruptcy. However, these rights should not
be misconstrued to mean that ownership of the contractor’s work has transferred to the Federal Government.
The Federal Government does not have the right to take the work, except as provided in contract clauses related
to termination or acceptance, and NWCF is not obligated to make payment to the contractor until delivery and
acceptance of a satisfactory product.

The balance of Outstanding Contract Financing Payments includes $0.5 billion in contract financing payments
and an additional $26.2 million in estimated incurred but unpaid progress payments. See additional discussion in
Note 12, Other Liabilities.

Nonfederal Other Assets – Advances and Prepayments
Nonfederal Other Assets - Advances and Prepayments increased primarily due to Navy Supply Management
reclassification of Federal Advances and Prepayments to Nonfederal Advances and Prepayments in order to
reconcile seller side trading partner data. The issue has been logged in the Navy Enterprise Resource Planning
Program Management Office Quality Center and NWCF will continue to work on a resolution.

Nonfederal Other Assets – Other Assets
Other Assets (With the Public) consists of prepayments made to vendors and travel advances made to employees.


Note 6.	 Cash and Other Monetary Assets
                         As of September 30                                             2012                           2011
                                              (Amounts in thousands)
1.	Cash                                                                       $                       295     $                    2,452

Navy Working Capital Fund Cash consists of coins, paper currency and readily negotiable instruments. There are
no restrictions on cash.


Note 7.	Inventory and Related Property, Net
                         As of September 30                                             2012                           2011
                                              (Amounts in thousands)
1.	Inventory, Net                                                             $              20,308,607       $            20,315,654
2.	Operating Material & Supplies, Net                                                           176,693                       203,825

3.	Total                                                                      $              20,485,300       $            20,519,479

Inventory, Net
              As of September 30                                                           2012
                                              (Amounts in thousands)
                                                 Inventory Gross Value    Revaluation Allowance       Inventory, Net     Valuation Method
1.	Inventory Categories
     A.	Available and Purchased for Resale      $        8,285,011        $         (934,683)     $        7,350,328       LAC, MAC
     B.	 Held for Repair                                13,086,366                  (159,157)             12,927,209       LAC, MAC
     C.	Excess, Obsolete, and Unserviceable                537,735                  (537,735)                      -            NRV
     D.	Work in Process                                     31,070                         -                  31,070             AC

2.	Total                                        $       21,940,182        $       (1,631,575)     $       20,308,607




                                                                  Protect the Nation, Project Power, Provide Freedom of the Seas      115
                   As of September 30                                                                      2011
                                                                (Amounts in thousands)
                                                                  Inventory Gross Value   Revaluation Allowance       Inventory, Net   Valuation Method
1.	Inventory Categories
     A.	Available and Purchased for Resale                        $        9,870,424      $          834,387      $      10,704,811      LAC, MAC
     B.	 Held for Repair                                                   9,446,780                 103,362              9,550,142      LAC, MAC
     C.	Excess, Obsolete, and Unserviceable                                  582,729                (582,729)                     -           NRV
     D.	Work in Process                                                       60,701                       -                 60,701            AC

2.	Total                                                          $      19,960,634       $          355,020      $      20,315,654

Legend for Valuation Methods:
LAC = Latest Acquistion Cost	  NRV = Net Realizable Value	   MAC = Moving Average Cost
LCM = Lower of Cost or Market	 AC = Actual Cost


General Composition of Inventory
Inventory available and purchased for resale includes consumable spare and repair parts as well as reparable
items owned and managed by the Navy Working Capital Fund (NWCF). Inventory includes all material
available for customer purchase. Inventory is assigned to categories based upon condition of the inventory items,
or in the case of work-in-process, based upon stage of fabrication. Inventory held for repair consists of damaged
materials that are not usable and are awaiting repair before they are eligible for sale. Excess inventory includes
scrap materials or items that are uneconomical to repair and are awaiting disposal. Work in process includes
costs related to the production or servicing of items, including direct material, direct labor, applied overhead, and
other direct costs. Work in process also includes the value of finished products or completed services pending the
submission of bills to the customer.

Federal Accounting Standards require disclosure of the amount of Inventory Held for Future Use. The NWCF
has $0.5 and $0.5 billion reported as of September 30, 2012 and 2011 respectively, in Inventory Held for Future
Sale, Net.

Inventory Valuation
Navy’s inventory is reported using two methods: the approximation of historical cost method and Moving
Average Cost (MAC). The approximation of historical cost is calculated by using the Latest Acquisition Cost
(LAC) less the allowance for holding gains and losses. MAC is calculated each time costs are incurred for a
purchase or a repairable item is remanufactured and subsequently moved to the Held for Use account by
dividing the cost of total units available at the time by the number of total units available at that time. Legacy
inventory systems were designed to capture materiel management information rather than accounting data.
Although these systems provide visibility and accountability over inventory items, they do not maintain
historical cost data necessary to comply with the Statement of Federal Financial Accounting Standards (SFFAS)
No. 3, Accounting for Inventory and Related Property. The Office of Under Secretary of Defense, Comptroller
Cost of Goods Sold Model revalued inventory causing NWCF to be non-compliant with SFFAS No. 3. The Navy
Enterprise Resource Planning System values inventory at MAC in accordance with U.S. Generally Accepted
Accounting Principles. As of September 30, 2012, 95% of NWCF inventory was valued at MAC. The revaluation
of the inventory to MAC occurred in the field accounting system to be compliant with SFFAS No. 3.

The NWCF recognizes excess, obsolete, and unserviceable inventory and Operating Materials and Supplies
(OM&S) at a net realizable value of $0 pending development of an effective means of valuing such materiel.

Restrictions on Use of Inventory
There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

      1) 	 Distributions without reimbursement are made when authorized by Department of Defense directives;



116                                 Navy Working Capital Fund
     2) 	 War reserve materiel in the amount of $65.9 million includes repair items that are considered
          restricted; and
     3) 	 Inventory, with the exception of safety stocks, may be sold to foreign, state, and local governments;
          private parties; and contractors in accordance with current policies and guidance or at the direction of
          the  President.
There are no known restrictions on disposition of inventory as related to environmental or other liabilities.

Operating Materiel and Supplies, Net
                    As of September 30                                                        2012
                                                 (Amounts in thousands)
                                                       OM&S Gross Value      Revaluation Allowance           OM&S, Net      Valuation Method
1.	OM&S Categories
    A.	Held for Use                                $            176,693      $                       -   $        176,693             LAC

2.	Total                                           $            176,693      $                       -   $        176,693


                    As of September 30                                                        2011
                                                 (Amounts in thousands)
                                                       OM&S Gross Value      Revaluation Allowance           OM&S, Net      Valuation Method
1.	OM&S Categories
    A.	Held for Use                                $            203,825      $                       -   $        203,825             LAC

2.	Total                                           $            203,825      $                       -   $        203,825

Legend for Valuation Methods:
LAC = Latest Acquisition Cost


General Composition of Operating Materiel and Supplies
OM&S Held for Use consists of property that is consumed during normal operations and includes consumable
spare and repair parts for use on customer work orders. NWCF only maintains OM&S Held for Use.

Federal Accounting Standards require disclosure of the amount of OM&S Held for Future Use. The NWCF
reports that $0.4 and $0.0 million of OM&S is held for future use and is included in the “held for use” category
as of September 30,2012 and 2011 respectively. These items are not readily available in the market and there is a
more than a remote chance that they will eventually be needed.

Operating Materiel and Supplies Valuation
OM&S is valued at LAC. Using LAC involves a revaluation of OM&S balance based on standard price
information available at fiscal year end. The NWCF does not use allowance accounts to report revaluations made
during the fiscal year. Instead, these adjustments are presented in the financial statements through the use of
gain and loss accounts.

Restrictions on Use of Operating Materials & Supplies
There are no restrictions with regard to the use, sale, or disposition of OM&S applicable to NWCF activities.




                                                                     Protect the Nation, Project Power, Provide Freedom of the Seas      117
Note 8.	 General Property, Plant, & Equipment, Net
               As of September 30                                                                2012
                                                            (Amounts in thousands)
                                                  Depreciation/                                               (Accumulated
                                                  Amortization                                                Depreciation/
                                                    Method         Service Life       Acquisition Value        Amortization)       Net Book Value
1.	Major Asset Classes
    A.	Land                                          N/A             N/A          $            31,272     $            N/A     $          31,272
    B.	 Buildings, Structures, and Facilities        S/L           20 or 40                 6,684,421            (5,244,382)           1,440,039
    C.	Software                                      S/L           2-5 or 10                  364,656              (287,331)              77,325
    D.	General Equipment                             S/L            5 or 10                 2,603,496            (2,118,744)             484,752
    E	 Construction-in-Progress
        (Excludes Military Equipment)                N/A             N/A                      201,078                  N/A               201,078
    F.	 Other                                        N/A             N/A                           14                     -                   14
2.	Total                                                                          $         9,884,937     $      (7,650,457)   $       2,234,480

               As of September 30                                                                2011
                                                            (Amounts in thousands)
                                                  Depreciation/                                               (Accumulated
                                                  Amortization                                                Depreciation/
                                                    Method         Service Life       Acquisition Value        Amortization)       Net Book Value
1.	Major Asset Classes
    A.	Land                                          N/A             N/A          $            31,269     $            N/A     $          31,269
    B.	 Buildings, Structures, and Facilities        S/L           20 or 40                 6,642,569            (5,095,377)           1,547,192
    C.	Software                                      S/L           2-5 or 10                  402,760              (311,388)              91,372
    D.	General Equipment                             S/L            5 or 10                 2,656,854            (2,152,881)             503,973
    E.	 Construction-in-Progress
        (Excludes Military Equipment)                N/A             N/A                      166,657                  N/A               166,657
    F.	 Other                                        N/A             N/A                           12                     -                   12
2.	Total                                                                          $         9,900,121     $      (7,559,646)   $       2,340,475

Legend for Valuation Methods:
S/L = Straight Line	       N/A = Not Applicable


General Composition of General Property, Plant and Equipment
Navy Working Capital Fund (NWCF) General Property, Plant and Equipment (PP&E) consists of land, buildings
and structures, software, general equipment and Construction-in-Progress. General PP&E, Other consists of
assets awaiting disposal.

General Property, Plant and Equipment Valuation
The acquisition cost for General PP&E is captured and maintained in the applicable accountable property systems
of record. There are no material amounts or types of General PP&E for which the acquisition cost is unknown.
The methodology used in capitalizing General PP&E assets is discussed in Note 1.M.

Restrictions on Use of Property, Plant and Equipment
There are no known restrictions on the use or convertibility of PP&E.

Heritage assets and stewardship land are reported on the financial statements of the Department of Navy
General Fund.




118                             Navy Working Capital Fund
Note 9.	Liabilities Not Covered by Budgetary Resources
                          As of September 30                                            2012                               2011
                                                  (Amounts in thousands)
1.	Intragovernmental Liabilities
     A.	Other                                                                $                    168,029          $                161,605

2.	Nonfederal Liabilities
    A.	Military Retirement and Other Federal Employment Benefits                                  757,427                           739,256

3.	Total Liabilities Not Covered by Budgetary Resources                      $                    925,456          $                900,861

4.	Total Liabilities Covered by Budgetary Resources                                            4,845,833                       4,626,504

5.	Total                                                                     $                 5,771,289           $           5,527,365


Liabilities Not Covered by Budgetary Resources are liabilities incurred which are not covered by available
budgetary resources. These include liabilities resulting from the receipt of goods or services in the current or prior
periods, or the occurrence of eligible events in the current or prior periods, for which revenue or other sources
of funds necessary to pay the liabilities have not been made available through Congressional appropriations or
earnings of the entity. Notwithstanding an expectation that the appropriations will be made, whether they in fact
will be made is completely at the discretion of the Congress.

Intragovernmental Liabilities – Other consists of the unfunded portion of Federal Employees’ Compensation
Act (FECA) liability due to the Department of Labor and unemployment compensation due to applicable States.
These liabilities will be funded by future year’s budgetary resources.

Military Retirement and Other Federal Employment Benefits consist of various employee actuarial liabilities not
due and payable during the current fiscal year. These liabilities represent FECA Actuarial liabilities that will
be funded in future periods. Refer to Note 14, Military Retirement and Other Federal Employment Benefits, for
additional details and disclosures.


Note 10.	Accounts Payable
                  As of September 30                                                           2012
                                                  (Amounts in thousands)
                                                                                        Interest, Penalties, and
                                                              Accounts Payable            Administrative Fees               Total
1.	Intragovernmental Payables                             $             184,615                              N/A       $         184,615
2.	Nonfederal Payables (to the Public)                                3,015,987                                 -              3,015,987
3.	Total                                                  $           3,200,602     $                           -      $       3,200,602

                  As of September 30                                                           2011
                                                  (Amounts in thousands)
                                                                                        Interest, Penalties, and
                                                              Accounts Payable            Administrative Fees               Total
1.	Intragovernmental Payables                             $             181,490                              N/A       $         181,490
2.	Nonfederal Payables (to the Public)                                2,799,892                                 -              2,799,892
3.	Total                                                  $           2,981,382     $                           -      $       2,981,382

Accounts Payable includes amounts owed to federal and nonfederal entities for goods and services received by
Navy Working Capital Fund (NWCF). The NWCF’s systems do not track intragovernmental transactions by
customer at the transaction level. As a result, in the intra-governmental eliminations process, buyer-side accounts
payable are adjusted to agree with supportable intra-agency seller-side accounts receivable. This is accomplished
by (1) reclassifying amounts between federal and nonfederal cost categories, (2) accruing additional accounts
payable and expenses, and (3) applying both supported and unsupported undistributed disbursements at the
reporting entity level.

                                                                 Protect the Nation, Project Power, Provide Freedom of the Seas         119
Note 11.	Environmental and Disposal Liabilities
The Navy Working Capital Fund Environmental Liabilities are reported under Department of the Navy
General Fund.


Note 12.	Other Liabilities
                    As of September 30                                                                   2012
                                                          (Amounts in thousands)
                                                                         Current Liability         Noncurrent Liability        Total
1.	Intragovernmental
     A.	Advances from Others                                         $               331,098   $                       -   $           331,098
     B.	 FECA Reimbursement to the Dept. of Labor                                     73,769                      94,261               168,030
     C.	Custodial Liabilities                                                          8,888                           -                 8,888
     D.	Employer Contribution and Payroll Taxes Payable                               23,413                           -                23,413

2.	Total Intragovernmental Other Liabilities                         $               437,168   $                  94,261   $           531,429

3.	Nonfederal
    A.	Accrued Funded Payroll and Benefits                           $            1,039,118    $                       -   $      1,039,118
    B.	 Advances from Others                                                        206,870                            -            206,870
    C.	Deposit Funds and Suspense Accounts                                               60                            -                 60
    D.	Contract Holdbacks                                                               838                            -                838
    E.	 Employer Contribution and Payroll Taxes Payable                               5,005                            -              5,005
    F.	 Contingent Liabilities                                                            -                       26,214             26,214
    G.	Other Liabilities                                                              3,726                            -              3,726
3.	Total Nonfederal Other Liabilities                                $            1,255,617    $                  26,214   $      1,281,831

4.	Total                                                             $            1,692,785    $                120,475    $      1,813,260


                    As of September 30                                                                   2011
                                                          (Amounts in thousands)
                                                                         Current Liability         Noncurrent Liability        Total
1.	Intragovernmental
     A.	Advances from Others                                        $               441,336    $                      -    $           441,336
     B.	 FECA Reimbursement to the Dept. of Labor                                    69,616                      91,988                161,604
     C.	Custodial Liabilities                                                         6,513                           -                  6,513
     D.	Employer Contribution and Payroll Taxes Payable                              22,295                           -                 22,295

2.	Total Intragovernmental Other Liabilities                        $               539,760    $                 91,988    $           631,748

3.	Nonfederal
    A.	Accrued Funded Payroll and Benefits                          $               910,890    $                      -    $           910,890
    B.	 Advances from Others                                                        232,077                           -                232,077
    C.	Deposit Funds and Suspense Accounts                                           (2,502)                          -                 (2,502)
    D.	Contract Holdbacks                                                             1,186                           -                  1,186
    E.	 Employer Contribution and Payroll Taxes Payable                               2,020                           -                  2,020
    F.	 Contingent Liabilities                                                            -                      31,308                 31,308
    G.	Other Liabilities                                                                  -                           -                      -

4.	Total Nonfederal Other Liabilities                               $            1,143,671     $                 31,308    $     1,174,979

5.	Total                                                            $            1,683,431     $                123,296    $     1,806,727



Contingent Liabilities includes $26.2 million related to contracts authorizing progress payments based on cost
as defined in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to


120                           Navy Working Capital Fund
the contractor’s work vest with the Federal Government when a specific type of contract financing payment is
made. This action protects taxpayer funds in the event of contract nonperformance. It is Department of Defense
policy that these rights should not be misconstrued as the rights of ownership. The Navy Working Capital Fund
(NWCF) is under no obligation to pay the contractor for amounts greater than the amounts of progress payments
authorized in the contract until delivery and government acceptance. Due to the probability the contractors will
complete their efforts and deliver satisfactory products, and because the amount of contractor costs incurred but
yet unpaid are estimable, the NWCF has recognized a contingent liability for the estimated unpaid costs that are
considered conditional for payment pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated
costs incurred to date by contractors and amounts authorized to be paid under progress payments based on
cost provisions within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative
unliquidated progress payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total contractor-incurred costs to
determine the contingency amount.


Note 13.	 Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to possible
loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or fail to
occur. A loss contingency is a liability when a past event or exchange transaction has occurred; a future outflow
or other sacrifice of resources is probable; and the future outflow or sacrifice of resources is measurable. In
addition to loss contingencies, the Department of the Navy (DON) also discloses (1) an estimate of obligations
related to cancelled appropriations for which the reporting entity has a contractual commitment for payment,
and (2) amounts for contractual arrangements that may require future financial obligations. Examples of claims
or other contingencies include: (1) indemnity agreements –reimbursements due to licensees or contractors for
losses incurred in support of federal activities; (2) claims against the federal government that are in process of
judicial proceedings; (3) the unfunded portion of total liabilities to international organizations; and (4) litigation
addressing claims for equity relief or non-monetary judgments whereby claimants are seeking specific actions by
the DON.

The Navy Working Capital Fund is a party in various administrative proceedings and legal actions, related to
claims for environmental damage, equal opportunity matters, and contractual bid protests. The DON Office of
General Counsel was unable to express an opinion concerning the likely outcome on any of the cases.


Note 14.	 Military Retirement and Other Federal Employment Benefits
               As of September 30                                                               2012
                                                (Amounts in thousands)
                                                                             Assumed Interest    (Less: Assets Available to
                                                       Liabilities               Rate (%)               Pay Benefits)             Unfunded Liabilities
1.	Other Actuarial Benefits
    A.	FECA                                       $           757,427                            $                        -   $              757,427

               As of September 30                                                               2011
                                                (Amounts in thousands)
                                                                             Assumed Interest    (Less: Assets Available to
                                                       Liabilities               Rate (%)               Pay Benefits)             Unfunded Liabilities
1.	Other Actuarial Benefits
    A.	FECA                                       $           739,256                            $                        -   $              739,256




                                                                     Protect the Nation, Project Power, Provide Freedom of the Seas                      121
The Navy Working Capital Fund (NWCF) reports an actuarial liability for the Federal Employee’s Compensation
Act (FECA). FECA provides federal employees injured in the performance of duty with workers’ compensation
benefits, which include wage-loss benefits for total or partial disability, medical benefits, and vocational
rehabilitation. FECA also provides survivor benefits to eligible dependents if the injury causes the employee’s
death. The FECA is administered by the Office of Workers’ Compensation Programs.

Actuarial Cost Method Used
The NWCF actuarial liability includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period
to predict the ultimate payments related to that period. The liability for FECA benefits is developed by the
Department of Labor and provided to the Department of Navy (DON) at the end of each fiscal year. The liability
is distributed between the NWCF and DON General Fund based upon the number of civilian employees funded
in each entity as reported in the Navy Budget Tracking System. The estimated actuarial liability is updated only
at the end of each fiscal year.

Assumptions
Consistent with past practice, the projected annual FECA payments are discounted to the present value using
Office of Management and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds.

The interest rate assumptions utilized when discounting are as follows:

	Discount Rates
	   2.293% in Year 1
	   3.138% in Year 2 and thereafter

To provide more specificity concerning the effects of inflation on the liability for future workers’ compensation
benefits, wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer
price index medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for
these factors for the charge back year (CBY) 2012 were also used to adjust the methodology’s historical payments
to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

	       CBY	 COLA	CPIM
	       2012	N/A	N/A
	       2013	 2.83%	3.65%
	       2014	 2.03%	3.66%
	       2015	 1.93%	3.72%
	       2016	 2.00%	3.73%
	       2017	 2.03%	3.80%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of
the percentage change in the liability amount to the percentage change in the actual incremental payments,
(3) a comparison of the incremental paid losses per case (a measure of case-severity) in CBY 2012 to the average
pattern observed during the most current three charge back years, and (4) a comparison of the estimated liability
per case in the Discount Rates projection to the average pattern for the projections of the most recent three years.




122                        Navy Working Capital Fund
Note 15.	Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
                            As of September 30                                      2012                           2011
                                                 (Amounts in thousands)
1.	Intragovernmental Costs                                                $              4,932,504       $               6,219,209
2.	Public Costs                                                                         30,538,293                      40,021,325
3.	Total Costs                                                            $             35,470,797       $              46,240,534

4.	Intragovernmental Earned Revenue                                       $            (25,935,532)      $             (25,540,258)
5.	Public Earned Revenue                                                                (7,490,206)                    (29,174,332)
6.	Total Earned Revenue                                                   $            (33,425,738)      $             (54,714,590)

7.	Net Cost of Operations                                                 $               2,045,059      $              (8,474,056)


The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal
Government that are supported by appropriations or other means. The intent of the SNC is to provide gross
and net cost information related to the amount of output or outcome for a given program or organization
administered by a responsible reporting entity. The Department of Defense’s (DoD) current processes and
systems do not capture and report accumulated cost for major programs based upon the performance measures
as required by the Government Performance and Results Act. The DoD is in the process of reviewing available
data and developing a cost reporting methodology as required by the Statement of Federal Financial Accounting
Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government, as
amended by SFFAS No. 30, Inter-entity Cost Implementation.

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the
Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.
Large balances in the Public costs and revenue lines are a result of the current process in Navy Enterprise
Resource Planning. The process produces inflated gains and offsetting losses, however, the impact on Net Cost is
reduced when the gains and losses are combined. The Navy is currently working to resolve the business process
that results in daily postings to the gain and loss accounts for in-transit inventory.

The Navy Working Capital Fund’s financial management systems do not track intragovernmental transactions
by customer at the transactional level. Buyer-side expenses are adjusted to agree with internal seller-side
revenues. Expenses are generally adjusted by reclassifying amounts between federal and nonfederal expenses.
Intradepartment revenues and expenses are then eliminated.


Note 16.	Disclosures Related to the Statement of Changes in Net Position
There is an abnormal balance in the Appropriations Used balance as of September 30, 2012. This abnormal
balance occurred due to an error overstating expended appropriations associated with the War Reserve Material
obligations and liquidations utilized by the United States Marine Corps.

The Statement of Changes in Net Position (SCNP) reports the change in net position during the reporting
period. Net position is affected by changes to its two components: Cumulative Results of Operations and
Unexpended Appropriations.




                                                               Protect the Nation, Project Power, Provide Freedom of the Seas   123
Note 17.	Disclosures Related to the Statement of Budgetary Resources
                        As of September 30                                         2012               2011
                                                      (Amounts in thousands)
1.	Net Amount of Budgetary Resources Obligated for Undelivered
  Orders at the End of the Period                                              $      9,351,801   $      8,931,466



Apportionment Categories of Obligations Incurred
Obligations Incurred – Direct			            Category A 		             $0
Obligations Incurred – Reimbursable 		      Category B		              $30.4 billion
Obligations Incurred – Reimbursable		       Exempt from 		            $0
						Apportionment
Other Disclosures
The Statement of Budgetary Resources includes intra-entity transactions because the statements are presented
as combined.




124                       Navy Working Capital Fund
Note 18.	Reconciliation of Net Cost of Operations to Budget
                          As of September 30                                           2012                            2011
                                                   (Amounts in thousands)
Resources Used to Finance Activities:
    Budgetary Resources Obligated:
        1.	 Obligations Incurred                                             $              30,439,413      $              28,878,521
        2.	 Less: Spending Authority from Offsetting Collections and
            Recoveries                                                                    (31,978,984)                    (30,241,496)
        3.	 Net Obligations                                                                (1,539,571)                     (1,362,975)
    Other Resources:
        4.	 Transfers In/Out Without Reimbursement                                             341,583                        (85,696)
        5.	 Imputed Financing from Costs Absorbed by Others                                    538,390                        578,014
        6.	 Other                                                                            1,664,623                     (1,739,162)
       7.	 Net Other Resources Used to Finance Activities                                    2,544,596                     (1,246,844)
8.	Total Resources Used to Finance Activities                                $               1,005,025      $              (2,609,819)

Resources Used to Finance Items Not Part of the Net Cost of
  Operations:
      9.	 Change in Budgetary Resources Obligated for Goods,
          Services, and Benefits Ordered but Not Yet Provided:
             9a.	 Undelivered Orders                                         $                (420,335)     $                (599,813)
             9b.	 Unfilled Customer Orders                                                   1,587,250                      1,433,376
      10.	Resources That Fund Expenses Recognized in Prior Periods                              (2,565)                       (33,015)
      11.	Resources That Finance the Acquisition of Assets                                  (7,729,627)                    (9,030,214)
      12.	Other Resources or Adjustments to Net Obligated Resources
          That Do Not Affect Net Cost of Operations:
             12a.	 Other                                                                    (2,006,205)                     1,824,857
13.	Total Resources Used to Finance Items Not Part of the Net Cost of
    Operations                                                               $              (8,571,482)     $              (6,404,809)
14.	Total Resources Used to Finance the Net Cost of Operations               $              (7,566,457)     $              (9,014,628)
Components of the Net Cost of Operations That Will Not Require or
  Generate Resources in the Current Period:
    Components Requiring or Generating Resources in Future Period:
       15.	Other                                                             $                   27,161     $                        -
       16.	Total Components of Net Cost of Operations That Will
           Require or Generate Resources in Future Periods                                       27,161                              -
    Components Not Requiring or Generating Resources:
       17.	Depreciation and Amortization                                                       303,927                         367,940
       18.	Revaluation of Assets or Liabilities                                              1,977,398                         723,819
       19.	Other
              19a.	 Cost of Goods Sold                                                     11,011,284                       8,307,478
              19b.	 Other                                                                  (3,708,254)                     (8,858,665)
       20.	Total Components of Net Cost of Operations That Will Not
           Require or Generate Resources                                                     9,584,355                         540,572
21.	 Total Components of Net Cost of Operations That Will Not Require
     or Generate Resources in the Current Period                             $               9,611,516      $                 540,572
22.	Net Cost of Operations                                                   $               2,045,059      $              (8,474,056)




                                                                  Protect the Nation, Project Power, Provide Freedom of the Seas   125
The Reconciliation of Net Cost of Operations to Budget provides information about the total resources used by
the Navy Working Capital Fund (NWCF). It is designed to explain how those resources were used to finance
orders for goods and services not yet delivered, acquire assets and liabilities, and fund the NWCF’s net cost of
operations. It is intended to report the differences and facilitate the reconciliation of accrual based amounts
used in the Statement of Net Cost (SNC) and obligation-based amounts used in the Statement of Budgetary
Resources. The computations and presentation of items in the Reconciliation of Net Cost of Operations to Budget
demonstrate that the budgetary and proprietary information in an entity’s financial management system agrees.

Due to NWCF financial system limitations, budgetary data does not agree with proprietary expenses and
capitalized assets. The difference between budgetary and proprietary data is a previously identified deficiency.
As a result of these system limitations, resources that finance the acquisition of assets on the reconciliation of Net
Cost of Operations to Budget were adjusted downward by $6.8 billion (absolute amount) as of September 30, 2012
to bring it into balance with the SNC.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of
consolidated due to intra-agency budgetary transactions not being eliminated:

       Obligations Incurred
       Less: Spending Authority from Offsetting Collections and Recoveries
       Obligations Net of Offsetting Collections and Recoveries
       Less: Offsetting Receipts
       Net Obligations
       Undelivered Orders
       Unfilled Customer Orders


Other Components not Requiring or Generating Resources consists of overhead costs distributed to work in
process, as well as costs originally recorded into another expense account that are transferred to one of three
accounts: inventory work in process, internal use software in development, or completed assets. The legacy cost
of goods sold increase was a result of inventory revaluation from Latest Acquisition Cost to standard price prior
to conversion to Navy Enterprise Resource Planning (ERP). The Navy ERP increase was a result of the inventory
revaluation from standard price to Moving Average Cost, and multiple duplicated postings with incorrect unit
price values.


Note 19.	Disclosures Related to Incidental Custodial Collections
Navy Working Capital Fund (NWCF) collected $11.5 million of incidental custodial revenues generated primarily
from surcharges, interest, penalties, fines and administrative fees. These funds are not available for use by
NWCF. At the end of each fiscal year, the accounts are closed and the balances rendered to the U.S. Treasury.




126                         Navy Working Capital Fund
Navy Working Capital Fund Required
Supplementary Information
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   127
      Navy Working Capital Fund Required Supplementary Information
                                          Navy Working Capital Fund
                                     General Property, Plant, and Equipment
                                 Real Property Deferred Maintenance and Repair
                                          For Fiscal Year Ended September 30, 2012


The Navy Working Capital Fund real property deferred maintenance and repair information for fiscal year
ended September 30, 2012 is reported with the Department of the Navy (DON) General Fund (GF) deferred
maintenance and repair. See DON GF Required Supplementary Information.




128                      Navy Working Capital Fund
Navy Working Capital Fund Other
Accompanying Information
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   129
           Navy WORKING CAPITAL FUND Other Accompanying Information

Appropriations, Funds, and Accounts Included in the Principal Statements

Reporting Entity
Navy Working Capital Fund (NWCF)

Fund/Account Treasury Symbol and Title
	97X4930.002

Navy Working Capital Fund Activity Group Treasury Symbol and Title
	 97X4930.NA1* 	 Depot Maintenance – Shipyardsa
	 97X4930.NA2* 	 Depot Maintenance – Aviation
	 97X4930.NA4A* 	 Depot Maintenance – Other, Marine Corps
	 97X4930.NA3* 	 Ordnanceb
	   97X4930.ND* 	 Transportation
	    97X4930.NE* 	 Base Support
	   97X4930.NH* 	 Research and Development
	    97X4930.NC* 	 Supply Management
	 97X4930.NC2A* 	 Supply Management, Marine Corps

Notes
*	 The * represents alpha or numeric characters which identify an activity or reporting segment of the
   activity group.

a	 Depot Maintenance, Shipyards became a part of the Department of the Navy (DON) General Fund (GF)
   in FY 2007. The Depot Maintenance, Shipyards information included in this report represents residual
   NWCF accounting.

b	 The Ordnance activity group became a part of the DON GF in FY 2000. The Ordnance information included in
   this report represents residual NWCF accounting for this group.




130                       Navy Working Capital Fund
Audit Opinions
Department of the Navy Fiscal Year 2012 Annual Financial Report




                                              Protect the Nation, Project Power, Provide Freedom of the Seas   131
132
                                                     Inspector General
                                                      Department of Defense
                                                       4800 Mark Center Drive
                                                   Alexandria, Virginia 22350-1500



                                                                                                                      November 9, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
			              MANAGEMENT AND COMPTROLLER)

SUBJECT: 	 Independent Auditor’s Report on the Department of the Navy General Fund FY 2012 and FY 2011
		         Financial Statements (Report No. DODIG-2013-012)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General to
audit the accompanying Department of the Navy General Fund Consolidated Balance Sheet as of September
30, 2012 and 2011, and the Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net
Position, Combined Statement of Budgetary Resources, and related notes for the fiscal years then ended. The
financial statements are the responsibility of the Department of the Navy management. Management is also
responsible for implementing effective internal control and for complying with laws and regulations. In addition,
management is responsible for implementing and maintaining financial management systems that comply with
the requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA). Our responsibility is
to express an opinion on the financial statements based on our audit.

We are unable to express an opinion on the Navy General Fund FY 2012 and FY 2011 Basic Financial Statements
because of limitations on the scope of our work. Thus, the financial statements may be unreliable. In addition,
to our disclaimer, we are including the required report on Internal Control and Compliance With Laws and
Regulations. This report is an integral part of our opinion report on the financial statements and should be
considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) represented to us that the
Department of the Navy General Fund FY 2012 and FY 2011 Annual Financial Statements would not substantially
conform to accounting principles generally accepted in the United States of America (U.S. GAAP) and that
the Department of the Navy financial management and feeder systems were unable to adequately support
material amounts on the financial statements as of September 30, 2012. Section 1008(d) of the FY 2002 National
Defense Authorization Act limits the Department of Defense Inspector General to performing only those
audit procedures required by generally accepted auditing standards that are consistent with the management
representations made to us. Accordingly, we did not perform all the auditing procedures required by generally
accepted government auditing standards and Office of Management and Budget (OMB) Bulletin 07-04, “Audit
Requirements for Federal Financial Statements,” September 4, 2007, as amended1 to determine whether material
amounts on the financial statements were presented fairly.

Prior audits have identified, and the Department of the Navy has also acknowledged, the long-standing material
internal control weaknesses identified in the Summary of Internal Control. These material internal control



1
 	 OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statement,”
   September 23, 2009.

                                                                       Protect the Nation, Project Power, Provide Freedom of the Seas   133
weaknesses may affect the reliability of certain information contained in the annual financial statements–much
of which is taken from the same data sources.2 Therefore, we are unable to express, and we do not express, an
opinion on the Basic Financial Statements.

Summary of Internal Control
In planning our work, we considered the Department of the Navy internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our audit procedures and to comply
with OMB guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do
not express an opinion on internal control over financial reporting and compliance with applicable laws and
regulations. However, previously identified significant deficiencies, all of which are material, continue to exist in
the following areas.

       Financial Management Systems
       Fund Balance With Treasury
       Problem Disbursements
       Unobligated Balances
       Accounts Receivable
       Inventory and Related Property, Net
       General Property, Plant, and Equipment
       Accounts Payable
       Other Assets
       Statement of Changes in Net Position
       Statement of Net Cost

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

A control deficiency exists when the design or operation of a control does not allow management or employees,
in the normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis.
A significant deficiency is a deficiency or a combination of deficiencies, in internal control that is less severe than
a material weakness, yet important enough to merit attention by those charged with governance.

Internal control work we conducted as part of our prior audits would not necessarily disclose all deficiencies.
The Attachment offers additional details on significant deficiencies, all of which we consider to be material
weaknesses.

Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations
related to financial reporting because management represented that instances of noncompliance identified in
prior audits continue to exist. The Assistant Secretary of the Navy (Financial Management and Comptroller)
represented to us that the Department of the Navy financial management systems do not substantially comply
with Federal financial management systems requirements, U.S. GAAP, and the U.S. Government Standard



2
 	 The annual financial statements include the Basic Financial Statements, Management Discussion and Analysis, Required Supplementary Stew-
   ardship Information, Required Supplementary Information, and Other Accompanying Information.

134
General Ledger at the transaction level. Therefore, we did not determine whether the Department of the Navy
complied with all applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and, accordingly,
we do not express such an opinion. See the Attachment for additional details on compliance with laws and
regulations.

Other Information in the Annual Financial Statements
The Department of the Navy Management Discussion and Analysis, Required Supplementary Information, and
Other Accompanying Information in the financial statements include a wide range and detailed information
and do not affect our opinion on the financial statements. The information is presented for use by management
and those charged with governance and should not be used for other purposes. We did not audit and do not
express an opinion on the information. We compared the information with the Department of the Navy financial
statements for consistency. Based on our limited work, we did not find any material inconsistencies between the
information and the financial statements and applicable sections of OMB Circular No. A-136 (Revised), “Financial
Reporting Requirements,” August 3, 2012.

Scope and Methodology
Management is responsible for:

     preparing financial statements that conform with U.S. GAAP;
     establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
       control objectives of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) are met;
     ensuring that the Department of the Navy financial management systems substantially comply with
       FFMIA requirements; and
     complying with applicable laws and regulations.

We are responsible for planning and performing the audit to obtain reasonable assurance and to provide an
opinion on whether the Department of the Navy financial statements are presented fairly, in all material respects,
in conformity with U.S. GAAP. We are also responsible for (1) testing whether the Department of the Navy
financial management systems substantially comply with the three FFMIA requirements, (2) testing compliance
with selected provisions of laws and regulations that have direct and material effect on the financial statements
and laws for which OMB audit guidance requires testing, and (3) performing limited procedures with respect to
certain other information appearing in the Annual Financial Statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by FMFIA, such as
those controls relevant to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing over financial reporting and compliance to previously identified significant deficiencies, all of
which are material and continue to exist. Because of inherent limitations in internal controls, misstatements due
to error or fraud, losses, or noncompliance may nevertheless occur and not be detected.

Because of the significance of the limitations on the scope of our work, we were unable to and did not perform
our audit of internal control in accordance with U.S. GAAP and OMB audit guidance. We considered the
limitation on the scope of our work in forming conclusions and in testing the financial statements.

We performed our audit in accordance with U.S. generally accepted government auditing standards. We believe
our audit provides a reasonable basis for our opinions and other conclusions.




                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   135
Agency Comments and Our Evaluation
Department of the Navy management provided comments to the draft opinion report. The comments were
responsive and management generally concurred with the material weaknesses. Management is preparing
corrective action plans to address the material weaknesses as part of their audit readiness effort.

This report is intended solely for the information and use of the Department’s management, DoD Office of
Inspector General, Office of Management and Budget, Government Accountability Office, and Congress and is
not intended to be used by anyone other than these specified parties.




				                                                   Lorin T. Venable, CPA
				                                                   Acting Assistant Inspector General
				                                                   DoD Payments and Accounting Operations




Attachment:
As stated




136
                                     Report on Internal Control and
                                  Compliance With Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control to include providing
reasonable assurance that the Department of the Navy personnel accumulated, recorded, and reported
accounting data properly; met the requirements of applicable laws and regulations; and safeguarded assets
against misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal
control over financial reporting. However, the following material weaknesses and significant deficiencies exist
that could adversely affect the Department of the Navy financial reporting.

Material Weaknesses
Management acknowledged that it is unable to comply with applicable reporting requirements and previously
identified significant deficiencies, all of which are material, continue to exist in the following areas.

Financial Management Systems
The Department of the Navy financial management systems and feeder systems do not comply with Federal
financial management system requirements, U.S. GAAP, and U.S. Government Standard General Ledger.

Fund Balance With Treasury, Problem Disbursements and Unobligated Balances - Retitled as Financial
Reporting of Collections and Disbursements

       Fund Balance With Treasury. Deficiencies associated with Fund Balance with Treasury include
       undistributed disbursements, collections, and abnormal balances and the inability to reconcile the
       Department of the Navy General Fund records with the Department of the Treasury records and the
       Statement of Budgetary Resources.

       Problem Disbursements. Inaccurate or missing accounting data have resulted in unmatched
       disbursements and collections and an inability to reconcile the Department of the Navy General Fund
       records with the Department of the Treasury records.

       Unobligated Balances. Deficiencies exist in recorded unobligated amounts because financial systems are
       not fully integrated, and not all commands sufficiently review unliquidated obligations. Additionally,
       reimbursable transactions are not properly documented or reported on the Disbursing Officer Statement
       of Accountability.

Accounts Receivable - Retitled as Financial Reporting of Plan to Perform/Order to Cash
There are two deficiencies associated with the Accounts Receivable line: audit trails are inadequate and the
accounts receivable sub-ledgers do not reconcile with the general ledger.

Inventory and Related Property, Net - Retitled as Financial Reporting of Operating Materials and Supplies
Legacy systems do not maintain the historical cost data necessary to comply with Statement of Federal Financial
Accounting Standards No. 3, “Accounting for Inventory and Related Property.” In addition, completeness issues
exist because the legacy systems were not designed to provide the value of Operating Materials and Supplies
using the moving average cost method and to ensure that all of the items are included in the values reported
on the Balance Sheet. Some Department of the Navy commands have not used the consumption method for
expensing Operating Materials and Supplies.


                                                                                                              Attachment
                                                                                                              Page 1 of 3

                                                            Protect the Nation, Project Power, Provide Freedom of the Seas   137
General Property, Plant, and Equipment – Retitled as Financial Reporting of General Equipment, Real
Property, and Military Equipment
Completeness issues may exist with recognizing internal use software and leasehold improvements. The
Department of the Navy is currently working with the Under Secretary of Defense (Acquisition, Technology,
and Logistics) and the Navy major commands to fully implement Statement of Federal Financial Accounting
Standards No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment.” In addition, the
Department of the Navy is working with the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD, to ensure that documentation for real property is available, beginning with FY 1999; an imputed cost policy
is properly implemented; and Form DD 1354, “Transfer and Acceptance of Military Property,” is properly used
throughout the Department of the Navy.

Accounts Payable and Other Assets - Retitled as Financial Reporting of Procure to Pay and Disbursements
      Accounts Payable. The Department of the Navy intragovernmental accounts payable transactions,
      such as military standard requisitioning and issue procedures, fuel payables, and non-PowerTrack
      transportation, are not being recorded promptly, completely, or accurately. In addition, some existing
      Department of the Navy procedures create abnormal balances.

       Other Assets. The Department of the Navy acknowledged deficiencies in contract financing progress
       payments that are included in the other assets line item on the balance sheet.

Statement of Changes in Net Position
The Navy accounts (such as revenue, expenses, gains, losses, and prior-period adjustments, closing to this
statement) are not ready for assessment.

Statement of Net Cost
The Statement of Federal Financial Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” requires agencies to provide reliable and timely information on the full
cost of Federal programs, activities, and outputs. Currently, the Department of the Navy derives from budgetary
accounts, and not on an accrual basis, the Intragovernmental Gross Costs and the Gross Costs with the Public, as
well as Intragovernmental Earned Revenue and Earned Revenue From the Public.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We
limited our work to determining compliance with selected provisions of the applicable laws and regulations
because management acknowledged instances of noncompliance, and previously reported instances of
noncompliance continue to exist. Therefore, we did not determine whether the Department of the Navy was in
compliance with selected provisions of all applicable laws and regulations related to financial reporting. Our
objective was not to, and we do not, express an opinion on compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996
FFMIA requires DoD to establish and maintain financial management systems that comply substantially with
the Federal financial management systems requirements, applicable Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level.

For FY 2012, the Department of the Navy did not fully comply with FFMIA. The Department of the Navy
acknowledged that many of its critical financial management and feeder systems did not substantially comply
with the Federal financial management systems requirements, Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level as of September 30, 2012.

                                                                                                  Attachment
                                                                                                  Page 2 of 3

138
Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341) limits the Navy and its agents to making or
authorizing expenditures or obligations that do not exceed the available appropriations or funds. Additionally,
the Navy or its agents may not contract or obligate for the payment of money before an appropriation is made
available for that contract or obligation unless otherwise authorized by law. According to 31 U.S.C. § 1351, if an
officer or employee of an executive agency violates the Antideficiency Act, the head of the agency must report
immediately to the President and Congress all relevant facts and a statement of actions taken. During FY 2012,
the Department of the Navy General Fund reported no potential or actual Antideficiency Act violations.

Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us that the
Department of the Navy financial management and feeder systems could not provide adequate evidence
supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously identified
material weaknesses. In addition, we did not perform audit work related to the following laws and regulations:
Government Performance and Results Act, Prompt Payment Act, Provisions Governing Claims of the United
States Government (including provisions of the Debt Collection Improvement Act), Federal Credit Reform Act,
Improper Payments Information Act, and the Pay and Allowance System for Civilian Employees.

Recommendations
This report does not include recommendations to correct the material weaknesses and instances of noncompliance with
laws and regulations because previous audit reports contained recommendations for corrective actions or because audit
projects currently in process will include appropriate recommendations.




                                                                                                                 Attachment
                                                                                                                 Page 3 of 3

                                                               Protect the Nation, Project Power, Provide Freedom of the Seas   139
140
                                                     Inspector General
                                                      Department of Defense
                                                       4800 Mark Center Drive
                                                   Alexandria, Virginia 22350-1500



                                                                                                                      November 9, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
			MANAGEMENT AND COMPTROLLER)

SUBJECT: 	 Independent Auditor’s Report on the Department of the Navy Working Capital Fund FY 2012 and
	          FY 2011 Financial Statements (Report No. DODIG-2013-014)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense Inspector General
to audit the accompanying Department of the Navy Working Capital Fund Consolidated Balance Sheet as of
September 30, 2012 and 2011, and the Consolidated Statement of Net Cost, Consolidated Statement of Changes
in Net Position, Combined Statement of Budgetary Resources, and related notes for the fiscal years then ended.
The financial statements are the responsibility of the Department of the Navy management. Management is also
responsible for implementing effective internal control and for complying with laws and regulations. In addition,
management is responsible for implementing and maintaining financial management systems that comply with
the requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA). Our responsibility is
to express an opinion on the financial statements based on our audit.

We are unable to express an opinion on the Navy Working Capital Fund FY 2012 and FY 2011 Basic Financial
Statements because of limitations on the scope of our work. Thus, the financial statements may be unreliable. In
addition, to our disclaimer, we are including the required report on Internal Control and Compliance With Laws
and Regulations. This report is an integral part of our opinion report on the financial statements and should be
considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Navy (Financial Management and Comptroller) represented to us that the
Department of the Navy Working Capital Fund FY 2012 and FY 2011 Annual Financial Statements would not
substantially conform to accounting principles generally accepted in the United States of America (U.S. GAAP)
and that the Department of the Navy financial management and feeder systems were unable to adequately
support material amounts on the financial statements as of September 30, 2012. Section 1008(d) of the FY 2002
National Defense Authorization Act limits the Department of Defense Inspector General to performing only those
audit procedures required by generally accepted auditing standards that are consistent with the management
representations made to us. Accordingly, we did not perform all the auditing procedures required by generally
accepted government auditing standards and Office of Management and Budget (OMB) Bulletin 07-04, “Audit
Requirements for Federal Financial Statements,” September 4, 2007, as amended1 to determine whether material
amounts on the financial statements were presented fairly.




1
 	 OMB Memorandum M-09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for Federal Financial Statement,”
   September 23, 2009.


                                                                       Protect the Nation, Project Power, Provide Freedom of the Seas   141
Prior audits have identified, and the Department of the Navy has also acknowledged, the long-standing material
internal control weaknesses identified in the Summary of Internal Control. These material internal control
weaknesses may affect the reliability of certain information contained in the annual financial statements–much
of which is taken from the same data sources.2 Therefore, we are unable to express, and we do not express, an
opinion on the Basic Financial Statements.

Summary of Internal Control
In planning our work, we considered the Department of the Navy internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our audit procedures and to comply
with OMB guidance, but our purpose was not to express an opinion on internal control. Accordingly, we do
not express an opinion on internal control over financial reporting and compliance with applicable laws and
regulations. However, previously identified significant deficiencies, all of which are material, continue to exist in
the following areas.

       Financial Management Systems
       Fund Balance With Treasury
       Accounts Receivable
       Inventory and Related Property, Net
       General Property, Plant, and Equipment
       Accounts Payable
       Other Liabilities
       Statement of Budgetary Resources
       Intragovernmental Eliminations
       Unsupported Accounting Entries
       Operating Materiels and Supplies
       Statement of Net Cost
       Reconciliation of Net Cost of Operations to Budget

A material weakness is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.

A control deficiency exists when the design or operation of a control does not allow management or employees,
in the normal course of performing their assigned functions, to prevent or detect misstatements on a timely basis.
A significant deficiency is a deficiency or a combination of deficiencies, in internal control that is less severe than
a material weakness, yet important enough to merit attention by those charged with governance.

Internal control work we conducted as part of our prior audits would not necessarily disclose all deficiencies.
The Attachment offers additional details on significant deficiencies, all of which we consider to be material
weaknesses.




2
 	 The annual financial statements include the Basic Financial Statements, Management Discussion and Analysis, Required Supplementary
   Stewardship Information, Required Supplementary Information, and Other Accompanying Information.

142
Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and regulations
related to financial reporting because management represented that instances of noncompliance identified in
prior audits continue to exist. The Assistant Secretary of the Navy (Financial Management and Comptroller)
represented to us that the Department of the Navy financial management systems do not substantially comply
with Federal financial management systems requirements, U.S. GAAP, and the U.S. Government Standard
General Ledger at the transaction level. Therefore, we did not determine whether the Department of the Navy
complied with all applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and accordingly,
we do not express such an opinion. See the Attachment for additional details on compliance with laws and
regulations.

Other Information in the Annual Financial Statements
The Department of the Navy Management Discussion and Analysis, Required Supplementary Information, and
Other Accompanying Information in the financial statements include a wide range and detailed information
and do not affect our opinion on the financial statements. The information is presented for use by management
and those charged with governance and should not be used for other purposes. We did not audit and do not
express an opinion on the information. We compared the information with the Department of the Navy financial
statements for consistency. Based on our limited work, we did not find any material inconsistencies between the
information and the financial statements and applicable sections of OMB Circular No. A-136 (Revised), “Financial
Reporting Requirements,” August 3, 2012.

Scope and Methodology
Management is responsible for:

     preparing financial statements that conform with U.S. GAAP;
     establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad
       control objectives of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) are met;
     ensuring that the Department of the Navy financial management systems substantially comply with
       FFMIA requirements; and
     complying with applicable laws and regulations.

We are responsible for planning and performing the audit to obtain reasonable assurance and to provide an
opinion on whether the Department of the Navy financial statements are presented fairly, in all material respects,
in conformity with U.S. GAAP. We are also responsible for (1) testing whether the Department of the Navy
financial management systems substantially comply with the three FFMIA requirements, (2) testing compliance
with selected provisions of laws and regulations that have direct and material effect on the financial statements
and laws for which OMB audit guidance requires testing, and (3) performing limited procedures with respect to
certain other information appearing in the Annual Financial Statements.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by FMFIA, such as
those controls relevant to preparing statistical reports and ensuring efficient operations. We limited our internal
control testing over financial reporting and compliance to previously identified significant deficiencies, all of
which are material and continue to exist. Because of inherent limitations in internal controls, misstatements due
to error or fraud, losses, or noncompliance may nevertheless occur and not be detected.

Because of the significance of the limitations on the scope of our work, we were unable to and did not perform
our audit of internal control in accordance with U.S. GAAP and OMB audit guidance. We considered the
limitation on the scope of our work in forming conclusions and in testing the financial statements.


                                                             Protect the Nation, Project Power, Provide Freedom of the Seas   143
We performed our audit in accordance with U.S. generally accepted government auditing standards. We believe
our audit provides a reasonable basis for our opinions and other conclusions.

Agency Comments and Our Evaluation
Department of the Navy management provided comments to the draft opinion report. The comments were
responsive and management generally concurred with the material weaknesses. Management is preparing
corrective action plans to address the material weaknesses as part of their audit readiness effort.

This report is intended solely for the information and use of the Department’s management, DoD Office of
Inspector General, Office of Management and Budget, Government Accountability Office, and Congress and is
not intended to be used by anyone other than these specified parties.




				                                                    Lorin T. Venable, CPA
				                                                    Acting Assistant Inspector General
				                                                    DoD Payments and Accounting Operations




Attachment:
As stated




144
                                      Report on Internal Control and
                                   Compliance With Laws and Regulations

Internal Control
Management is responsible for implementing and maintaining effective internal control to include providing
reasonable assurance that Department of the Navy personnel accumulated, recorded, and reported accounting
data properly; met the requirements of applicable laws and regulations; and safeguarded assets against
misappropriation and abuse. Our purpose was not to, and we do not, express an opinion on internal control over
financial reporting. However, the following material weaknesses and significant deficiencies exist that could
adversely affect the Department of the Navy financial reporting.

Material Weaknesses
Management acknowledged that it is unable to comply with applicable reporting requirements and previously
identified significant deficiencies, all of which are material, continue to exist in the following areas.

Financial Management Systems
The Department of the Navy Working Capital Fund system interfaces do not exist between the financial reporting
systems, which result in unmatched disbursements and collections.

Fund Balance With Treasury – Retitled Financial Reporting of Collections and Disbursements
The Department of the Navy Working Capital Fund system interfaces do not exist between the financial reporting
systems, which result in unmatched disbursements and collections.

Accounts Receivable – Retitled as Financial Reporting of Plan to Perform/Order to Cash
The Department of the Navy does not reconcile subsidiary records to corresponding general ledger accounts
on a regular basis, resulting in control weaknesses and no audit trail. The Department of the Navy also posts
unmatched collections to accounts receivable using journal vouchers, leaving no audit trail.

Inventory and Related Property, Net – Retitled as Financial Reporting of Inventory
The Department of the Navy Working Capital Fund supply management activities record inventory at the latest
acquisition cost because the Department of the Navy does not have adequate data, processes, and methodologies
to make accurate conversions. To comply with U.S. GAAP, the latest acquisition cost must be converted to an
approximation of historical cost.

General Property, Plant, and Equipment – Retitled as Financial Reporting of Real Property, and General
Equipment
The Department of the Navy Working Capital Fund cannot establish or support ownership and valuation of
General Equipment because of the lack of supporting documentation, improper interpretation of guidance,
underutilization of the accounting system of record, and system limitations. In addition, the Department of the
Navy cannot substantiate that the asset records represent all General Equipment assets, including all ancillary
costs to the asset, or assign a correct useful life. Further, the Department of the Navy cannot reconcile its property
accountability system with its financial systems, causing its presentation and disclosure of assets to be inaccurate.

Accounts Payable and Other Liabilities – Retitled as Financial Reporting of Procure to Pay Processes

        Accounts Payable. The Accounts Payable line item is adversely affected by insufficient or inconsistent
        reconciliations and supporting documentation; undistributed disbursements; the inability to capture


                                                                                                                Attachment
                                                                                                                Page 1 of 3

                                                              Protect the Nation, Project Power, Provide Freedom of the Seas   145
       trading partner information; and the lack of direct system interfaces, which causes matching difficulties.
       Unmatched disbursements are transferred to accounts payable using journal vouchers, leaving no audit
       trail and often causing abnormal balances.

       Other Liabilities. The Department of the Navy needs to resolve unsupported, undistributed
       disbursements.

Statement of Budgetary Resources
Multiple deficiencies exist within the Statement of Budgetary Resources. Defense Finance and Accounting Service
Cleveland staff posts adjustments to this statement based on proprietary data. The Department of the Navy needs
to ensure that beginning balances are verified, reconciliation processes are established, and performance reviews
are completed. The Department of the Navy needs to identify and correct all disconnects between budgetary and
proprietary data.

Intragovernmental Eliminations
The Department of the Navy systems do not track intragovernmental transactions by customer or provider.
Therefore, the Department of the Navy is unable to fully reconcile intragovernmental transactions with all
Federal partners.

Unsupported Accounting Entries
The Department of the Navy financial feeder systems and accounting systems do not provide sufficient detail to
identify Federal and non-Federal or supported and unsupported transactions.

Operating Materiels and Supplies Retitled as Financial Reporting of Operating Materials and Supplies
The Department of the Navy generally does not include Government Furnished Material in the Operating
Materials and Supplies amounts reported.

Statement of Net Cost
The current Department of the Navy processes and systems do not capture and report accumulated costs for
major programs based upon performance measures as required by the Government Performance and Results Act.
The Department of the Navy is in the process of reviewing the available data and developing a cost reporting
methodology.

Reconciliation of Net Cost of Operations to Budget
The Department of the Navy budgetary data are not in agreement with proprietary expenses and assets
capitalized because of the Department of the Navy financial system limitations. The difference between
budgetary and proprietary data has been previously identified as a system deficiency.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial reporting. We
limited our work to determining compliance with selected provisions of the applicable laws and regulations
because management acknowledged instances of noncompliance, and previously reported instances of
noncompliance continue to exist. Therefore, we did not determine whether the Department of the Navy was in
compliance with selected provisions of all applicable laws and regulations related to financial reporting. Our
objective was not to, and we do not, express an opinion on compliance with applicable laws and regulations.




                                                                                                   Attachment
                                                                                                   Page 2 of 3

146
Federal Financial Management Improvement Act of 1996
FFMIA requires DoD to establish and maintain financial management systems that comply substantially with
the Federal financial management systems requirements, applicable Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level.

For FY 2012, the Department of the Navy did not fully comply with FFMIA. The Department of the Navy
acknowledged that many of its critical financial management and feeder systems did not substantially comply
with the Federal financial management systems requirements, Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level as of September 30, 2012.

Antideficiency Act
Section 1341, title 31, United States Code (31. U.S.C. § 1341) limits the Department of the Navy and its agents
to making or authorizing expenditures or obligations that do not exceed the available appropriations or funds.
Additionally, the Department of the Navy or its agents may not contract or obligate for the payment of money
before an appropriation is made available for that contract or obligation unless otherwise authorized by law.
According to 31 U.S.C. § 1351, if an officer or employee of an executive agency violates the Antideficiency Act
(ADA), the head of the agency must report immediately to the President and Congress all relevant facts and a
statement of actions taken. During FY 2012, the Department of the Navy reported one ADA violation. Therefore,
the Department of the Navy did not comply with 31 U.S.C. §§ 1341 and 1351.

DoD internal guidance limits the time from identification to reporting of ADA violations to 15 months. Our
review of The Department of the Navy ADA investigations of potential violations shows that the Department of
the Navy processed the one ADA violation case within 15 months.

Officials and employees of the Federal Government who violate the Antideficiency Act are subject to appropriate
disciplinary action. According to DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” Volume
14, Chapter 7, “Antideficiency Act Report,”

November 2010, such appropriate administrative disciplinary action may include: written admonishment or
reprimand, reduction in grade, suspension from duty without pay, or removal from office. However, ADA
disciplinary actions taken by the Department of the Navy did not always comply with the DoD Financial
Management Regulation.

Audit Disclosures
The Assistant Secretary of the Navy (Financial Management and Comptroller) acknowledged to us that the
Department of the Navy financial management and feeder systems could not provide adequate evidence
supporting various material amounts on the financial statements and that previously identified material
weaknesses continued to exist. Therefore, we did not perform detailed testing related to previously identified
material weaknesses. In addition, we did not perform audit work related to the following laws and regulations:
Government Performance and Results Act, Prompt Payment Act, Provisions Governing Claims of the United
States Government (including provisions of the Debt Collection Improvement Act), Federal Credit Reform Act,
Improper Payments Information Act, and the Pay and Allowance System for Civilian Employees.

Recommendations
This report does not include recommendations to correct the material weaknesses and instances of
noncompliance with laws and regulations because previous audit reports contained recommendations for
corrective actions or because audit projects currently in process will include appropriate recommendations.

                                                                                                             Attachment
                                                                                                             Page 3 of 3

                                                           Protect the Nation, Project Power, Provide Freedom of the Seas   147
      Department of the Navy Fiscal Year 2012 Annual Financial Report

               Protect the Nation,
                  Project Power,
            Provide Freedom of the Seas




148
                          c       d

                                  e
                                         Cover Credits
         a
                                         a	   Marines look on as an amphibious transport dock ship transits a
                                              canal on its first operational deployment. (U.S. Navy photo by Mass
                                              Communication Specialist 3rd Class Ian Carver/Released)
         b            f           g      b	   A Sailor stands watch next to a .50-caliber machine gun aboard an
                                              aircraft carrier. (U.S. Navy photo by Mass Communication Specialist 3rd
                                              Class Carlos M. Vazquez II/Released)

                                         c	   Plane captains bid farewell to a launching F/A-18F Super Hornet. (U.S.
                                              Navy photo by Mass Communication Specialist 2nd Class James R.
                                              Evans/Released)

                                         d	   Sailors return to the surface after searching for mines during an exercise.
                                              (U.S. Navy photo by Mass Communication Specialist 2nd Class Ernesto
                                              Hernandez Fonte/Released)

                                         e	   Reviewing maintenance requests aboard an aircraft carrier. (U.S. Navy
                                              photo by Mass Communication Specialist Seaman Dean M. Cates/
                                              Released)

                                         f	   An attack submarine gets underway from Souda harbor following a port
                                              visit. (U.S. Navy photo by Paul Farley/Released)
    h                                    g	   A hospital Corpsman cleans scopes for sterilization to be used in surgery
                                              aboard a Military Sealift Command hospital ship. (U.S. Navy photo by
     i                            l           Mass Communication Specialist 2nd Class Roadell Hickman/Released)

                                         h	   Sailors assigned to an amphibious transport dock lower a rigid hull
                                              inflatable boat from the ship’s boat pocket during small boat operations.
j                 k              m            (U.S. Navy photo by Mass Communications Specialist 2nd Class Zane
                                              Ecklund/Released)

                                         i	   Marines conduct weapons training. (U.S. Navy photo by Mass
                                              Communication Specialist 3rd Class Fidel C. Hart/Released)

                                         j	   A Quartermaster determines gyro errors by azimuth of the sun in the
                                              pilothouse aboard a multipurpose amphibious assault ship. (U.S. Navy
                                              photo by Mass Communications Specialist 3rd Class Natasha Chalk/
                                              Released)

                                         k	   Civilian contractors break down the super wedge launcher after
                                              deploying a Scan Eagle unmanned aerial vehicle from the flight
                                              deck of an amphibious dock-landing ship. (U.S. Navy photo by Mass
                                              Communication Specialist 3rd Class Jonathan Sunderman/Released)

                                         l	   A commanding officer of an amphibious assault ship tracks the distance
                                              to a guided-missile destroyer. (U.S. Navy photo by Mass Communication
                                              Specialist 2nd Class Tom Henderson/Released)

                                         m	   A replenishment oiler conducts a replenishment-at-sea with a guided-
                                              missile destroyer as part of a multinational mission-based task force,
                                              working under the Combined Maritime Forces to conduct counter-
                                              piracy operations. (U.S. Navy photo by Mass Communication Specialist
                                              3rd Class John Callahan/Released)




    Preparation of this report cost the Department of the Navy approximately $102,000 in Fiscal Year 2012.
                                   Generated on 2012Nov14 RefID: 3‐620D863
                          For More Information
       Assistant Secretary of the Navy Financial Management and Comptroller
                        http://www.finance.hq.navy.mil/FMC

                                      Navy
                               http://www.navy.mil

                                Marine Corps
                              http://www.marines.mil

                                  Contact Us
    An electronic copy of this report is available at http://www.fmo.navy.mil
Comments or requests for printed copies of this report may be sent to DON_Financial_
                                 Report@navy.mil
